<html>
<title> - BUDGET PROPOSAL FOR THE DEPARTMENT OF THE INTERIOR FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-534]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-534
 
                  BUDGET PROPOSAL FOR THE DEPARTMENT 
                  OF THE INTERIOR FOR FISCAL YEAR 2013 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   TO

CONSIDER THE PRESIDENT'S BUDGET FOR FISCAL YEAR 2013 FOR THE DEPARTMENT 
                            OF THE INTERIOR

                               __________

                           FEBRUARY 28, 2012


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-853 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Bowers, Carla, National WH&B Legislative Team, Volcano, CA.......    47
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Salazar, Hon. Ken, Secretary, Department of the Interior.........     4

                                APPENDIX

Responses to additional questions................................    55


BUDGET PROPOSAL FOR THE DEPARTMENT OF THE INTERIOR FOR FISCAL YEAR 2013

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2012

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we get started.
    This morning, the committee is reviewing the President's 
proposed budget for the Department of the Interior for fiscal 
year 2013. We are very pleased to have Secretary Salazar back 
with us in his old committee room. The Department's proposed 
budget of $11.7 billion in appropriated funds represents a 
slight increase over current funding levels. In my view, it's a 
reasonable proposal. It reflects the difficult choices the 
President's required to make, given the current fiscal 
environment that a number of programs, such as the Land and 
Water Conservation Fund, that I wish were funded at higher 
levels, but I understand the budgetary constraints the 
administration is facing.
    I want to take a minute to just express my support for the 
Secretary's determination to adequately fund and carry out the 
Interior Department's responsibilities for safe and 
environmentally sound oil and gas production in Federal lands, 
and particularly in the Outer Continental Shelf. We were 
commenting in the hall before coming in here that at least it's 
not 2 years ago, when we had the BP oil spill as a very real 
issue before our committee. I believe, especially given the 
challenges of the Deepwater Horizon disaster, the Department 
has acted properly in continuing to focus on safety issues.
    Obviously, there's a lot of concern about gas prices abroad 
in the land. I do believe that domestic production is 
important, robust domestic production is important. It needs to 
be pursued in a responsible way. That clearly is happening. 
Domestic production of both oil and natural gas are up since 
2008. They're projected to continue increasing over the next 10 
years to nearly historic levels. Our oil imports continue to 
decline, and they were down to 49 percent of consumption in 
2010, which is an impressive improvement over where we were 
even 4 or 5 years ago.
    I'm pleased that the budget includes increased funding for 
renewable energy development on public lands as part of the 
Department's new energy frontier initiative. I understand the 
Department has approved 29 commercial-scale renewable energy 
projects and associated transmissions since 2009. I believe 
these efforts hold great promise, and that renewable projects 
can yield important energy for our economy in an 
environmentally responsible way.
    I'm also glad to see that the budget proposes enactment of 
a hardrock abandoned mine land fund for the reclamation of mine 
sites that threaten human health and safety, and cause 
environmental degradation. I'm particularly concerned with the 
legacy of unreclaimed uranium mine sites on Indian lands in 
States such as mine, in New Mexico. Mr. Secretary, I hope you 
can work with me and others here on the committee to seek 
funding to address this very serious issue.
    Finally, I'm pleased to see that the Department's budget 
request demonstrates a strong commitment to implementing the 
Indian water rights settlements around the country, including 
funding for a number of settlements in my State of New Mexico.
    With that, let me defer to Senator Murkowski for her 
opening statement.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Mr. Secretary, 
good morning. Good to see you. Ms. Haze, Mr. Hayes, welcome to 
you as well. Thank you for the work that you've been doing on 
behalf of so many. These are areas that are contentious, most 
certainly, and with a budget, it even makes them more 
contentious.
    I was raised to recognize those that have tried to work 
with us and make good things happen, even if it's not as much 
as I would like, and so I start off my comments this morning by 
thank you, Mr. Secretary, for your personal involvement in 
trying to advance some issues that are critically important to 
my State, and I think to the country, when it comes to domestic 
oil and gas production.
    The last time we were all together was when you came up to 
the State to visit, to look at some of the issues that we had 
before us, specifically CD5, at that time, stalled out, because 
we couldn't get a bridge, permit for a bridge across the area. 
I had, also, an opportunity to look at the OCS projects and 
what Shell is pursuing.
    Mr. Hayes, I truly appreciate that you have committed as 
much of your time to help address not only these issues, but 
some of the other Alaska-specific issues. We've made some 
progress, and I think it is important to recognize that, but I 
also appreciate, as you do, that we've got a ways to go. We 
will continue to work with you, but I appreciate that you are 
working with us, and I thank you for that.
    I would like to address just a couple very Alaska-specific 
issues, and Mr. Secretary, you and I have had a chance to 
discuss them. I'm more than a little bit disappointed about 
within the budget on the Alaska conveyance program, there's an 
enormous reduction to that program. As you know, we've been 
working for well over 40 years to try to get the conveyances to 
our Alaska natives, to try to get the land conveyances that 
were made upon statehood, which is now 53 years ago. We're 
continuing with that, but we can't make these conveyances 
unless we have that budget.
    I addressed our State legislature last week, and one of the 
early questions that came up was the issue of the Federal 
Government's role with regards to our Legacy Wells, the 137 
wells that were drilled by the Federal Government decades ago, 
and sit, without attention, literally falling into the 
landscape. It's an environmental scar. We in Alaska kind of 
feel that that this is a double standard. The private sector is 
held to the highest environmental standard, and yet, the 
Government is saying, well, we can maybe get to 1 or 2 of them 
a year, and I understand that these are budget priority issues, 
but, I think we need to figure out how we make them a priority.
    One of your priorities is full funding for the Land and 
Water Conservation Fund. The chairman has indicated his support 
of that. But it's difficult for me to say, well, we need to 
work to expand and bring even more Federal lands under the 
Federal purview, when we're not taking care of the commitments 
and the responsibilities, the promises that have been made with 
other lands. So, we need to resolve that.
    I also want to bring up the very strange relationship that 
many Alaskans feel, where the Federal Land Management Agencies 
and the perceived overreach of the Federal Government into 
their lives, whether it's the ranger activity on the Yukon 
River, or the lack of cooperation and coordination by refuge 
managers. I think these are legitimate grievances. We need to 
work with you on this. So, I hope that you'll make it a 
priority to improve that relationship.
    Next, is an issue that affects not only Alaska, but many 
others, and these are the new and the higher fees and royalties 
from Interior within this budget. I know that the philosophy is 
that the Federal royalty rate is lower than many State royalty 
rates, but you've got to admit that this isn't exactly a one-
sided bargain. Those States easily trump the Federal Government 
in terms of regulatory stability. So, when we ask them to pay 
more, well, providing less, it really doesn't work.
    I note that the chairman has mentioned the statistics that 
the President also has repeated, that oil and gas production is 
up. That is true. But, when you look to the oil and gas 
production on Federal lands, we've also seen an 11 percent 
decrease on the Federal side. So, I think it's important to put 
that into context.
    I am hoping that we will get a little clarity about the 
disclosure requirements that the Department is working on for 
hydraulic fracking. The question that I would have is whether 
it is just that, whether it's a disclosure requirement, as many 
of the States have advanced, or actually a new set of 
regulations. I think all of us are looking very critically at 
this. We want to make sure that this boom that we are seeing 
across the country, when it relates to our opportunities for 
hydraulic fracking, combined with horizontal drilling, we 
recognize that it has vastly increased our natural gas supply, 
and it's reviving communities, bringing about jobs, but those 
could all be lost if the Federal Government decides to place 
onerous and redundant requirements on the technology.
    Again, I appreciate your efforts in a very difficult area. 
Folks back home in Alaska are talking about nothing but energy 
right now, and it's not just the price at the pump, but it's 
all energy. So you are here at a particularly opportune time 
for us. I thank you, and look forward to questions.
    The Chairman. Mr. Secretary, why don't take whatever time 
you need to describe the administration's proposed budget, and 
then we will, obviously, have questions.
    Thank you for being here.

  STATEMENT OF HON. KEN SALAZAR, SECRETARY, DEPARTMENT OF THE 
                            INTERIOR

    Secretary Salazar. Thank you very much, Chairman Bingaman 
and Ranking Member Murkowski. Thank you, Senator Wyden, and 
Senator Barrasso, Senator Lee, and Senator Shaheen, and Senator 
Franken for all the issues that we work on. Many we agree on, 
and sometimes we disagree, but I do think that we're making 
progress on a whole host of fronts on the energy agenda for the 
United States.
    Let me also just say that at the table with me today is 
Deputy Secretary David Hayes. As Senator Murkowski pointed out, 
he has done a Herculean effort, in terms of moving forward on 
Alaska issues, including the coordination of permitting issues 
in Alaska. Pam Haze, who has been the Budget Director for the 
Department of the Interior for many years now. I also wanted to 
say thank you to the staff on both sides, democrat and 
republican, on this committee that work with us on so many 
issues.
    Let me start out by just characterizing the way that I see 
this budget. Senator Bingaman and distinguished Senators, I see 
it as a squeeze budget, with some tough choices and some very 
painful cuts. It's a budget that cuts government, and requires 
government to do more with less. It supports job creation. Job 
creation, I know, is a focus of this committee, a focus of the 
President. It's job creation and energy, both in the 
conventional energy, as well as renewable energy.
    It supports job creation through conservation and tourism. 
It supports job creation through the water supplies that we 
manage on behalf of the people of this country. Last, it honors 
our important responsibilities to the 566 tribes and Alaskan 
natives of the United States of America.
    Overall, this budget is 3 percent below the budget which 
was enacted by this Congress in 2011. That's 3 percent below 
2011. It's about even with the budget that was enacted in 2012.
    Now, let me review each of these pieces in a little more 
detail. First, in terms of cuts and efficiencies in government, 
which I know many of you have been focused on, wanting to make 
sure that the government is run more efficiently. It's a high 
priority for the President. It's been a high priority for us at 
the Department of the Interior. This budget foresees that there 
will be a downsizing of an additional 591 FTE within the 
Department of the Interior. So, we are asking our employees to 
do a lot more. This is, in fact, even in the climate where we 
have asked them to take pay freezes for many years, at this 
point in time, but we're continuing to figure out a way of 
doing more with less.
    We also have a number of program terminations that are set 
forth in this budget, and downsizing $517 million of downsizing 
and reorganization that's included in this budget. Some of 
these are painful cuts. The national heritage area programs, 
which many of you on this committee, have supported, those are 
cut some $8 million. That's a painful cut. CUPCA, and some of 
the central Utah project, which I know Senator Lee and the Utah 
delegation have been very interested in, which we have 
supported and continue to work on, we have a cut in there of 
$18 million for the central Utah project. Not cuts that I would 
like to see, frankly, but given the tough budget times, these 
are things that we've had to do.
    Administrative efficiencies, which include revisions to how 
we take a look at procurement, and information technology, and 
a whole host of other administrative functions with the 
Department, there's budget for 2013 forecasts that we will be 
able to save $207 million just from administrative 
efficiencies. So, we're doing everything we can, given the 
fiscal times that we face here in this country.
    I want to spend a few minutes speaking about jobs, and 
energy, and the other components of the budget that I made some 
comments at the beginning about.
    First, with respect to energy, you will note in the budget 
there's $662 million for conventional energy. There is $86 
million for renewable energy. This is all part of the 
President's program to move with an all-of-the-above energy 
strategy. So when we look at the $662 million for conventional 
oil and gas, it foresees our robust move into moving forward 
with development of oil and gas resources in the Gulf of 
Mexico, and all of you, including Senator Landrieu, who was a 
the point of the sphere on dealing with the Deepwater Horizon 
Macondo oil spill, know how important it is that we do the job, 
and that we do it right. So, we appreciate the appropriations 
from the Congress last year, relative to helping us do our job 
in the oceans of America. We have a lot more work to do, but 
we're moving forward, not only in the Gulf of Mexico, and 
decisions still have to be made on how we will move forward in 
the Arctic, but preliminary decisions have been made there on 
additional opportunities there.
    On the renewable energy front, which I know Senator Shaheen 
and others have been so strongly supportive of, along with the 
chairman, we're doing a lot of different things, but the 29 
projects, which Chairman Bingaman mentioned at the beginning, 
that really has created a renewable energy revolution on public 
lands. It's not just in California, and Arizona, and New 
Mexico, but also places Senator Lee, and Milford, Utah, where 
we see wind energy, and Senator Barrasso, where we're now 
contemplating and reviewing the potential for a 3,000-megawatt 
project on the eastern part of Wyoming. There are huge things 
that are happening in renewable energy. It's something that 
we're very proud of in the Department, and we couldn't have 
done it without you.
    There are differences in each one of the States. So, for 
example, Senator Murkowski, small renewable energy projects 
that would serve some of the Alaskan native villages is 
something that we are very focused on, and, again, here Deputy 
Secretary Hayes has been leading an effort to try to bring down 
the costs of energy for native villages by looking at 
opportunities with renewable energy, and actually working with 
some members of industry to see how we can get that done. So 
jobs and energy are a big part of this budget.
    Second, jobs and outdoor recreation, and conservation and 
preservation, I think, without a doubt, in each one of your 
States, there is a huge cornerstone of your economies that is 
dependent on our outdoor recreation activities. It's the 
boaters, the hikers, the hunters, the anglers, who bring so 
much to the economy of the States, from Utah, to New Hampshire, 
Minnesota, to Virginia. Everywhere around this country, outdoor 
recreation is a huge addition to our economy.
    When we look at job prospects for the next 10 years, we 
believe that tourism is one of the top 2 areas where we can 
create additional jobs in the United States of America. I'm 
proud to say the President has asked me and Secretary Bryson to 
implement a new tourism strategy that will also focus in on 
some of the outdoor recreation activities and opportunities 
that we have as a Nation.
    Independent sources, independent reports, outside groups 
contemplate that there's approximately 8 million jobs a year 
that are created through outdoor recreation. McKenzie 
International has predicted that we can create an additional 
2.1 to 3.3 million jobs just through outdoor recreation. So, 
much of what you see in this budget is in support of the job 
creation that comes through our conservation efforts.
    In addition, the Department is moving forward with 
supporting water supply issues, which are so important to all 
of you who share the Colorado River Basin, for example. It's an 
area where the 31 million people who depend on Bureau of 
Reclamation projects, including the production of much of the 
food of the United States and the agricultural communities of 
the Southwest. We continue to push on that agenda. So, there is 
a $20 million increase for 2012.
    It will result in an increase of water supply of some 
730,000 acre feet. Now, you think about 730,000 acre feet, 
that's a very significant amount of water through the 
WaterSMART program. It's included in this budget, and working 
with local communities, and with the water users, we expect 
that we will achieve that goal.
    Finally, let me just say that the budget honors the 
commitment that the United States of America does have to the 
tribal Nations of the United States. President Obama vowed from 
day one, when he became President of the United States, that we 
would change the relationship with Native Americans in this 
country. As we have implemented that agenda over the last 3 
years, we have much to be proud of, from the major Indian water 
rights settlements, which this committee has helped lead and 
helped define, to the settlement of Cobell, and so many other 
efforts.
    Law enforcement, we have a number of high-performing 
priority areas, where we have been able to reduce violent crime 
on reservations by as high as 36 percent. We intend to continue 
those law enforcement efforts, and they are set forth in this 
budget as well.
    In conclusion, Mr. Chairman, and all of you, because I 
consider you to be friends, on this committee, let me just say, 
this is a good budget, but it is a squeeze budget, and there 
are tough and painful decisions that are included in this 
budget. It invests in job creation through energy, 
conservation, water, science, and in the honoring of our 
commitment to the tribes of America.
    With that, Mr. Chairman, I'd be happy to take questions.
    [The prepared statement of Secretary Salazar follows:]

 Prepared Statement of Hon. Ken Salazar, Secretary, Department of the 
                                Interior
    Mr. Chairman and members of the Committee, I am pleased to be here 
today to present the details of the 2013 budget request for the 
Department of the Interior. Interior's 2013 budget totals $11.5 
billion, essential level with 2012 funding. The request includes 
reductions and savings of $516.8 million. We made difficult choices in 
this budget, sacrificing in many areas, deferring projects, and 
programming savings for efficiencies in order to maintain funding for 
key priorities and investments that will contribute to strengthening 
the economic vitality and well-being of the Nation.
    As the President has detailed in his Blueprint for an America Built 
to Last, the budget proposes investments in an economy that works for 
everyone. Our budget request supports responsible domestic energy 
development, advances an America's Great Outdoors strategy to maintain 
our legacy and stimulate new opportunities, applies science to address 
the most formidable natural resource challenges, and invests in self-
determination and economic development to strengthen tribal Nations.
                              introduction
    The mission of the Department of the Interior is to protect and 
manage the responsible use of America's natural resources, support our 
cultural heritage and honor the Nation's trust responsibilities to 
American Indians and Alaska Natives.
    Interior's people and programs impact all Americans. According to a 
Department study, in 2010, Interior programs and activities supported 
over two million jobs and approximately $363 billion in economic 
activity. The Department is the steward of 20 percent of the Nation's 
lands. Interior manages the resources of the national parks, national 
wildlife refuges, and public lands and assists States, Tribes, and 
others in the management of natural and cultural resources.
    Interior manages many of the Nation's natural resources, including 
those that are essential for America's industry--oil and gas, coal, and 
minerals such as gold and uranium. On public lands and the Outer 
Continental Shelf, Interior provides access for renewable and 
conventional energy development and manages the protection and 
restoration of surface mined lands. The Department of the Interior 
oversees the responsible development of 24 percent of America's 
domestic oil and gas supplies, while striving to ensure safety and 
environmental protection and the effective collection of revenue from 
this development. We estimate that energy and minerals development on 
Federal lands supported 1.3 million jobs and $246 billion in economic 
activity in 2010.
    The Department is also the largest supplier and manager of water in 
the 17 Western States, promotes and assists others to conserve water 
and extend water supplies, and provides hydropower resources used to 
power much of the Country. The Department estimates that the use of 
water, timber, and other resources produced from Federal lands 
supported about 370,000 jobs and $48 billion in economic activity.
    Interior works to ensure that America's spectacular landscapes, 
unique natural life, and cultural resources and icons endure for future 
generations, tells and preserves the American story, and maintains the 
special places that enable the shared American experience. In 2012, 
visitors made 476 million visits to Interior-managed lands and 
supported an estimated $47 billion in economic activity.
    Interior manages and delivers water, arbitrates long-standing 
conflicts in water allocation and use, and actively promotes water 
conservation. As one of the Nation's primary natural and cultural 
resource stewards, the Department makes decisions regarding potential 
development on the public lands and offshore coastal areas that can 
greatly impact the Nation's energy future and economic strength. 
Factored into this balance is the Department's unique responsibility to 
American Indians and Alaska Natives. The Department supports cutting 
edge research in the earth sciences--geology, hydrology, and biology--
to inform resource management decisions at Interior and organizations 
across the world and in earthquake, volcano, and other hazards to 
protect communities across the Nation. Maintaining and building the 
capacity to carry out these responsibilities on behalf of the American 
people is Interior's primary focus.
                       powering america's economy
    Stewardship of America's lands and natural resources is at the 
heart of the national spirit and the economy--from the responsible 
management and development of natural resources and increasingly, the 
economic power of outdoor recreation.
    In 2011, the Department of the Interior generated a total of $13.2 
billion in receipts benefitting the U.S. Treasury--from a combination 
of fees, royalties, rents and bonuses from mineral, timber, and other 
natural resource development. The Department estimates that 
conventional and renewable energy produced on Interior lands and waters 
results in about $230 billion in economic benefits each year. In 2011, 
of the total receipts generated by Interior, $11.3 billion was 
collected from energy production on public lands, tribal lands, and 
Federal offshore areas--a $2.0 billion increase over the previous 
year--with receipts disbursed and revenues shared among Federal, State, 
and tribal governments.
    Since 2008, oil production from the Federal OCS has increased by 30 
percent, from 450 million barrels to more than 589 million barrels in 
2010. Balancing the need for safety and environmental enforcement, 
Interior currently manages over 35 million acres of the OCS under 
active lease. A recently proposed five-year oil and gas leasing program 
would make more than 75 percent of undiscovered technically recoverable 
oil and gas estimated on the OCS available for development.
    Onshore, the Bureau of Land Management held 32 onshore oil and gas 
lease sales in 2011. The BLM offered 1,755 parcels of land covering 
nearly 4.4 million acres. Nearly three-quarters or 1,296 of those 
parcels of land offered were leased, generating about $256 million in 
revenue for American taxpayers. This was a 20 percent increase in lease 
sale revenue over 2010, following a strong year in which leasing reform 
helped to lower protests and increase revenue from onshore oil and gas 
lease sales on public lands. The BLM recently has seen a 50 percent 
jump in industry proposals to lease for oil and gas exploration. Oil 
and gas companies nominated nearly 4.5 million acres of public minerals 
for leasing in 2011, up from just under 3 million acres the year 
before. Industry nominations are the first step in the BLM leasing 
process. After evaluating the parcels, BLM may offer them at auction. 
Successful bidders can then apply to drill for oil and gas.
    Interior is moving aggressively to put the President's energy 
strategy, Blueprint for a Secure Energy Future, into action and expand 
secure energy supplies for the Nation--a strategy that includes the 
responsible development of renewable energy sources on the public 
lands. At the start of this Administration, there were no solar energy 
facilities sited on the public lands, and wind energy development was 
relatively limited compared to development on private lands. Since 
March 2009, 29 onshore projects that increased approved capacity for 
production and transmission of power have been approved including the 
first ever utility scale solar project, five wind projects, and eight 
geothermal projects. The Cape Wind Energy Project, approved for 
construction and operation, is the first ever offshore commercial wind 
operation. The 2013 budget reflects an expansion of these 
accomplishments with the goal of permitting 11,000 megawatts by the end 
of 2013.
    The President's Blueprint recognizes the economic potential of 
renewable energy development. The economic benefits could be 
particularly significant in America's remote and rural places near 
public lands. The Department's 2010 estimates identified nearly $5.5 
billion in economic impacts associated with renewable energy 
activities, a growing economic sector that supports high paying jobs.
                      growing the economy outdoors
    Interior is at the forefront of the Administration's comprehensive 
effort to spur job creation by making the United States the world's top 
travel and tourism destination. In a recent statement, President Obama 
cited Department of Commerce figures showing that in 2010, 
international travel resulted in $134 billion in U.S. exports. 
International travel to the U.S. is the Nation's largest service export 
industry, with seven percent of total exports and 24 percent of service 
exports. The Bureau of Economic Analysis estimates that every 
additional 65 international visitors to the United States can generate 
enough exports to support an additional travel and tourism-related job. 
According to the travel industry and Bureau of Economic Analysis, 
international travel is particularly important as overseas or ``long-
haul'' travelers spend on average $4,000 on each visit.
    President Obama has asked me to co-chair an interagency task force 
with Commerce Secretary Bryson to develop a National Travel and Tourism 
Strategy to expand job creation by promoting domestic and international 
travel opportunities throughout the United States. A particular focus 
of the Task Force will be on strategies for increasing tourism and 
recreation jobs by promoting visits to the Nation's national treasures. 
The Department of the Interior manages iconic destinations in the 
national parks, wildlife refuges, cultural and historic sites, 
monuments, and other public lands that attract travelers from around 
the country and the globe. According to a Departmental study, in 2010, 
437 million visits were made by American and international travelers to 
these lands, contributing $47.9 billion in economic activity and 
388,000 jobs. Eco-tourism and outdoor recreation also have an impact on 
rural economies, particularly in Arizona, California, Colorado, 
Florida, Nevada, North Carolina, Oregon, Utah, and Wyoming.
    Interior is working to maximize the benefit of the outdoors for the 
millions of Americans at home. Hunting, fishing, and outdoor recreation 
contribute an estimated $730 billion to the U.S. economy each year. 
More than 12 million Americans hunt; more than 30 million Americans 
fish; and three out of four Americans engage in some kind of healthy 
outdoor activity. One in twenty U.S. jobs is in the recreation economy.
    Through the America's Great Outdoors initiative, the Administration 
continues to expand opportunities for recreation--through partnerships 
with States and others and the promotion of America's parks, refuges, 
and public lands. The 2013 budget requests $5.1 billion in support of 
this initiative, a $145.6 million increase compared to 2012. Funding is 
focused on programs supported through the Land and Water Conservation 
Fund, land management operations, and other grant and technical 
assistance programs that promote conservation and improve recreational 
access.
    By encouraging innovative partnerships in communities across the 
Nation, the Administration is expanding access to rivers and trails, 
creating wildlife corridors, and promoting conservation while working 
to protect historic uses of the land including ranching, farming, and 
forestry. As part of America's Great Outdoors, Interior is supporting 
101 signature projects in all States across the Country to make parks 
accessible for children, create great urban parks and community green 
spaces, restore rivers, and create recreational blueways to power 
economic revitalization. Projects were selected in concert with 
governors, tribal leaders, private landowners, and other stakeholders, 
and were evaluated based on the level of local support, the ability of 
states and communities to leverage resources, and the potential to 
conserve important lands and promote recreation.
    The America's Great Outdoors initiative is being implemented in 
partnership with communities and stakeholders across the Country. In 
January of this year, I accepted the first donation of land in south-
central Florida to officially establish the Everglades Headwaters 
National Wildlife Refuge and Conservation Area--conserving one of the 
last remaining grassland and longleaf pine savannah landscapes in 
eastern North America. The new refuge and conservation area--the 556th 
unit of the national wildlife refuge system--was established with the 
support of local ranchers, farmers, and landowners who are working 
cooperatively with Interior and the Fish and Wildlife Service to 
conserve the wildlife values on their lands while retaining their right 
to raise livestock or crops, an approach championed by the Obama 
Administration.
    The Everglades Headwaters National Wildlife Refuge and Conservation 
Area is one example of the new parks and refuges Interior has recently 
established to protect key natural and cultural resources for future 
generations. In addition to 650 miles of new national trails, 
designation of several national natural and historic landmarks, 
Interior welcomes the Martin Luther King, Jr. Memorial in Washington, 
D.C.; the Paterson Great Falls National Historical Park in New Jersey; 
the Fort Monroe National Monument in Virginia; the Dakota Grassland 
Conservation Area in North and South Dakota; New Mexico's first urban 
national wildlife refuge, the Middle Rio Grande National Wildlife 
Refuge in Albuquerque; and a signature America's Great Outdoors project 
in the Crown of the Continent Conservation Area in Montana. Interior 
launched significant efforts to protect America's enduring icons 
including upgrading the Statue of Liberty, initiating repairs to 
earthquake damage at the Washington Monument, and withdrawal of over 
one million acres in the vicinity of the Grand Canyon from additional 
uranium and hardrock mining, to protect and preserve the natural beauty 
of the Grand Canyon.
    Interior's 2013 budget request for appropriations from the Land and 
Water Conservation Fund includes a total of $450 million for Interior 
and Forest Service Program. The budget requests $212.0 million for 
Federal land acquisition within national parks, national wildlife 
refuges, and BLM public land boundaries, including $83.6 million for a 
collaborative program to support landscape-scale conservation projects 
developed in a collaborative process conducted by the Forest Service 
and Interior land management bureaus. Investments in ecologically 
important landscapes will be coordinated with State and local efforts 
to maximize ecosystem benefits, support at-risk species, and create 
wildlife corridors. The request includes $128.4 million for acquisition 
to facilitate protection of parks, refuges, and BLM designated areas 
based on bureau mission-specific priorities.
    The 2013 Federal land acquisition budget for BLM includes funding 
to will improve access for hunters and anglers to the public lands. 
Often these sportsmen and women are frustrated by complicated 
``checkerboard'' land ownership and are unable to access BLM lands that 
provide recreation opportunities. The budget includes $2.5 million that 
will be used to purchase easements to alleviate these challenges and 
provide improved access for public recreation.
    An additional $120 million is proposed for key grant programs 
supported by the LWCF, including $60 million each for the Cooperative 
Endangered Species Conservation Fund program and State LWCF grants.
             spurring growth and innovation through science
    Investments in research and development promote economic growth and 
innovation, ensure American competitiveness in a global market, and are 
critical to achieving the mission of the Department of the Interior. 
Investments in Interior's research and development will improve 
management of U.S. strategic energy and mineral supplies, water use and 
availability, and natural hazard preparedness. Sustainable stewardship 
of natural resources requires strong investments in research and 
development in the natural sciences.
    Research and development funding is increased by nearly $60 million 
in the 2013 budget, with R&D funding increases among all of the DOI 
bureaus, and particularly USGS, FWS, BSEE, BLM and BOR. With these 
investments, Interior will support research that addresses critical 
challenges in energy production and the management of ecosystems, 
invasive species, public lands, and water.
    Recent technology and operational improvements have led to 
increased use of hydraulic fracturing in developing natural gas 
resources. To ensure the prudent and sustainable development of this 
important source of domestic energy, economic development, and job 
creation, the 2013 budget invests in research and development that 
proactively addresses concerns about the potential impacts of hydraulic 
fracturing on air, water, ecosystems, and earthquakes. The 2013 budget 
supports a $45 million interagency research and development initiative 
by the USGS, the Department of Energy, and the Environmental Protection 
Agency aimed at understanding and minimizing potential environmental, 
health, and safety impacts of shale gas development and production 
through hydraulic fracturing.
    The BOEM is working with the University of Texas and a team of 
arctic researchers on a five year comprehensive study of the Hanna 
Shoal ecosystem in the Chukchi Sea off Alaska's northwest coast. Past 
studies have identified this area as an important biological ecosystem, 
which supports a high concentration of marine life. Valuable data on 
physical and biological processes in the area obtained from this 
research effort will be combined with the results of previously 
conducted studies. The resulting information will be used by industry, 
as well as by BOEM in decisions regarding energy development in this 
region, and will be included in future National Environmental Policy 
Act analyses.
    In 2011, USGS used cutting edge technology to complete the genome 
sequencing of the fungus that causes the skin infection that is a 
hallmark of the white-nose syndrome, which is decimating bat 
populations across the country. This sequencing will support further 
research that is necessary to develop management strategies to mitigate 
the spread of the syndrome among bats. Recognizing the impact of this 
is not limited to wildlife health, USGS and university partners 
produced a study which determined that bats contribute $3.7 billion to 
the agricultural economy by eating pests that are harmful to 
agricultural and forest commodities. The 2013 budget provides $1.8 
million for USGS to conduct further research and development to address 
this critical issue.
    In 2013, the Budget requests a $2 million increase in the BLM Wild 
Horse and Burro program to fund research on contraception/ population 
control. Research may include topics such as studies on herd genetics, 
animal behavior and overall rangeland use as it relates to 
sterilization and other population growth suppression techniques. The 
goal of the research will be to develop additional methods to minimize 
wild horse population growth and maintain herd health.
              delivering sustainable growth through water
    Although the Bureau of Reclamation is within the jurisdiction of 
the Energy and Water Subcommittee, it plays a critical role in 
addressing the Nation's water challenges which are of interest the 
Subcommittee. Reclamation maintains 476 dams and 348 reservoirs with 
the capacity to store 245 million acre-feet of water. The bureau 
manages water for agricultural, municipal, and industrial use, and 
provides flood control and recreation for millions of people. 
Reclamation's activities, including recreation, generate estimated 
economic benefits of over $55 billion and support nearly 416,000 jobs.
    These facilities deliver water to one in every five western farmers 
to irrigate about ten million acres of land, and provide water to over 
31 million people for municipal and industrial uses and other 
nonagricultural uses. The water managed by Interior irrigates an 
estimated 60 percent of the Nation's vegetables each year. Reclamation 
facilities also reduce flood damages in communities where they are 
located and thereby create an economic benefit by sparing these 
communities the cost of rebuilding or replacing property damaged or 
destroyed by flood events.
    WaterSMART, established in 2010, has assisted communities in 
improving conservation, increasing water availability, restoring 
watersheds, resolving long-standing water conflicts, addressing the 
challenges of climate change, and implementing water rights 
settlements. The program has provided more than $85 million in funding 
to non-Federal partners, including Tribes, water districts, and 
universities, including $33 million in 2011 for 82 WaterSMART grant 
projects. In December, Interior released a report on the effectiveness 
of the WaterSMART program, which demonstrates the importance of this 
work to the sustainability of resources in the Colorado River Basin.
    Another example of Interior's efforts to stretch water resources is 
the Yuma Desalting Plant in Arizona. Reclamation recently completed a 
year-long pilot operation of the Plant in collaboration with 
California, Arizona, and Nevada water agencies. The pilot demonstrated 
the capability of the Plant to augment Lower Colorado River supplies 
and produced sufficient water for use by about 116,000 people in a 
year. Reclamation and the regional water agencies are reviewing the 
results of this effort to evaluate the potential for long-term and 
sustained operation of the desalting plant.
 encouraging economic development in indian country and honoring trust 
                            responsibilities
    The Department has a unique responsibility to American Indians and 
Alaska Natives, which is upheld by Interior's support for a robust 
government-to-government relationship as demonstrated by a new 
comprehensive and transparent consultation policy that ensures there is 
a strong, meaningful role for tribal governments. The Department and 
the President hosted the third White House Tribal Nations Conference in 
December 2011, bringing together tribal leaders from across the United 
States and enabling tribal leaders to interact directly with 
Administration representatives and identify priority actions for 
American Indians and Alaska Natives.
    In 2011, Interior began planning to implement the landmark $3.4 
billion settlement of the Cobell v. Salazar lawsuit, and appointed a 
Secretarial Commission on Trust Administration and Reform to oversee 
implementation of the Settlement agreement. The Commission is 
undertaking a forward looking, comprehensive evaluation of Interior's 
management of nearly $4 billion in American Indian and tribal trust 
funds--with the goal of making trust administration more transparent, 
responsive, customer focused, and accountable.
    The Department held regional consultations across the Country to 
set the framework for the Cobell land consolidation program. The 
Settlement establishes a $1.9 billion fund for the voluntary buyback 
and consolidation of fractionated land interests to provide individual 
American Indians with an opportunity to obtain cash payments for 
divided land interests and consolidate holdings for economic and other 
uses, a significant benefit for tribal communities. Almost four million 
individually owned interests involving nearly nine million acres have 
been identified as part of this effort.
    To further encourage and speed up economic development in Indian 
Country, the Department took a significant step forward announcing the 
sweeping reform of antiquated, ``one-size-fits-all'' Federal leasing 
regulations for the 56 million surface acres the Federal government 
holds in trust for Tribes and individual Indians. The proposed rule 
identifies specific processes--with enforceable timelines--through 
which the Bureau of Indian Affairs must review leases. The regulation 
establishes separate, simplified processes for residential, business, 
and renewable energy development, so that, for example, a lease for a 
single family home is distinguished from a large solar energy project. 
The proposed regulation incorporates many changes requested by tribal 
leaders during extensive consultations this past year to better meet 
the goals of facilitating and expediting the leasing process for trust 
lands. During the initial consultation period more than 2,300 comments 
were received from more than 70 Tribes as well as several Federal 
agencies, including the Departments of Housing and Urban Development, 
Agriculture, and the Internal Revenue Service. The BIA regulatory 
drafting workgroup is expected to review the comments and publish the 
final rule in 2012.
    The Claims Resolution Act of 2010 settled the Cobell lawsuit and 
four settlements that will provide permanent water supplies and 
economic security for the five New Mexico Pueblos of Taos, the Crow 
Tribe of Montana, and the White Mountain Apache Tribe of Arizona. The 
agreements will enable construction and improvement of reservation 
water systems, irrigation projects, a regional multipueblo water 
system, and codify water-sharing arrangements between Indian and 
neighboring communities. The primary responsibility for constructing 
water systems associated with the settlements was given to the Bureau 
of Reclamation and BIA is responsible for the majority of the trust 
funds.
    Reclamation is requesting $21.5 million in 2013 for the continued 
implementation of these four settlements and $25.0 million for the 
Navajo-Gallup Water Supply project. In total, the Indian Affairs budget 
includes $36.3 million for ongoing Indian land and water settlements, 
which includes $9.5 million for the seventh and final payment for the 
Nez Perce/Snake River Water Rights Settlement.
    A key responsibility for Indian Affairs is ensuring and improving 
the safety of Indian communities. Some Indian reservations experience 
violent crime rates that are twice the national average. The high crime 
rates are a key issue for tribal leaders as they degrade the quality of 
life for residents, attract organized crime, and are a real 
disincentive for businesses to consider these communities for economic 
development. FY 2011 was the second year of a two-year pilot at four 
reservations to conduct expanded community policing, equip and train 
the law enforcement cadre, partner with the communities to organize 
youth groups and after school programs, and closely monitor results. 
The results exceeded expectations with a 35 percent overall decrease in 
violent crime in the four communities. Information about the four 
reservations is being analyzed and the program will be expanded in 2013 
to an additional two communities. The 2013 budget includes $353.9 
million for Public Safety and Justice programs, a program increase of 
$8.5 million to support this expansion and other public safety 
activities.
                      interior's budget in context
    President Obama has challenged agencies to encourage American 
innovation, employ and educate young people, rebuild America, and 
promote economic development. Interior's 2013 budget invests in areas 
that are responsive to these challenges and more. This budget continues 
funding for important programs that will protect the Nation's 
significant natural resources and cultural heritage, makes strategic 
investments in energy development, advances partnerships to leverage 
resources, and seeks improved outcomes for Indian communities. At the 
same time, this budget recognizes the need for fiscal responsibility. 
The priority programs that are level funded with 2012 and limited 
strategic investments proposed in 2013 are balanced by reductions in 
lower priority programs, deferrals and planning efficiencies.
    Taking Fiscal Responsibility--Interior made its 2013 budget 
decisions in the context of the challenging fiscal environment. The 
2013 budget of $11.5 billion, including Reclamation, eliminates and 
reduces lower priority programs, defers project start-ups, reduces 
duplication, streamlines operations, and captures savings. The 2013 
request is $97.9 million, essentially level with 2012 enacted and 
$280.4 million below 2011.
    The 2013 budget contains $516.8 million in program terminations, 
reductions, and savings from administrative efficiencies. Staffing 
reductions of 591 FTEs are planned for 2013, a reduction of 741 FTEs 
from 2011 levels. These personnel reductions are focused on areas where 
there are funding reductions. Staffing reductions will be achieved 
through attrition, and buy-outs in order to minimize the need to 
conduct reductions in force to the greatest extent possible.
    This budget is responsible, with strategic investments in a few, 
targeted areas, and maintains the core functions that are vital to 
uphold stewardship responsibilities and sustain key initiatives. The 
budget also continues efforts to shift program costs to industry where 
appropriate. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress results in 
an additional $6.0 billion, for $17.5 billion in total budget authority 
for Interior in 2013.
    Administrative Savings--As part of the Administration's Campaign to 
Cut Waste, the Department will achieve additional administrative 
efficiencies that result in cumulative savings of $207.0 million from 
2010 to 2013. These reductions are being implemented throughout 
Interior and result from changes in how the Department manages travel, 
employee relocation, acquisition of supplies and printing services, and 
the use of advisory services. The proposed savings in administrative 
functions will not have an impact on programmatic performance, and to 
the greatest extent possible savings will be redirected into priority 
programmatic areas.
    The Department's 2013 budget reflects a freeze on Federal salaries 
for 2012 and a 0.5 percent pay increase in 2013. The budget fully funds 
fixed costs for the civilian pay increase, anticipated changes in the 
Federal contributions to health benefits, rent increases, changes in 
workers and unemployment compensation costs, programs financed through 
the Working Capital Fund, and specific contract requirements for P.L. 
93-638 agreements with Tribes.
    Cost Recovery--Significant portions of Interior's budget are funded 
by cost recovery, offsetting collections, and discrete fees linked to 
uses of lands and resources. The budget proposes to increase cost 
recovery to offset the cost of some resource development activities 
that provide clear benefits to customers. The proposed fees on oil and 
gas inspections are consistent with the recommendations of the National 
Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling. 
The Commission's report stated the oil and gas industry should be 
``required to pay for its regulators'' so that the costs of regulation 
``would no longer be funded by taxpayers but instead by the industry 
that is permitted to have access to a publicly owned resource.''
    The budget includes $48.0 million from new inspection fees to be 
paid by onshore oil and gas producers. Instituting these fees will 
allow for a $10.0 million program increase to be used to strengthen the 
BLM inspection program, along with a $38.0 million decrease in current 
appropriations for BLM as a whole. Similar fees were proposed in 2012 
but not adopted due to concerns about impacts on the producers. The 
fees would be on average, 0.2 percent of the annual income collected by 
the producers. In addition to the proposed onshore inspection fees, 
estimated fee collections from the offshore oil and gas inspections 
instituted in 2012 are slightly increased in 2013 to $65.0 million. 
This fee-based funding is critical to maintaining the Administration's 
aggressive implementation of a robust offshore safety program.
    The 2013 budget proposes a new grazing administrative fee of $1.00 
per animal unit month on a three-year pilot basis. The fee is estimated 
to generate $6.5 million in 2013 and will be used to assist BLM in 
processing grazing permits. During the period of the pilot, BLM would 
work through the process of promulgating regulations for the 
continuation of the grazing fee as a cost recovery fee after the pilot 
expires. The 2013 budget continues an offsetting collection initiated 
in 2012, allowing the Office of Surface Mining to retain coal mine 
permit application and renewal fees for the work performed as a service 
to the coal industry. An estimated $3.4 million will be collected in 
2013.
                   major changes in the 2013 request
    The Department's 2013 budget request totals $11.5 billion in 
current authority including $10.5 billion for programs funded by the 
Interior, Environment, and Related Agencies Appropriations Act. This is 
$140.3 million, or 1.4 percent, above the 2012 level. The 2013 request 
for the Bureau of Reclamation including the Central Utah Project 
Completion Act, funded in the Energy and Water Development 
Appropriations Act, is $1.0 billion in current appropriations, $42.4 
million or 3.9 percent below the 2012 level.
    Interior continues to generate more revenue for the U.S. Treasury 
than its annual appropriation. In 2013, Interior will generate receipts 
of approximately $13.9 billion and propose mandatory legislation with a 
total net savings of roughly $2.5 billion over ten years.
    Bureau of Land Management--The 2013 request is $1.1 billion, 
essentially level with the 2012 enacted budget. This includes a 
decrease of $8.2 million for BLM's two operating accounts, an increase 
of $11.2 million for Land Acquisition, and a reduction of $3.6 million 
that eliminates the Construction account.
    To advance the America's Great Outdoors initiative, the request 
includes $6.3 million in programmatic increases for recreation, 
cultural resources, and the National Landscape Conservation System for 
BLM to expand and improve opportunities for recreation, education, and 
scientific activities while enhancing the conservation and protection 
of BLM managed lands and resources.
    The BLM will continue to promote and facilitate the development of 
renewable energy on public lands, as part of the New Energy Frontier 
initiative. The 2013 budget includes a program increase of $7.0 million 
for renewable energy to support wind, solar, and geothermal energy. An 
additional $13.0 million in program increases are requested to maintain 
and strengthen management of the oil and gas program, along with a 
requested $10 million increase in mandatory funding specifically 
focused on strengthening BLM's oil and gas inspection program. These 
increases would be more than offset by $48.0 million in proposed 
inspection fees to shift the cost of the oil and gas inspection and 
enforcement activity from taxpayers to the oil and gas industry.
    The other major program increase is $15.0 million to implement sage 
grouse conservation and restoration measures to help prevent the future 
listing of the species for protection under the Endangered Species Act. 
The BLM will use $10.0 million of the requested increase to incorporate 
the necessary protections into BLM's land use plans to address 
conservation of the sage grouse. These plans will guide energy 
development, transportation, and other uses and ensure conservation of 
sage grouse habitat. The remaining $5.0 million funds on-the-ground 
projects to restore and improve sage grouse habitat and additional 
inventory, monitoring, and mapping efforts to delineate areas of 
highest priority habitat in the range of the sage grouse. Other program 
increases in the BLM budget include $1.5 million for the Secretary's 
Western Oregon Strategy, $2.0 million for research and development on 
population control in the Wild Horse and Burro Management program, and 
$4.4 million in the Resource Management Planning program to support 
high priority planning efforts.
    A $15.8 million program decrease is proposed in the Rangeland 
Management program, however, the impact of this funding decrease will 
be mitigated by a new grazing administrative processing fee of $1.00 
per animal unit month that BLM proposes to implement on a pilot basis 
through appropriations language, estimated to raise $6.5 million in 
2013. The 2013 budget reduces programmatic funding for the Alaska 
Conveyance program by $12.4 million from the 2012 level. Interior will 
explore opportunities to further streamline the program. A $3.5 million 
program reduction is proposed in the Public Domain Forest Management 
program.
    Bureau of Ocean Energy Management--The 2013 operating request is 
$164.1 million, including $62.7 million in current appropriations and 
$101.4 million in offsetting collections. This is an increase of $3.3 
million above the 2012 enacted level.
    The 2013 budget includes program increases of $2.0 million from the 
2012 enacted level for activities to promote offshore conventional and 
renewable energy development that is safe and environmentally 
responsible. Increased funding will be used to develop baseline 
characterization and monitoring capabilities in the Gulf of Mexico that 
are required as a result of the Deepwater Horizon incident, as well as 
to support renewable energy lease auctions.
    Bureau of Safety and Environmental Enforcement--The 2013 operating 
request is $222.2 million, including $96.3 million in current 
appropriations and $125.9 million in offsetting collections. This is an 
increase of $24.8 million above the 2012 enacted level. The $4.8 
million increase for offsetting collections includes an estimated $3.0 
million increase in inspection fee collections.
    The 2013 budget includes funds to increase operational safety 
capabilities, develop the National Offshore Training and Learning 
Center for inspectors, and conduct research and development activities 
on critical safety systems associated with offshore oil and gas 
development.
    Office of Surface Mining--The 2013 budget request is $140.7 
million, a decrease of $9.5 million from the 2012 enacted level. The 
reduction reflects decreases in grants to States and Tribes to 
encourage regulatory programs to recover costs from fees charged to the 
coal industry and finalize the transition of abandoned mine land 
reclamation from discretionary to mandatory funding.
    I signed a Secretarial Order on October 26, 2011, to review certain 
functions of OSM and BLM for potential consolidation. As part of this 
effort, I asked the Directors of OSM and BLM and other Interior 
officials to report by February 15, 2012 on the results of discussions 
with the bureaus' employees, congressional committees, and interested 
parties, such as Tribes, State regulatory officials, industry 
representatives, and representatives of communities affected by coal 
mining. Our efforts in consolidation will respect existing law and 
identify actions that will strengthen these two bureaus.
    Bureau of Reclamation--The 2013 budget request for the Bureau of 
Reclamation totals $1.0 billion, including the Central Utah Project 
Completion Act program. Interior's 2013 budget proposes to consolidate 
the CUPCA program with the Bureau of Reclamation. This will allow the 
Department to evaluate the priority of the CUPCA program in the context 
of other water programs. The 2013 CUPCA request is $21.0 million, a 
decrease of $7.7 million from the 2012 enacted level. The Bureau of 
Reclamation total adjusted in 2012 to include CUPCA funding, is a 
decrease of $42.4 million below the 2012 enacted level.
    Reclamation's 2013 request reflects reductions due to the 
completion of the construction of Animas-La Plata and the Central 
Valley Project Red Bluff pumping plant and fish screen, discontinues 
the Geographically Defined Investigation Programs and Rural Water 
Program, Title I, and does not continue the following congressional 
additions in the 2012 enacted budget: fish passage and fish screens; 
water conservation and delivery studies, projects and activities; and 
environmental restoration and compliance.
    The 2013 budget includes $7.1 million to begin implementation of 
actions under the Klamath Basin Restoration Agreement that are 
currently authorized under existing law, and some increases in programs 
such as: rural water projects, which includes a $9.2 million increase 
to complete the construction of the Mni Wiconi Project in South Dakota 
by the 2013 sunset date; the WaterSMART program; and the Safety of Dams 
program.
    Funding for Native American programs in Water and Related Resources 
shows a reduction of $52.1 million, reflecting the shift of $46.5 
million to the requested new Indian Water Rights Settlements account 
and smaller decreases. Reclamation is requesting the establishment of 
an Indian Water Rights Settlements account in 2013 to assure continuity 
in the construction of the authorized projects and to highlight and 
enhance transparency in handling these funds. The total for 
Reclamation's implementation of Indian water rights settlements in 2013 
is $106.5 million, $46.5 million in current funding and $60.0 million 
in permanent authority.
    U.S. Geological Survey--The USGS budget request is $1.1 billion, 
$34.5 million above the 2012 enacted level. The President's budget 
supports science, monitoring, and assessment activities that are 
critical to understanding and managing the ecological, mineral, and 
energy resources that underlie the prosperity and well-being of the 
Nation. The 2013 budget includes a program increase of $51.0 million to 
fund research and development priorities in disaster response, 
hydraulic fracturing, coastal and ocean stewardship, and ecosystem 
restoration. The budget also supports the Secretary's initiatives in 
responsible energy development and further resolution of water 
challenges with funding above the 2012 enacted level.
    The USGS budget also includes investments in important science 
programs to help meet societal needs. A program increase of $13.0 
million above 2012 for the WaterSMART Program will be used to conduct 
research on predictive models on regional water availability, explore 
methods of integrating and disseminating data through science 
platforms, and establish a National Groundwater Monitoring Network.
    A program increase of $8.6 million is requested to improve rapid 
disaster response to natural disasters. Funding will be used to improve 
capacity to provide timely and effective science and information 
products to decision makers, in order to minimize the risks hazards 
pose to human and natural systems. Funding will be invested in 
capability improvements to the USGS monitoring networks for rapid 
response to earthquakes, volcanoes, volcanic ash, debris flow, 
tsunamis, floods, hurricanes, and other potential threats to 
populations and infrastructure.
    The budget includes a program increase of $13.0 million to support 
the hydraulic fracturing research and development effort with the 
Department of Energy and Environmental Protection Agency to understand 
and minimize potential adverse environmental, health, and safety 
impacts of shale gas development through hydraulic fracturing. New work 
will build on existing efforts and address issues such as water quality 
and quantity, ecosystem impacts, and induced seismicity.
    With a program increase of $16.2 million, USGS will conduct science 
in support of ecosystem management for priority ecosystems such as the 
Chesapeake Bay, California Bay-Delta, Columbia River, Everglades, Puget 
Sound, Great Lakes, Upper Mississippi River, and the Klamath Basin. 
With an increase of $2.0 million, the USGS will address overarching 
ecosystem issues related to the invasive brown tree snake, white-nose 
syndrome in bats, and coral reef health. These increases will provide 
information management and synthesis and land change science support 
for these ecosystem activities. Included in the total above is $500,000 
identified for research efforts through the DOI Climate Science Centers 
to enhance work with Tribes to understand the impacts of climate change 
on tribal lands. Funding increases will also support priorities in 
sustaining our National environmental capital, including development of 
the first coordinated multi-departmental effort of its kind to develop 
a standardized ecosystem services framework.
    The 2013 budget also provides a program increase of $6.8 million to 
sustain and enhance existing activities and for a new initiative on 
Science for Coastal and Ocean Stewardship that supports priority 
objectives of the National Ocean Policy in the areas of marine and 
coastal science, resource and vulnerability assessments, ecosystem 
based management, and providing science based tools to inform policy 
and management. The USGS will work with partners to provide access to 
comprehensive maps and assessments of seabed and coastal conditions and 
vulnerability. The increase will improve the integrated science needed 
to inform development of resources while conserving the Nation's 
coastal and marine ecosystems.
    Fish and Wildlife Service--The 2013 budget includes $1.5 billion, 
an increase of $72.0 million above the 2012 enacted level. In addition, 
the budget includes a $200.0 million cancellation of prior year 
unobligated balances in the Coastal Impact Assistance program. The 
budget includes America's Great Outdoors increases of $20.9 million in 
the Resource Management account and $52.3 million for land acquisition. 
There is a $3.9 million increase in the North American Wetlands grants 
program, a component of the AGO initiative. State and Tribal Grants are 
funded at $61.3 million, level with 2012. Funding for the Construction 
account is reduced by $3.9 million.
    The budget proposes a program increase of $4.0 million for 
activities associated with energy development. This enables FWS to 
participate fully in priority landscape level planning and assist 
industry and State fish and wildlife agencies as they plan for 
renewable energy projects and transmission corridor infrastructure. The 
2013 budget continues the commitment to ecosystem restoration by 
including $13.5 million for the Everglades, an increase of $3.0 
million; $4.9 million for California's Bay-Delta, level with 2012; 
$10.2 million for the Gulf Coast, level with 2012; $10.3 million for 
the Chesapeake Bay, a program increase of $145,000; and $47.8 million 
for the Great Lakes, a program increase of $2.9 million. Funding for 
the Cooperative Landscape Conservation and Adaptive Science activity is 
$33.1 million, an increase of $856,000. This funding supports the 
operation of 14 Landscape Conservation Cooperatives.
    The budget includes $994.7 million available under permanent 
appropriations, most of which will be provided in grants to States for 
fish and wildlife restoration and conservation.
    The 2013 budget proposes a reduction of $14.0 million to eliminate 
the discretionary contribution to the National Wildlife Refuge Fund 
payments to counties to offset local tax loss due to Federal land 
ownership. An estimated $8 million in mandatory receipts collected and 
allocated under the program would remain. Payments collected by 
counties can be used for non-conservation purposes and as such, this 
Fund does not provide the high priority conservation benefits delivered 
by other FWS programs. The budget also proposes the cancellation of 
$200 million in prior year balances within the Coastal Impact 
Assistance Program.
    National Park Service--The 2013 budget includes $2.6 billion, $1.0 
million below the 2012 enacted level. Within the total available for 
NPS in 2013, $2.4 billion is for programs that support the goals of the 
America's Great Outdoors initiative. The budget proposes strategic 
increases to advance the goals of the initiative, including increases 
of $13.5 million for park operations and $17.5 million for Land 
Acquisition and State Assistance. The budget proposes reductions of 
$7.8 million in the National Recreation and Preservation account from 
the National Heritage Areas program, and $24.2 million from 
Construction. The request for the Historic Preservation Fund is level 
with 2012--grants to States and Tribes are continued at the 2012 level 
of $55.9 million.
    Select programmatic increases in the park operations account 
include $5.0 million for Climate Change Adaptive Management tools, $2.0 
million for U.S. Park Police operations including $1.4 million in 
support of the Presidential Inauguration, $1.2 million for National 
Capital Area parks in support of the Presidential Inauguration, and 
$610,000 for the Challenge Cost Share program. These increases are 
offset with strategic reductions of $24.8 million to park operations 
and service-wide programs.
    Funding for Land Acquisition and State Assistance totals $119.4 
million and includes a programmatic increase of $2.5 million for 
Federal land acquisition. The Land Acquisition proposal includes $9.0 
million for matching grants to States and local entities to preserve 
and protect Civil War battlefield sites outside the national park 
system. The budget also requests a programmatic increase of $15.1 
million for the State Assistance grant program. The $60.0 million 
request for State grants includes $20.0 million for competitive grants 
that support urban parks and green spaces, blueways, and landscape 
level conservation projects in communities that need them the most.
    Funding for Construction includes a programmatic reduction of $25.3 
million for line-item construction projects, however, the budget 
proposes funding for the most critical health and safety projects in 
the national park system. It also includes programmatic reductions of 
$1.5 million from construction program management and planning, 
$760,000 from the housing improvement program, $443,000 from 
construction planning, $450,000 from management planning, and $228,000 
from equipment replacement.
    Indian Affairs--The 2013 budget includes $2.5 billion for Indian 
Affairs programs, a decrease of $4.6 million from the 2012 enacted 
level. This includes an increase of $11.7 million for Operation of 
Indian Programs and a decrease of $17.7 million in the Construction 
account. The budget includes an increase of $3.5 million in Indian Land 
and Water Claim Settlements and a decrease of $2.1 million in the 
Indian Guaranteed Loan program.
    In 2013, the largest increase, $8.8 million, is in Contract Support 
Costs and the Indian Self-Determination Fund, both high priorities for 
Tribes. Public Safety and Justice activities receive a program increase 
of $8.5 million to support additional police officers and detention 
corrections staff.
    The budget proposes program increases of $7.8 million for the Trust 
Natural Resources programs and $7.0 million for Trust Real Estate 
Services programs. Funding increases for Trust Land Management programs 
are proposed to assist Tribes in the management, development, and 
protection of Indian trust land and natural resources. The budget 
proposes a $2.5 million program increase to support increasing 
enrollment at tribal colleges.
    The 2013 request reflects a reduction of $19.7 million as the 
bureau will undergo a consolidation in 2013 to streamline and improve 
oversight operations. The BIA will engage in extensive consultation 
with Tribes to identify strategies that will ensure tribal needs and 
priorities are addressed. Following consultation, Indian Affairs will 
construct an implementation plan for a streamlined, cost-effective 
organization. The budget also includes $13.9 million in administrative 
savings from reductions to fleet, travel, contractors, and awards.
    Departmental Offices and Department-wide Programs--The 2013 request 
for the Office of the Secretary is $261.6 million, a reduction of 
$266,000 from the 2012 enacted level. Of this, $119.6 million is for 
Office of Natural Resources Revenue including a program increase of 
$1.2 million to complete termination of the Royalty-in-Kind program and 
a program decrease of $2.3 million for completed information management 
system upgrades. The budget for OS includes a program increase of $1.6 
million for minerals receipts modeling development to improve revenue 
estimation and reporting capabilities and a program increase of $2.0 
million for facilities rent necessitated by the delay in the Main 
Interior Building modernization project. Other changes include a 
general program reduction of $3.7 million and the transfer of the 
Indian Arts and Crafts Board from OS to BIA resulting in a reduction of 
$1.3 million.
    The Department's 2013 request for the Working Capital Fund 
appropriation is $70.6 million, an increase of $8.7 million from the 
2012 enacted level. Within this request is $62.1 million to continue 
deployment of the Financial and Business Management System including 
implementation of the acquisition and financial assistance 
functionality as recommended by an independent assessment of the 
program. The budget proposes an increase of $3.5 million to improve 
Interior's stewardship of its cultural and scientific collections and 
an increase of $2.5 million to expand collaboration similar to the 
Service First to improve delivery and operating costs. Proposed 
reductions include $5.0 million to reflect the shift of the 
Department's Information Technology Transformation initiative from 
appropriated funds to the Departmental Working Capital fund and $2.5 
million for completion of the Department's Acquisition Improvement 
initiative.
    Major changes in other Departmental programs include an increase of 
$243.0 million in the Wildland Fire Management program. The net 
increase is comprised of a program increase of $195.8 million that 
fully funds the 10-year suppression average and a program reduction of 
$39.0 million in the Hazardous Fuels Reduction program reflecting a 
refocusing of the program toward treatments in the wildland-urban 
interface.
    The budget request for the Office of Insular Affairs is $88.0 
million, a decrease of $16.4 million from the 2012 enacted level. The 
budget includes $5.0 million to mitigate the impacts and costs of 
Compact migration and $3.0 million to implement energy projects 
identified by the Territories' sustainable energy strategies. Funding 
of $13.1 million for the Palau Compact is not requested for 2013 as it 
is expected the Compact will be authorized in 2012.
    The Office of the Special Trustee request is $146.0 million, $6.1 
million below the 2012 enacted level. The 2013 request includes a 
program increase of $3.0 million for the Office of Trust Review and 
Audit to conduct compliance audit reviews for Interior bureaus. The 
budget includes program decreases of $9.9 million for streamlining, 
administrative savings, and the completion of certain trust reform 
activities.
                          mandatory proposals
    In 2013, Interior will collect $13.9 billion in receipts and 
distribute $6.0 billion in permanent funding without further 
appropriation for a variety of purposes, under current law. The budget 
includes 13 legislative proposals that will be submitted to the 
Congress to collect a fair return to the American taxpayer for the sale 
of Federal resources, to reduce unnecessary spending, and to extend 
beneficial authorities of law. Together these proposals will save a net 
total of approximately $2.5 billion over the next decade.
    Reform Coal Abandoned Mine Land Reclamation--The Administration 
proposes to reform the coal Abandoned Mine Lands program to reduce 
unnecessary spending and ensure the Nation's highest priority sites are 
reclaimed. First, the budget proposes to terminate the unrestricted 
payments to States and Tribes that have been certified for completing 
their coal reclamation work because these payments do not contribute to 
abandoned coal mine lands reclamation. Second, the budget proposes to 
reform the distribution process for the remaining funding to 
competitively allocate available resources to the highest priority coal 
abandoned mine lands sites. Through a competitive grant program, a new 
Abandoned Mine Lands Advisory Council will review and rank the 
abandoned coal mine lands sites, so OSM can distribute grants to 
reclaim the highest priority coal sites each year. These reforms will 
focus available coal fees to better address the Nation's most dangerous 
abandoned coal mines while saving taxpayers $1.1 billion over the next 
ten years.
    Create a Hardrock Abandoned Mine Reclamation Fund--To address the 
legacy of abandoned hardrock mines across the U.S., the Administration 
will propose legislation to create a parallel Abandoned Mine Lands 
program for abandoned hardrock sites. Hardrock reclamation would be 
financed by a new abandoned mine lands fee on the production of 
hardrock minerals on both public and private lands. The BLM would 
distribute the funds through a competitive grant program to reclaim the 
highest priority hardrock abandoned sites on Federal, State, tribal, 
and private lands. This proposal will hold hardrock mining companies 
accountable for cleaning up the hazards left by their predecessors 
while generating $500 million in savings over 10 years.
    Reform Hardrock Mining on Federal Lands--The Administration will 
submit a legislative proposal to provide a fair return to the taxpayer 
from hardrock production on Federal lands. The legislative proposal 
would institute a leasing program under the Mineral Leasing Act of 1920 
for certain hardrock minerals including gold, silver, lead, zinc, 
copper, uranium, and molybdenum, currently covered by the General 
Mining Law of 1872. After enactment, mining for these metals on Federal 
lands would be governed by the new leasing process and subject to 
annual rental payments and a royalty of not less than five percent of 
gross proceeds. Half of the receipts would be distributed to the States 
in which the leases are located and the remaining half would be 
deposited in the Treasury. Existing mining claims would be exempt from 
the change to a leasing system but would be subject to increases in the 
annual maintenance fees under the General Mining Law of 1872. Holders 
of existing mining claims for these minerals could, however, 
voluntarily convert claims to leases. The Office of Natural Resources 
Revenue will collect, account for, and disburse the hardrock royalty 
receipts. The proposal is projected to generate Treasury revenues of 
$80.0 million over ten years.
    Fee on Non-producing Oil and Gas Leases--The Administration will 
submit a legislative proposal to encourage energy production on lands 
and waters leased for development. A $4.00 per acre fee on non-
producing Federal leases on lands and waters would provide a financial 
incentive for oil and gas companies to either get their leases into 
production or relinquish them so the tracts can be leased to and 
developed by new parties. The proposed $4.00 per acre fee would apply 
to all new leases and would be indexed annually. In October 2008, the 
Government Accountability Office issued a report critical of past 
efforts by Interior to ensure companies diligently develop their 
Federal leases. Although the report focused on administrative actions 
the Department could undertake, this proposal requires legislative 
action. This proposal is similar to other non-producing fee proposals 
considered by the Congress in the last several years. The fee is 
projected to generate revenues to the U.S. Treasury of $13.0 million in 
2013 and $783.0 million over ten years.
    Net Receipts Sharing for Energy Minerals--The Administration 
proposes to make permanent the current arrangement for sharing the cost 
to administer energy and minerals receipts, beginning in 2014. Under 
current law, States receiving significant payments from mineral revenue 
development on Federal lands also share in the costs of administering 
the Federal mineral leases from which the revenue is generated. In 
2013, this net receipts sharing deduction from mineral revenue payments 
to States would be implemented as an offset to the Interior 
Appropriations Act, consistent with identical provisions included in 
the Act since 2008. Permanent implementation of net receipts sharing is 
expected to result in savings of $44.0 million in 2014 and $449.0 
million over ten years.
    Repeal Oil and Gas Fee Prohibition and Mandatory Permit Funds--The 
Administration proposes to repeal portions of Section 365 of the Energy 
Policy Act, beginning in 2014. Section 365 diverted mineral leasing 
receipts from the U.S. Treasury to a BLM Permit Processing Improvement 
Fund and also prohibited BLM from establishing cost recovery fees for 
processing applications for oil and gas permits to drill. Congress has 
implemented permit fees through appropriations language for the last 
several years and the 2013 budget proposes to continue this practice. 
Upon elimination of the fee prohibition, BLM will promulgate 
regulations to establish fees for applications for permits to drill 
administratively, with fees starting in 2014. In combination with 
normal discretionary appropriations, these cost recovery fees will then 
replace the applications for permits to drill fees currently set 
annually through appropriations language and the mandatory permit fund, 
which would also be repealed starting in 2014. Savings from terminating 
this mandatory funding are estimated at $18.0 million in 2014 and $36.0 
million over two years.
    Geothermal Energy Receipts--The Administration proposes to repeal 
Section 224(b) of the Energy Policy Act of 2005. Prior to passage of 
this legislation, geothermal revenues were split between the Federal 
government and States with 50 percent directed to States, and 50 
percent to the Treasury. The Energy Policy Act of 2005 changed this 
distribution beginning in 2006 to direct 50 percent to States, 25 
percent to counties, and for a period of five years, 25 percent to a 
new BLM Geothermal Steam Act Implementation Fund. The allocations to 
the new BLM geothermal fund were discontinued a year early through a 
provision in the 2010 Interior Appropriations Act. The repeal of 
Section 224(b) will permanently discontinue payments to counties and 
restore the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in savings of $4.0 million in 2013 and $50.0 
million over ten years.
    Deep Gas and Deepwater Incentives--The Administration proposes to 
repeal Section 344 of the Energy Policy Act of 2005. Section 344 
mandated royalty incentives for certain ``deep gas'' production on the 
OCS. This change will help ensure Americans receive fair value for 
Federally owned mineral resources. Based on current oil and gas price 
projections, the budget does not assume savings from this change; 
however, the proposal could generate savings to the Treasury if future 
natural gas prices drop below current projections.
    Repeal of Authorities to Accept Royalty Payments In Kind--The 
Administration proposes to solidify a recent Departmental reform 
terminating the Royalty-in-Kind program by repealing all Interior 
authorities to accept future royalties through this program. This 
change will help increase confidence that royalty payments will be 
properly accounted for in the future. The budget does not assume 
savings from this change because the Administration does not anticipate 
restarting the program; however, if enacted, this proposal would 
provide additional certainty that a new Royalty-in-Kind program could 
not be initiated at some point in the future.
    Federal Land Transaction Facilitation Act--The Administration 
proposes to reauthorize this Act that expired July 25, 2011 and allow 
lands identified as suitable for disposal in recent land use plans to 
be sold using the Act's authority. The sales revenues would continue to 
be used to fund the acquisition of environmentally sensitive lands and 
to cover the administrative costs associated with conducting sales.
    Federal Migratory Bird Hunting and Conservation Stamps--Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15.00 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991, 
while the cost of land and water has increased significantly. The 
Administration proposes to increase these fees to $25.00 per stamp per 
year, beginning in 2013. Increasing the cost of Duck Stamps will bring 
the estimate for the Migratory Bird Conservation account to 
approximately $58.0 million. With these increased receipts, the 
Department anticipates additional acquisition of approximately 7,000 
acres in fee and approximately 10,000 acres in conservation easement in 
2013. Total acres acquired for 2013 would then be approximately 28,000 
acres in fee title and 47,000 acres in perpetual conservation 
easements.
    Compact of Free Association--On September 3, 2010, the U.S. and the 
Republic of Palau successfully concluded the review of the Compact of 
Free Association and signed a 15-year agreement that includes a package 
of assistance through 2024. Under the agreement, Palau committed to 
undertake economic, legislative, financial, and management reforms. The 
conclusion of the agreement reaffirms the close partnership between the 
U.S. and the Republic of Palau. Permanent and indefinite funding for 
the Compact expired at the end of 2009. The 2013 budget seeks to 
authorize permanent funding for the Compact as it strengthens the 
foundations for economic development by developing public 
infrastructure and improving health care and education. Compact funding 
will also support one or more infrastructure projects designed to 
support Palau's economic development efforts. The Republic of Palau has 
a strong track record of supporting the U.S. and its location is 
strategically linked to Guam and U.S. operations in Kwajalein Atoll. 
The cost for this proposal for 2013-2022 is $184.0 million.
    Extension of Payments in Lieu of Taxes--PILT payments are currently 
authorized only through 2012. The budget proposes a one-year extension 
of mandatory PILT payments at the current authorization levels in 2013. 
These payments support local government services in counties that have 
significant Federal lands within their boundaries. The Administration 
looks forward to working with Congress to develop a longer-term 
strategy for providing sustainable levels of funding for PILT payments, 
in light of overall constrained budgets and the need for appropriate 
offsets for new mandatory spending. This extension utilizes the current 
PILT payment formula that is prescribed by law and based on population, 
certain receipt sharing payments, and the amount of Federal land within 
an affected county. The cost for this proposal in 2013 is estimated at 
$398.0 million.
                    offsetting collections and fees
    The budget includes several proposals to increase cost recovery 
fees, so that industries share some of the cost of regulation.
    Fee Increase for Offshore Oil and Gas Inspections--Through 
appropriations language, the Administration proposes to continue the 
current offshore inspection fee levels authorized by Congress in 2012. 
These fees are estimated to generate $65.0 million in 2013, up from 
$62.0 million in 2012, from operators with offshore oil and gas 
drilling facilities that are subject to inspection by BSEE. The 
increased fees will fund an expanded inspection program, and as enacted 
for 2012, operators will now be charged for the inspection of drilling 
rigs in addition to production platforms. These inspections are 
intended to increase production accountability, human safety, and 
environmental protection.
    New Fee for Onshore Oil and Gas Inspections--Through appropriations 
language, the Administration proposes to implement an inspection fee in 
2013 for onshore oil and gas drilling activities that are subject to 
inspection by BLM. The proposed inspection fee is expected to generate 
an estimated $48.0 million in 2013, $10.0 million more than the 
corresponding $38.0 million reduction in requested BLM appropriations, 
thereby expanding the capacity of BLM's oil and gas inspection program. 
The fee would support Federal efforts to increase production 
accountability, human safety, and environmental protection.
    Onshore Oil and Gas Drilling Permit Fee--The 2013 budget proposes 
to continue a fee for processing drilling permits through 
appropriations language, an approach taken by Congress in the Interior 
Appropriations Acts. A fee of $6,500 per drilling permit was authorized 
in 2010, and if continued, would generate an estimated $32.5 million in 
offsetting collections in 2013.
    Grazing Administrative Fee--The 2013 budget includes a new grazing 
administrative fee of $1.00 per animal unit month. The BLM proposes to 
implement the fee through appropriations language on a three-year pilot 
basis. The budget estimates the fee will generate $6.5 million in funds 
that will assist the BLM in processing grazing permits. During the 
period of the pilot, BLM would work through the process of promulgating 
regulations for the continuation of the grazing fee as a cost recovery 
fee after the pilot expires.
    Surface Mining and Reclamation Permit Fee--The 2013 budget 
continues an offsetting collection initiated in 2012, allowing OSM to 
retain coal mine permit application and renewal fees for the work 
performed as a service to the coal industry. The fee will help ensure 
the efficient processing, review, and enforcement of the permits 
issued, while recovering some of the regulatory operations costs from 
the industry that benefits from this service. The fee, authorized by 
section 507 of SMCRA, would apply to mining permits on lands where 
regulatory jurisdiction has not been delegated to the States. The 
permit fee will generate an estimated $3.4 million in offsetting 
collections in 2013.
                               conclusion
    Thank you for the opportunity to testify on the President's 2013 
budget request for the Department of the Interior. We have a tremendous 
opportunity to invest in America's energy independence and economic 
growth. This budget balances forward looking investments with fiscal 
restraint. For America to be at its best, we need lands that are 
healthy, waters that are clean, and an expanded range of energy options 
to power our economy. This concludes my written statement. I am happy 
to answer any questions that you may have.

    The Chairman. Thank you very much.
    Let me start with a few questions related to the oil and 
gas industry. I think, Senator Murkowski, you said that that 
there has been a reduction in oil and gas production on Federal 
lands, although, the oil and gas production in the country, 
overall, has increased. That's not my understanding, but I 
wanted to ask you, Mr. Secretary, if you have those figures 
available, and if you could inform us as to what has happened 
with regard to production of oil and natural gas on Federal 
lands, both on shore and offshore.
    Secretary Salazar. Chairman Bingaman, I appreciate the 
question. I think the bottom line that we should all be very 
proud of is the fact that we have been able to develop our 
domestic resources in a very robust way. When you look at the 
crude oil production in the United States in 2011, it's the 
highest level since it's been in 2003. When you look at oil 
imports into this country, they've dropped below 50 percent.
    I remember being on that side of the table when we were 
speaking about import levels that were above 60 percent, and 
not so long ago, at 70 percent. So, we're moving in the right 
direction, and it's coming about as a result of multiple 
approaches, including what's happened with development of 
private lands, and the domestic gas industry, which is so 
abundant and so important to the future of this country. But, 
it's also happening with respect to our efforts in the onshore, 
as well as in the offshore, and so let me just say something 
about the public lands onshore.
    On public lands, the natural gas production just on the 
public lands alone, Senator Murkowski, was the second highest 
since 2004, and oil produced on public lands, highest in 2010, 
since 1997. So, the amount that is being produced is very huge.
    I would also say that contrary to some of the reports that 
you see from some of the trade associations in the press, we've 
continued to provide permits and to lease out vast amounts of 
acreage. Right now, on the onshore, for example, 7,000 permits 
are out there that companies hold in their hands, and they 
ought to be moving forward on those 7,000 permits.
    Offshore, this committee knows very well, because of the 
number of hearings that you held with respect to the Deepwater 
Horizon and the Gulf oil spill, we have stood up the industry 
again. Today, we have more rigs working out there in the Gulf 
of Mexico than there were right before the oil spill, and we've 
continued to do leases in the Outer Continental Shelf, 
including the first lease in the Gulf, which we held back in 
December.
    I attended that hearing in New Orleans, and it was one 
which attracted more than $338 million in bids in the Gulf of 
Mexico. We expect to have a combined lease sale from 2 areas in 
June or July of this year. In addition to that, Secretary 
Clinton, at the direction of President Obama and President 
Calderon, and I just signed a major transboundary agreement in 
the Gulf of Mexico that will allow development to move forward 
with both our resources on the transboundary area as well as 
with the resources on the Mexican side. So, we continue to be 
very bullish about the opportunity to develop our oil and gas 
resources on the public lands, both onshore as well as 
offshore.
    The Chairman. Let me ask on a different issue, the Park 
Service has been working for some time to put in place a final 
rule with regard to over-flights in the Grand Canyon. The 
reason I'm asking about this is we have a transportation bill 
on the Senate floor, and one of the amendments that has been 
offered is an amendment we've seen before, which would 
essentially override what the Park Service would propose in 
that regard.
    Could you tell me when the Park Service would expect to 
have a final rule in place on this issue? Do we have a date 
certain that we could say that this will be established by a 
certain date?
    Secretary Salazar. Chairman Bingaman, I do not. I know it's 
been a tough issue to work through, and I will be happy to 
speak with Director Jarvis, and get that information to you.
    The Chairman. OK. That will be helpful.
    Let me ask about another somewhat parochial issue. In 2006, 
we passed the United States Mexico Transboundary Aquifer 
Assessment Act. This was directing the Geological Survey to 
work with States and universities, both in the U.S. and in 
Mexico, to do an assessment of underground water aquifers on 
the 2 sides of the border.
    It's my understanding that we don't have any funds being 
allocated to continue with this work at the current time. I 
don't know if this is something you focused on, but to me, it's 
important. We have large population centers in El Paso and 
Wattis, that you're very familiar with, that there's great 
disagreement between officials in the 2 countries as to what 
the groundwater situation is, and the thought behind this 
legislation was to try to correct that.
    Is this an issue you could give us any information on 
today? Or maybe you need to get back to me on the record for 
this
    Secretary Salazar. Let me get back to you. On the record, 
let me just say that I have been to El Paso and have worked on 
issues regarding both the Rio Grande and the Colorado River 
systems, and under the great leadership of the Bureau of 
Reclamation Commissioner Mike Connor, we have made huge 
progress on the surface water issues between the United States 
and Mexico. We have developed a series of agreements with the 
States on the Colorado River. We are working on some on the Rio 
Grande as well.
    The underground issues, with respect to the transboundary 
aquifers, I believe that we were not able to fund those 
studies, because the money just was not in the budget. But I 
recognize the importance of the issue. Let me get back to you, 
Chairman Bingaman, with more specific information on what, if 
anything, we were able to do with the money that we have, or 
has or has not been requested.
    The Chairman. Thank you. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    In the discussion that you were having with Senator 
Bingaman, it sounds like there's going to be some debate back 
and forth in terms of what the real numbers are, where the 
activity is. But, I'm looking at a map here of the lower 48 
States that indicate that 93 percent of shale oil and gas wells 
are on private and State land, and that's where we're seeing 
this uptick.
    You know, I think it is important for us to understand 
where we're seeing the increased activity, and I would like to 
see more on the Federal side, not only in the lower 48, but, of 
course, up north. So I think this is a pretty telling map. So 
we'll share that with you.
    I wanted to ask you about this royalty study that came out. 
Apparently, last week, the Department of the Interior had 
commissioned it last year to compare the Federal royalty rates 
with other regimes. The report says when comparing 
jurisdictions, based on average government take among the cases 
generated for this study, all 3 Federal jurisdictions are 
levering a higher government take than other jurisdictions, 
relative to their remaining recoverable reserve ranking.
    It also found that the bonus bids, which, of course, are 
pretty significant, can top $3 billion in a single lease sale, 
aren't being counted when the government assesses whether the 
taxpayers are getting a fair return on their resources, which 
is a pretty large factor to leave out.
    So, as it relates to the onshore piece, the question that I 
would ask is whether we're really ready to call for an increase 
in royalties on Federal onshore areas. The report said, and 
this was just one piece pulled out of it, ``Any of the 
suggested alternative rates for Wyoming Federal lands, however, 
will deteriorate their competitive position in the market, 
which is rather weak, as it is.'' Now, that's coming from your 
report, indicates that onshore, it really questions whether or 
not we should be increasing those royalty rates, because it 
will make the lands less competitive. Then as it relates to 
offshore royalty, the study says, ``Any increase of the already 
high royalty rate levied in the Gulf of Mexico will increase 
the risk of system instability. Any potential gains from the 
higher royalty rate are likely to be offset by reduced revenue 
from signature bonuses and its lower pace of leasing.''
    So, what I'm trying to understand is, given what your own 
report has said, why are we proposing within this budget to 
raise the royalty rates both onshore and offshore?
    Secretary Salazar. Senator Murkowski, I'm going to have 
David Hayes respond to the specific question. But, let me just 
say that the principle that we have followed, and we will 
follow in looking at these royalty rates, including the onshore 
royalty rates, is the principle of the fair return to the 
taxpayers. I think, as I've not reviewed the whole of the 
study, but what I remember from the pieces that I did read, is 
that when you look at the onshore royalty rates, Texas, 
Alabama, and many other States have a royalty rate that is 
significantly higher than what the United States has. So the 
question is whether the United States citizen and the taxpayer 
is getting a fair return on these lines, and so that's what we 
will look at.
    Senator Murkowski. OK.
    Secretary Salazar. I need to take a look at the whole of 
the report. But, let me have David, because I think he may have 
more on the timeline.
    Senator Murkowski. Mr. Hayes, if you can also address the 
issue of whether or not the bonus bids then are being counted 
when the government assesses whether the taxpayers are getting 
a fair deal, because it's my understanding that they're not. I 
would further add that the difference that you might have in 
North Dakota or Texas is you've got a level of stability and 
predictability there that we're not seeing, certainly, with the 
Federal leases. So, Mr. Hayes.
    Mr. Hayes. Senator, there are a variety of studies that are 
under way to help address the question of whether the taxpayer 
is getting an appropriate royalty rate or not. Of course, this 
started with a GAO study, which very strongly suggested that 
the Federal leases were not getting an equivalent rate to many 
State leases, with Texas being a prime example.
    This study, as you know, primarily looks at the global 
question, and there are very few U.S. jurisdictions in this 
particular study. We're looking at that analysis, and we'll 
address it. I don't know the answer to your specific question 
about the bonus issue or not. It's a very important study, and 
it's part of it. We have another significant study under way as 
well, and it's the cumulative impact of all of these studies 
that we will utilize to determine if and what an appropriate 
proposal would be for a royalty rate.
    Senator Murkowski. It was my understanding that the GAO 
study was the one that left out the bonus bids, and, again, 
extraordinarily significant when you factor in what the Federal 
Government receives. $3 billion is pretty significant.
    My time is up, but I'll come back for a second round. What 
I would leave you with is this is the Department of the 
Interior's study. This is what you had requested, in terms of 
the comparative royalty study. So, the fact that you're saying 
that it was more of a global study, as opposed to one 
domestically, I obviously need to understand a little bit more 
about what was requested. But what came out, I think, is pretty 
telling, in saying that efforts to increase the royalty rates 
onshore or offshore will make us less competitive and I don't 
think that that's a position that we would like to be in.
    Thank you, Mr. Chairman.
    Secretary Salazar. If I may, Senator Murkowski.
    Senator Murkowski. Yes.
    Secretary Salazar. I think the study has to be read as a 
whole, and we obviously will do that. But, it was the GAO's 
finding back in 2008 that said that the American taxpayer was 
not getting its fair return, and so these studies have been put 
together to do that. My understanding is that it has a very 
different conclusion than the one that you articulated, but 
we'll take a look at it, and we'll work with you, because at 
the end of the day, we ought to be getting a fair return to the 
taxpayer.
    Senator Murkowski. Thank you, sir.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Secretary. I want to welcome 
Secretary Salazar as well. Today, as a former member of this 
committee, he always reaches out to us, and did again with me 
last night. Mr. Secretary, it's very much appreciated, and I 
know other colleagues feel the same way.
    Let me ask you a question about gasoline prices, if I 
might, to start with. The argument is being made that the 
reason gasoline prices are so high is that you haven't opened 
up enough public land. You've heard that argument, and it's 
been made by a variety of groups and individuals. Your 
testimony, of course, today counters that, and describes that 
you disagree with that position.
    So, I think it would be helpful if you could lay out on the 
record, particularly because trends are so important, what 
areas in the last year, offshore and onshore, have you opened 
up for energy development?
    Secretary Salazar. Thank you, Senator Wyden, for that 
question. You know, we have moved aggressively in opening up 
and putting on the market new areas in the Gulf of Mexico. The 
conclusion of the treaty that Secretary Clinton and I signed 
last week, or the agreement, which still has to be ratified by 
the Congress, is part of that effort in the Gulf of Mexico.
    We're moving forward to look at the potential for oil and 
gas exploration in the Arctic Seas. Onshore Alaska, Senator 
Murkowski well knows, the 22-million acre national petroleum 
reserve area, through the construction of the bridge into CD5, 
it may open that up in a very significant way. Onshore, I 
believe the numbers are close to 40 million acres of land has 
been leased to oil and gas companies.
    As I indicated in my earlier testimony, there are 7,000 
permits out there that have been given onshore, and just 
waiting for companies to drill, and the Gulf is back, and the 
Gulf is working. So I think we are doing everything that we 
can.
    In terms of the gas price question, I think the realty of 
it is that it's easy to play politics with gas prices, and 
everybody has their bumper sticker solution to what we can do 
with it. The reality of it is that gas prices are set on the 
global market. You know, the instability in the Middle East is 
part of what has created the most recent gas price hike. We've 
seen these kinds of spikes over a long period of time, dating 
back, according to a report that I have at Interior, to 1857. 
So these kinds of issues are issues that we've confronted in 
the past.
    Senator Wyden. There's no question that there are a variety 
of factors with respect to gasoline prices. You didn't mention 
Iran, for example. I sit on the Intelligence Committee. We 
can't get into classified matters, obviously, but there are a 
whole host of issues. I think the only other point on gasoline 
prices is, I think it would be very helpful for the record, and 
I think you have this information Mr. Hayes.
    The Secretary went through, I think, 3 major areas that he 
felt would constitute significant additions and supply, a 
couple of comments with respect to onshore. I think, for the 
record, if you could tell us your projections of what that 
would mean in terms of additional supply, I think that would be 
helpful.
    Let me move on to one other quick question. It involves the 
matter you and I talk about often, Secretary Salazar, and 
that's the forestry situation in my home State. As you know, 
we're particularly concerned, because the cut level doesn't 
seem to be going up at the rate we need, particularly in 
southern Oregon and in Medford.
    Now, to your credit, you-all are proposing 5 new pilot, you 
know, projects. You're dealing with a host of protests of sales 
from, you know, previous years. So the question is going to be: 
How are you going to balance all of these multiple tasks, get 
out the timber sales, and get the volume up, which means that 
you've got to essentially perform on a number of fronts, in 
order to try to strike the kind of balanced multiple-use 
approach we want for forestry in our part of the world.
    How are you going to juggle those things, so that we can 
get more timber to the mills, particularly in southern Oregon, 
Mr. Secretary?
    Secretary Salazar. Senator Wyden, thank you for your 
leadership on the issue. It is a difficult issue, and I will 
say that what we have done in developing the ecological 
forestry principles has followed the lead of Dr. Franklin and 
Dr. Johnson. They are the ones who are probably most respected, 
in terms of how you can do ecological forestry. I was in 
Medford, at the Pilot Joe project, and saw timbering that was 
going on in that place. Timber is being cut, and not just 
thinning out of the forest, but also timber that is 
substantial, that will provide timber to the mills.
    There are some few hundred timber sales that are forecast 
by the BLM to go on the market in the year ahead. We hope that 
we are able to move forward with the sustainable forestry 
principles developed by Dr. Johnson and Dr. Franklin, to be 
able to provide timber to the mills, and at the same time be 
able to move forward with a healthy forest initiative that will 
restore the habitat, and also address other issues that have 
been very difficult, such as the issues relating to the Barred 
Owl and the invasive species, which is creating significant 
problems for the Spotted Owl.
    Senator Wyden. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    The Chairman. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman, and thank you very 
much, Mr. Secretary, for joining us today. I appreciate your 
willingness to discuss your budget proposals and other matters 
of importance and concern to Americans.
    BLM is currently operating under an interim plan that 
outlines certain procedures for maintaining the habitat of the 
sage grouse. I wanted to ask, just off the bat, if there's any 
possibility that a State plan could be approved as a substitute 
to that interim habitat management plan.
    Secretary Salazar. Senator Lee, I think you have your 
finger on what is one of the most important issues for us in 11 
States in the West. In that vein, Governor Mead, from Wyoming, 
and Governor Hickenlooper, from Colorado are working with Bob 
Abbey, the Director of the BLM, to see how we can move forward 
with a template that was developed in Wyoming, so that we can 
allow development to move forward, and at the same time, have a 
Western States strategy that is protective of the habitat and 
that is protective of the sage grouse.
    It seems to me that in dealing with all of these ESA 
issues, that being proactive, as we are now doing in southern 
New Mexico and in Texas, with the dunes lizard, working with 
oil and gas industry to set up conservation programs that will 
allow oil and gas development, but that's the way to go. My 
hope is that we're going to be able to do that with respect to 
the sage grouse.
    Senator Lee. OK.
    Secretary Salazar. Utah and your Governor obviously are 
very involved with us.
    Senator Lee. So you could potentially be supportive of such 
a plan in Utah, especially given that the State would bear, you 
know, the primary burden of the regulations, and enforcing 
them, implementing them, and so forth. That's a possibility.
    Secretary Salazar. It is.
    Senator Lee. Great.
    I next wanted to talk to you a little bit about the Central 
Utah water project, which you mentioned in your opening 
remarks. As you know, of course, in your proposed budget, you 
proposed authorizing language that would place management 
supervision, the oversight of this project back within the 
Bureau of Reclamation. Of course, it came out of the 
supervisory jurisdiction of the Bureau of Reclamation after 
Congress passed the Central Utah Water Project Completion Act 
of 1992.
    Now, there were reasons for that. While this project was 
under the jurisdiction of the Bureau of Reclamation, prior to 
the 1992 act's passage, there were often significant cost 
overruns. Sometimes the overhead costs exceeded 50 percent of 
the total project cost. But, since 1992, since that act took 
effect, and since the Central Utah water project was placed 
under the jurisdiction of the Central Utah Water Conservancy 
District, the overhead costs have been reduced rather 
substantially.
    In fact, I believe the Department of the Interior, not too 
long ago, recognized this good management by giving it a 
secretarial award. So, I just wanted to ask, given how well 
it's been managed under the Central Utah Water Conservancy 
District, and given the problems that we had when it was 
previously under the jurisdiction of the Bureau of Reclamation, 
why is it a good idea to change that, to offset that balance 
that Congress imposed this fix for back in 1992?
    Secretary Salazar. Senator Lee, first, let me say that the 
Central Utah project has been a priority for President Obama 
and for me, as Interior. We have invested literally hundreds of 
millions of dollars during my time, including significant 
allocations from the stimulus program, the American Recovery 
Act, to get that project moving on a timeline that's a good 
timeline.
    We're not abandoning the project. It's an important 
project. The consolidation issue of the agency into the Bureau 
of Reclamation, it seems to me that it makes no sense to have 
another government agency out there doing one of our Bureau of 
Reclamation projects, when we have hundreds of other Bureau of 
Reclamation projects within the Bureau of Reclamation. So by 
having the Central Utah project office come within the Bureau 
of Reclamation, I believe that it will allow us to do a better 
job. So, it's an efficiency measure on our part.
    Senator Lee. But given the data prior to the 1992 act 
taking effect, suggesting that just the opposite was true, how 
do you respond to that point? Is there something that's 
different now about the way the Bureau of Reclamation is run?
    Secretary Salazar. I think, Senator Lee, if you look at the 
leadership that we have been able to bring into the Department 
at the highest levels, the Assistant Secretary for Water and 
Science, Anne Castle, Mike Connor, the Commissioner of the 
Bureau of Reclamation, we are doing tremendous things on the 
water supply through the Bureau of Reclamation. I have no doubt 
that the same commitment and the same level of support for the 
Central Utah project, in terms of our staff, will absolutely 
continue with the new configuration.
    Senator Lee. OK. I see my time has expired. Thank you.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    As you well know, oil and gas companies are making record 
profits. In fact, the big 5 oil companies combined made a 
record $137 billion in profits in 2011. So, I am pleased that 
you have proposed a $-per-acre fee on leases that are not being 
used. There's a lot of leases that the oil companies have been 
granted by the Federal Government that they're not using, and 
it creates an incentive for them to drill on these leases. I'm 
also pleased that some of the permitting expenses have been 
transferred to the companies.
    In light of that, I would like to ask you whether the $45 
million USGS fund that you intend to use to study shale gas 
development through hydro-fracking, will that also be paid by 
companies engaged in this activity? We had testimony from the 
commission, and I think that under Interior that was studied, 
and I wondered whether the companies that benefit from this 
would pay for that study.
    Secretary Salazar. The answer to that, Senator Franken, is 
the President is strongly supportive of research and 
development, and developing the science. In fact, much of the 
great boom and promise that we now have, with respect to shale 
gas in the United States, is a direct result of investments 
that this Congress has made, both in the United States 
Geological Survey and in the Department of Energy. The Bakken 
formation is an example where the USGS has been very involved 
in developing the numbers there, and helping industry develop 
the technologies.
    So, this money, in response to your question, is part of 
our investment in understanding shale gas. Within the 
Department of the Interior, I believe the number is $18 million 
that would be appropriated in the 2013 budget for USGS to 
continue to do these studies. We will work closely with the 
Department of Energy, as well as EPA, to make sure that there's 
a coordinated effort in the study and the studies that are set 
forth in the budget.
    Senator Franken. You say $18 million, but the testimony is 
$45 million.
    Secretary Salazar. You're correct. It's $45 million 
overall.
    Senator Franken. My point here is that this just seems 
like, in a time when we have these tight, tight, tight budgets, 
here is something where the top 5 oil and gas companies are 
making $137 billion profit, $45 million, it seems like it could 
be funded by the oil and gas companies themselves, or the gas 
companies that benefit from that.
    Let's move on, because I've got a project where I could see 
that $45 million going, and you may know what I'm talking 
about. It's the Lewis and Clark water project, which we've 
talked about, the regional water system in Minnesota, Iowa, and 
South Dakota. Your budget requests include $4.5 million for 
this project, which is much more than the $493,000 that you 
requested for it last year, and we talked about at this hearing 
last year, and I thank you for that increase.
    Unfortunately, this number still barely dents the remaining 
Federal cost share of more than $190 million, and we've 
discussed before the local partners have prepaid 99.7 percent 
of their share. So they're just waiting for the Federal 
portion, and the delay is holding up economic development in 
the region.
    So, my question really is: What is your plan to make sure 
this project gets completed in a timely way, or that it even 
ever gets completed?
    Secretary Salazar. Senator Franken, let me, first all, just 
say thank you for being such a great advocate for a great 
project that is very deserving of additional money. Frankly, 
because of the fact that your water users, local communities, 
have stepped up to the plate, have put up their cost share, we 
were able to prioritize this project, and have put in as much 
money as we possibly can in these very tough budget times.
    As I said in the outset, it's a squeeze budget, with some 
painful decisions. If we didn't have the constraints we were 
facing, frankly, we would put in a lot more money, and we would 
get the Lewis and Clark project done, because it is a top 
priority project. But I will say as well, this committee knows 
better than probably any other committee in this Congress that 
the needs that we have with respect to water supply, especially 
rural water supply, are huge. Frankly, even the requests that 
we put in this budget in 2013 barely makes a dent on the need 
that we have there.
    Senator Franken. I really appreciate that, and I appreciate 
your response. My time is done. But I would just note that 
there is $45 million to study fracking, where the industry that 
benefits from it is doing really well. They're not hurting. 
They could pay for that, and there's $45 million that could go 
to a water project, or several water projects. I'd just give 
some thought to that.
    Thank you. Thank you, Mr. Secretary.
    Secretary Salazar. Thank you, Senator Franken.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here.
    Last week, President Obama went to Miami to give another 
speech on energy. He stated that, quote, I will do whatever I 
can to develop every source of American energy so our future 
isn't controlled by events on the other side of the world. Nice 
words. The President too often says one thing and then does, in 
my opinion, something very different. To me, that's nowhere 
more evident than what we're seeing in the Interior Department, 
because the President says he supports an all-out, all-of-the-
above energy strategy, but the Department has repeatedly taken 
steps to limit American energy production. A couple of 
examples.
    In November, the Department proposed a 5-year plan for 
offshore oil and gas development, which excludes both Pacific 
and the Atlantic Oceans. The plan excludes the development off 
the coast of Virginia, even though both Senators, both democrat 
Senators and the Governor of Virginia, republican, supported 
such development.
    In January, the Department withdrew approximately a million 
acres in Northern Arizona from uranium production. The 
Department withdrew this land, even though both Senators and 
the Governor of Arizona opposed the withdrawal, and the 
Department continues to pursue new stream protection 
regulations, which will limit American coal production. The 
Department is taking this step, even though Members of Congress 
and officials from coal-producing States oppose the new 
regulations.
    Now, we get to the specific pain at the pump. On Friday, 
the front page of the ``USA Today'' read, ``Most ever could get 
hit by $5 gasoline.'' The President said he's focused on 
production. But the Department policies seem to speak 
otherwise, as does the fiscal 2013 budget, which includes tens-
of-billions of dollars in new taxes and fees on American 
energy. The President can't have it both ways. He can't pursue 
quote, An all-out, all-of-the-above energy strategy, and at the 
same time, block or tax new energy production.
    A couple of questions, and following up specifically with 
the release the President did last year from the strategic 
petroleum reserve. Has this administration begun any planning 
to tap the strategic petroleum reserve again this year?
    Secretary Salazar. Senator Barrasso, all options are on the 
table.
    Senator Barrasso. So that is something that then you are 
considering tapping. So, could you explain what happened to gas 
prices last year following the President's decision to tap the 
strategic reserve?
    Secretary Salazar. What I would say, Senator Barrasso, is, 
you know, all options are on the table, and I would disagree, 
as you expect that I would, with you, in terms of your 
characterization of the President's agenda. From day one, in 
the Department of the Interior, we have worked to develop our 
oil and gas resources in a safe and responsible way, and we 
have done so both on the onshore as well as on the offshore.
    We also have moved forward to develop other energy 
resources, including renewable energy, and for the first time 
since Three Mile Island, we've opened up the door to the 
possibility of nuclear energy as well. So, when the President 
says an all-of-the-above energy strategy for the United States, 
he's serious about getting us moving beyond the gridlock that 
has basically kept this energy program in the United States in 
a failing paradigm for the last 30 years.
    Senator Barrasso. So when the ``Washington Post,'' last 
year said the release of the 30 million barrels from the 
strategic petroleum reserve, quote, Whatever the rationale, 
it's a bad idea, you're going to continue with that bad idea on 
the table this year, was what I just heard. So, could you 
explain to me then what your assessment is of the purpose of 
the strategic petroleum reserve?
    Secretary Salazar. First, the strategic petroleum reserve, 
the SPRO, is under the jurisdiction of my colleague, Secretary 
Chu, and the President of the United States. I will just say 
the President is very cognizant of the pain at the pump that 
people are feeling. We have an energy strategy and a policy 
that we've been working on from day one, and we believe it 
continues to show good results. We'll move America to a new 
energy future. We're committed to doing that. In terms of 
dealing with the immediate issue of the high gas prices, all 
options are on the table.
    Senator Barrasso. Are you familiar with Senator Schumer's 
insistence that the State Department press the Saudis to 
increase oil production? Yet, Senator Schumer opposes the 
Keystone XL pipeline, as you know, as the President has refused 
to move forward in granting the pipeline from Canada.
    My question is: Do you agree with Senator Schumer that we 
should be pressing for more Middle East capacity, rather than 
North American production, such as can be brought in from 
Canada via the Keystone pipeline?
    Secretary Salazar. First, on the international effort, 
that's obviously something that is a focus of the 
administration, along with dealing with what we can produce 
here domestically in the United States. That's part of all the 
options on the table. On the Keystone issue, yes, we just 
remarked that the pipeline that was proposed by TransCanada 
yesterday, that will take the segment from Cushing to the Gulf, 
is a step absolutely in the right direction. That has to be 
processed, and frankly, no judgment was ever reached, Senator 
Barrasso, on the Keystone Pipeline XL project, because of 
actions that were taken by the Congress, insufficient time to 
move forward with the processing of the alternative that is 
required.
    Senator Barrasso. Mr. Chairman, my time is gone. It's 
interesting, because the Keystone pipeline was actually 
proposed 7 years ago, and it's still not enough time.
    Secretary Salazar. Senator Barrasso, I was with the 
Governor from Nebraska yesterday. There were serious concerns 
raised by both the republican Governor as well as our 
republican colleagues here in the Senate, with respect to that 
proposed pipeline. So, the alternative to that pipeline is 
still to come from TransCanada, and then it will be evaluated. 
So, if we play by the facts, it will be a process, and then a 
judgment will be reached on the facts, just as a judgment will 
be reached on the segment from Cushing down to the Gulf.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Mr. Secretary, 
and Deputy Secretary Hayes, and Ms. Haze, we're pleased that 
you're here today.
    Mr. Secretary, you talked about your new role to help 
develop a tourism strategy for the country, and the importance 
of protecting our outdoors and our beautiful environment and 
special places as being critical to that tourism strategy. As 
you know, the Land and Water Conservation Fund has been one of 
the Federal programs that has been most successful at 
protecting our special places, and wildlife habitats, and 
public recreation. In New Hampshire, we've got all kinds of 
examples from the LWCF. Our Umbagog National Wildlife Refuge, 
parts of the Appalachian Trail that are in New Hampshire have 
all been protected through the Land and Water Conservation 
Fund.
    I was pleased to see additional funding in the proposed 
budget for that program, and I know that you've said you're 
committed to getting full funding for LWCF by 2014. I wonder if 
you could talk about your plans for how we should get to full 
funding, and whether you think there is a dedicated funding 
stream, an additional dedicated funding stream that we can add 
to what's been proposed by Congress, but has only been fully 
funded, I believe, twice since the program started.
    Secretary Salazar. Senator Shaheen, let me first say, thank 
you for your leadership on this issue, and I thank the Chairman 
of the committee, Senator Bingaman, and others who worked hard 
on trying to get full funding for the Land and Water 
Conservation Fund. I do agree with you. It is part of our 
tourism and job creation strategy that comes through 
conservation, as we see through L.L. Bean and so many other 
wonderful stores that have a presence in your State, the 
hunting community, the angling community, boaters. It's a big 
part of the future of these United States.
    As I've said often in front of this committee, both when I 
was on that side of the dais and on this side, the reality of 
it is that's been a broken promise to America. You know, in the 
1960s, it was authorized to take a portion of the proceeds that 
come from offshore oil and gas production, and yet, if you look 
at the books of the Treasury, it is now north of $17 billion 
that are owed to the conservation programs of this country.
    So, even in these tough fiscal times, I think it's 
important for us to continue to look for the possibility of 
that funding. You know, it pains me, frankly, when I look at 
the list of land and water conservation projects which we are 
not able to fund. You know, Senator Barrasso just left, but 
we're putting a significant amount of money into buying some of 
the in-holdings in the Grand Teton National Park. You know, in 
every one of your States, there are huge needs, and the needs 
are probably in the $5-billion-a-year range for the foreseeable 
future. So, from my point of view, the $450 million set forth 
in the 2013 budget is a fraction of what is needed.
    But, as I said at the outset, this is very tough budget, 
and it's a very painful budget for me personally, but if we 
could find ways of doing more with LWCF, I think we should be 
open to that.
    I'll note, Senator Landrieu and Senator Alexander, in the 
passage of the GOMESA Act, actually were able to set aside a 
permanent conservation royalty, and maybe there's more of that 
that can be done.
    Senator Shaheen. Thank you. I was pleased to work with some 
members of your staff after the oil spill in the Gulf to try 
and address the Outer Continental Shelf Reform Act of 2011. 
Deputy Secretary Hayes, we worked on that. I was pleased to get 
a model for an Ocean Energy Safety Institute that was modeled 
on a partnership that NOAA has had with the University of New 
Hampshire, called the Coastal Research Response Center, and was 
very disappointed that that legislation has not gone forward.
    But, as we think about the research that we still need to 
do to address cleanup to oil spills, are there additional 
opportunities for partnerships like the one we have at the 
University of New Hampshire, with NOAA, to do some of that 
research that is not going to be done at least right now, as 
the result of the legislation that's not gone forward?
    Secretary Salazar. Deputy Secretary.
    Mr. Hayes. Senator, first of all, thank you so much for 
your assistance on the Ocean Energy Safety Institute. We 
continue to believe it's very important that we have in the law 
the authority for the Bureau of Ocean Energy Management to have 
a safety institute that will, as a primary mission, have the 
ability to partner with universities, and industry, and others 
to be on the cutting edge of research.
    We do have ongoing research through the Bureau of Ocean 
Energy Management. This budget has pretty robust investment in 
continuing to raise the bar of safety, but I think until we 
have a dedicated institute, we're not taking full advantage of 
where we should be as a Nation.
    Senator Shaheen. Thank you. My time is up, but I think it's 
important to point out that it's not just safety we need to 
protect. We need to figure out how to deal with the problems 
after they occur, because as much as we want to protect safety 
and prevent spills, the reality is we're probably going to see 
some in the future, and so having the best technology to 
address those and research to do that is very important.
    Thank you.
    Secretary Salazar. If I may, Mr. Chairman.
    The Chairman. Go ahead.
    Secretary Salazar. I think it's a useful conversation with 
all members of this committee, April 20, 2010, was really not 
that long ago, and this committee, like the rest of the Nation, 
was laser focused on what was happening as 50,000 barrels of 
oil were spewing out into the Gulf of Mexico every day. It was 
a national crisis, and something that we all have lived 
through. We ought not to ever have amnesia, as a Nation, and 
the President nor I have amnesia about what happened, in the 
Gulf of Mexico, nor the Members of Congress should not have 
amnesia either. But, to your point, Senator Shaheen, there's a 
lot of work that has been done, but a lot more work that has to 
be done.
    Today, Tom Hunter, well known in the State of New Mexico, 
leads up a committee for us on offshore safety, looking at a 
whole host of things, from the technology on blowout 
preventers, to a number of other things that need to be done to 
ensure that we have the safest production.
    We will move forward in the development of oil and gas in 
the Nation's Outer Continental Shelf, it's something that has 
bipartisan support to do that, but we need to make sure that we 
do it in the safest possible way. Frankly, having the 
additional resources to be able to develop the kinds of 
technologies that will keep us at the cutting edge is very 
important to the United States. I'm mindful as well, Senator 
Shaheen, with respect to your question here, that this goes way 
beyond the United States of America. When we talk to any of the 
oil and gas companies, which I do on a regular basis, we know 
that they are a global industry. So what's happening off the 
coasts of Nigeria and Algeria, or off the coast of Brazil, or 
off the coasts of Norway and Russia, those are all important 
matters. So how we elevate the technology, in terms of dealing 
with all aspects of ocean drilling is a really important 
opportunity for the United States, and we have to do it from 
the safety side, the prevention side, the response side, all 
aspects of ocean energy development.
    The Chairman. Senator Heller.
    Senator Heller. Thank you, Mr. Chairman, and Mr. Secretary, 
thank you for being here.
    Nevada is 110,000 square miles, so you've got a lot of work 
to do. 85 percent of it, as you know, is owned by the Federal 
Government. So that, I think, in itself, presents a lot of 
unique challenges.
    The economic activity on the public lands in Nevada is 
important, and obviously comes in a lot of forms, mining, 
renewable energy development, the ranging, and recreation, some 
of those things. So, I'm concerned about the President's 
budget, as it concerns your office. Obviously, there's concerns 
to my constituents, also. They include smaller budgets for 
hazardous fuel reduction, I believe misguided prioritization of 
land acquisition, the 74 percent fee increase on public land 
grazers, and, in my opinion, an ill-conceived proposal to tax 
mining out of competitiveness.
    Unfortunately, all those take a backseat to rising gas 
prices in my State today. I've seen the bumper stickers you 
talk about back in 2006, during those interim elections, coming 
from the left. So, both sides, I think, have issues and 
concerns, and certainly, like the bumper sticker politics. But 
I want to talk a little bit about verbiage versus reality.
    I think Ms. Murkowski made comment to the production of 
natural gas on public lands and waters that in fiscal year 2011 
have actually dropped 11 percent from the previous year, 
according to the Interior data. Also, oil production on public 
lands has dipped nearly 14 percent. So as the administration 
talks about all this new production, none of it's being done on 
public lands. It's all being done on private land.
    In 2008, when you were a Senator, you refused to vote for 
any new offshore drilling. In fact, you had a conversation with 
leader Mitch McConnell at that time, where you objected to 
allow any new drilling on America's Outer Continental Shelf, 
even if gas prices reached $10 a gallon. You're halfway there, 
halfway there.
    The question, I guess, we need to ask ourselves: Is this 
the direction that this department is going, and are we, at 
some point, believing, under your leadership, that gasoline 
prices will get to $10 a gallon?
    Secretary Salazar. Senator Heller, let me first say that I 
think that exchange on the floor of the U.S. Senate, like the 
exchange that you're engaged in, is part of the phony debate 
with bumper sticker solutions to what is one of the most 
fundamental issues facing the United States of America.
    Senator Heller. So are you saying that conversation 
didn't----
    Secretary Salazar. Let me finish. So, when you speak to the 
statistic of what happened in 2011, in terms of production, you 
have to look at what was happening in the Gulf of Mexico. It's 
about 30 percent, roughly, of all our domestic energy comes 
from the Gulf of Mexico, which Senator Landrieu knows so full 
well.
    We went through a crisis in 2010, and we're back, and the 
rigs are back at work. In fact, there are more rigs working 
now, both offshore and onshore, in the United States of America 
than at any time in recent history, maybe in all of history. So 
whatever dip there was in production is because of the dip that 
happened in the Gulf of Mexico, in the wake of the 2011 Macondo 
oil well blowout.
    Senator Heller. I guess the question, just to follow-up, 
did that exchange occur on the Senate floor, and is it 
accurate?
    Secretary Salazar. You know, Senator Heller, I know you 
will appreciate this, that there are lots of conversation that 
take place on the floor of the Senate, which are made for a 
political statement, and at that point in time, there was a 
political statement. I think the facts are that we moved 
forward with----
    Senator Heller. So it's a bumper sticker. It was a bumper 
sticker.
    Secretary Salazar. It's a bumper sticker. We move forward, 
Senator Heller, with a very robust Outer Continental Shelf 
production. I think there were many people who thought that 
after the Deepwater Horizon that there would not be any more 
deepwater production in the United States of America. I think 
we're going to continue to lead the world, in terms of both the 
technology, as well as the production that we're doing there. 
The $300 million lease sale that occurred just in December in 
New Orleans I think is telling that we're moving forward in 
that direction.
    So, in terms of my credentials, and the President's 
credentials, and support for offshore drilling, I have absolute 
confidence that we've moved in the right direction, and that 
we're moving forward in a balanced direction that's making sure 
that we have safety, and that we're protecting the environment 
as well.
    Senator Heller. Mr. Secretary, thank you.
    The Chairman. Senator Landrieu.
    Senator Landrieu. Mr. Chairman, thank you so much, and Mr. 
Secretary, thank you for your, you know, focus and interest in 
the Gulf Coast, and your many visits down, and your commitment 
to the restoration of our region, and the investments in our 
national parks and State parks. I know that you have a passion 
for conservation, and we appreciate that.
    But, I want to add my voice to try to clarify that, in 
fact, the oil and gas production in our country, as you've just 
tried to explain, is lower than it has ever been on Federal 
lands, both offshore and onshore, and the increase has come 
from production on private land.
    Now, those are the facts. I'm not arguing about the price 
of gas, and I would say to my republican colleagues that they 
should know that we can't drill our way out of this problem. We 
cannot drill our way back to $2 or $3 gasoline. I don't want to 
engage in bumper sticker politics, but I do want to engage in 
good policy for this country. Speaking from Louisiana's 
perspective, we need to get a more aggressive drilling policy 
in this country. We can't drill our way out, but we most 
certainly can create jobs. We most certainly can strengthen the 
U.S. independence. We most certainly can reduce our reliance on 
foreign oil. The facts are that drilling on public lands are 
down, and they need to be increased.
    The other fact is contrary to the inference that we are 
drilling everywhere we can in the Outer Continental Shelf, you 
know, Mr. Secretary, the facts are these: We are drilling on 
less than 2 percent of the OCS, 2 percent. Now only a small 
portion is leasable, and of that leasable portion, we're 
drilling on 2 percent. The OCS is 200 miles wide, and it goes 
from Oregon to Maine, and we're drilling on less than 2 
percent. So, I just think that it's important for us to be 
clear about what our situation is.
    In addition, I want to say that despite the 
administration's arguments that are laid out that you-all are 
all guns blaring and green lights for drilling, the facts that 
I checked, and if you disagree, tell me, only 21 permits for 
offshore drilling have been issued by the second half of 
February. In 2010, there were 32 permits. I just left the 
annual conference of LOGA, which is Louisiana Oil and Gas 
Association, Mr. Secretary, yesterday. They are beside 
themselves with not being able to get their permits processed.
    To answer you, Mr. Franken, let me just say that Exxon and 
Shell may be making record profits, but according to a study 
recently done by the Greater New Orleans, Inc., 41 percent of 
our oil and gas independent operators and service companies, 
I'm not talking about Exxon and Shell, that have operations all 
over the world, I'm talking about companies in the Gulf Coast, 
in Texas, Mississippi, Louisiana, and Alabama. Let me tell you 
what the studies show about their profits. Fourty-one percent 
of them are not making a profit at all. Seventy percent have 
lost significant cash reserves. Fourty-six have moved 
operations away from the Gulf. Eighty-two percent of business 
owners have lost personal savings as a result of this slowdown. 
Now, part of it is the accident, and part of it is the 
permitoreum.
    I have to continue to express this to you privately and 
publically. I know what you're trying to do, and you're making 
statements about increasing production, but I can tell you the 
reality in the Gulf Coast is not there. So that is one point 
that I wanted to make.
    Second, and I'll get to a question in a minute, this 4 
percent of an acre is being proposed for non-producing leases, 
can you explain how much money that would raise, where it would 
be going, because we're already experiencing an increase of 
fees, a decrease in permits. We don't know if that money is 
coming from us and going elsewhere to promote what, we don't 
know. But we need more inspectors to get our permits and our 
drilling under way in places that the people support drilling, 
and the country needs the jobs. Where's the 4 cents going to 
go, and how much is it going to raise?
    Secretary Salazar. Senator Landrieu, let me first say, I 
disagree with your conclusions. The fact is when you've lived 
through a national crisis, I think it's very responsible that 
we have moved forward. Now, with the approval, in just the last 
year over 100 shallow water permits, 60 deepwater permits, and 
the rigs are back and working, is very much public knowledge. 
We feel very comfortable, in terms of the production that is 
coming off of our public lands, both onshore and offshore. I'm 
going to have the Deputy Secretary make just a quick comment on 
that as well.
    Mr. Hayes. Thank you, Mr. Secretary. Very quickly, on the 
onshore, we have 38 million acres available for leasing right 
now. Only 16 million are, in fact, being leased. Last year, we 
had 32 onshore lease sales.
    Senator Landrieu. I realize that, but Mr. Hayes, not to 
interrupt him, Mr. Chairman, it's not about what percentage you 
have under production that are leased. If you said how much 
land you have in the United States on public lands, and then 
took your percentage of what is leasable, and then took your 
percentage of what is drilled, you'd give the people of this 
country a better picture.
    Again, and I'm not an expert on onshore, but I am on 
offshore, 2 percent of the OCS is being drilled, do you agree 
with that or not, because those are the facts, 2 percent of the 
entire land of the OCS. Yes or no?
    Mr. Hayes. We've made available 75 percent of the reserve.
    Senator Landrieu. That is not what I'm asking.
    Mr. Hayes. We are not leasing areas where there is no oil 
in the offshore.
    Senator Landrieu. OK. What percent of the entire OCS of 
this country is being drilled on right now? What is the 
percentage?
    Secretary Salazar. Let me take that, David.
    Senator Landrieu, the fact of the matter is that there are 
over 40 million acres that we just did in the one lease sale. 
There's more that will be leased. The lease sale that I did in 
New Orleans in December, I think was 38 million acres. About 2 
million acres of it was leased.
    Senator Landrieu. Mr. Secretary.
    Secretary Salazar. So when you make available in one lease 
sale tens of millions of acres, and you have some of it that's 
bid on, the companies are going where they know the oil and gas 
is.
    Senator Landrieu. Mr. Secretary.
    Secretary Salazar. So, the fact is, we are moving forward 
with a very robust gas leasing program.
    Senator Landrieu. In my view, Mr. Chairman, we're never 
going to get clear, as long as we continue to talk around and 
throw statistics out that try to make both sides look good. I'm 
not trying to make you look any worse. I'm just trying to get 
the facts out to the public. When you speak, you get people 
thinking that we're drilling everywhere, onshore and offshore. 
The facts don't justify that. You know that 98 percent of our 
offshore is limited to drilling. We can't even explore there. 
We're talking about what we're drilling within that 2 percent.
    My final point, and I'll say this, Mr. Chairman, you've 
been very good to me. I, as a Senator from Louisiana, have to 
come to this meeting every year, and I've now looked at my 
notes to find out that Wyoming, last year, got $1.7 billion in 
royalties. The Senator is not here. But, I want my colleagues 
to know. The State of Wyoming has 500,000 people. They got $971 
million that they kept. I don't know what they're doing with 
that money. I don't know if they're preserving land or 
conservation. Louisiana, which produces more oil and gas than 
they have off of our shore has more infrastructure, got $38 
million, and we have 4.5 million people.
    Mr. Chairman, this is the greatest injustice to the Gulf 
Coast of this United States, and I hope nobody puts a revenue-
sharing bill anywhere around this committee, because this 
Senator will fight to the end. No State is going to be treated 
like our State, and we've been treated like this since 1920.
    The Chairman. Do we have Senators that haven't had the 
first round? I don't think so. So, let me start with the second 
round.
    Mr. Secretary, let me pass out and give to you a few charts 
that are from previous hearings we've had, and some that we've 
developed ourselves. I'll go through the 3 charts, and then ask 
for any comment. Is someone passing those out?
    Voice: Yes. Yes, they have.
    The Chairman. OK. The first of these charts is the one that 
Mr. Burkhart, from Cambridge Energy Research Associates, 
provided to us at our hearing about a month ago, and he 
entitled it, ``The Great Revival of U.S. Oil Production.'' It 
says, ``The great revival of U.S. oil production has made the 
United States a leader in global oil production growth,'' and 
pointed out that there's substantially more growth in oil 
production in this country, and that's both private and public 
land, obviously, but it's a useful document.
    Another chart that I've passed out relates to weekly retail 
price for premium unleaded gasoline, from 1996 to October 2011. 
It's not this chart, but it's a different one that's been 
passed out, showing the price of gasoline in the United States, 
at the retail, tracks pretty closely the price worldwide for 
gasoline, with the exception, of course, we don't have the 
taxes that the rest of the world has, and that's the big 
difference.
    Then the third is the chart that we put up here on the 
board that shows U.S. oil production and gasoline prices, the 
percentage change year over year for the last 2 decades. I 
think it's clear from this chart, at least it's clear to me, 
that there is no relationship between the amount of oil we're 
producing in any particular year in the United States and the 
price of gasoline.
    The price of gasoline is determined by the price of oil on 
the world market. What we are producing here in the U.S. has 
been relatively constant. It has gone up somewhat in the last 
several years, but the price of gasoline has fluctuated 
dramatically during that period of time, as shown on that 
previous chart. It has done so because of the changes in the 
world price of oil.
    So, I bring these charts out and distribute them here in 
order to make the point that, you know, there's an underlying 
argument on this gas price issue that the high price of gas at 
the pump is a result of some failure to allow production to 
occur in this country. The truth is, production in the U.S. is 
up, is up substantially. Production on Federal lands is up. But 
in spite of that, the price of oil on the world market is also 
up. It's up, because of Iran, and it's up, because of all kinds 
of factors, increased demand from China, and all kinds of 
factors that are causing the world price of oil to rise. 
Unfortunately, it is impacting consumers in this country. I 
wish it weren't. I wish we had some way, in the near term, of 
disassociating ourselves from the world price of oil, but we 
don't. That's what's hurting us.
    Anyway, Mr. Secretary, I give you those charts for what 
they're worth, and ask for any comments you have in the last 
few moments of my time.
    Secretary Salazar. Thank you very much, Chairman Bingaman. 
I would say 2 things with respect to the presentation that you 
just made. First, oil and gas production in the United States 
is higher than it's been in a very, very long time. As your 
chart indicates, it's moving in the right direction, and I 
think there probably is no figure in my mind that says it 
better than the fact that we're importing less oil today than 
we have for a very, very long time. So, we are producing more 
here in the United States.
    I think the second point you make is one that economists 
have recognized for a long time, that we don't control the 
price of gasoline here in the United States, based on the 
amount of production that happens here in this country. It's a 
global marketplace that sets the price of oil, and it is the 
global factors that we see, both in terms of Iran, as well as 
the growing demand that we see from countries, such as India 
and China, which are part of what we're seeing in terms of the 
global economics which we face today.
    The Chairman. Thank you very much. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I think we 
would all agree, as Senator Landrieu has mentioned it, you 
know, the answer is not just drilling. Coming from an oil-
producing State, the answer is not just drilling. But it is 
part of the solution. So, I think it is something that we would 
agree we are subject to the vagaries of the market. We are 
certainly subject to the volatility on the global scene, but I 
think that the fundamental problem that we have here is that 
we're too dependent on our oil imports from the OPEC countries, 
and we're too vulnerable to the price instability in the global 
market. So, I'm not sure how we can argue that producing more 
oil here at home and lessening our dependence on OPEC oil 
wouldn't make a difference. It just seems, to me, it makes 
sense to have as much as cushion as we can, because I think we 
recognize that the cushion that is available within the world 
markets is one that we're not entirely sure.
    Senator Schumer has asked that Saudi Arabia crank it up a 
bit, so that we can get more from Saudi Arabia. How much spare 
capacity they have? I think this is one of those things that 
causes the volatility that we see.
    I want to move off that subject for a moment and bring up 
the issue that I raised in my opening comments, and this 
relates to the Legacy Wells that were drilled, again, from 1944 
to 1981, when the government drilled more than 100 wells. They 
have only plugged and properly abandoned about 10 out of 137 
wells.
    When I was in the legislature, giving my address, a 
representative from the House asked me, ``Well, Senator, what 
can we do? What's our action plan on this?'' I said, ``We need 
to raise a little hell. We need to point out that there cannot 
be a double standard here.'' There's a resolution* that was 
passed by the State house of representatives, and I'd ask that 
it be included as part of the record.
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    The Chairman. We'll include that, of course.
    Senator Murkowski. Thank you, Mr. Chairman. It points out 
that the Federal Government has received over $9 billion from 
leased sales within the petroleum reserve, where these 
exploratory wells were drilled. The State can't impose fines on 
the Federal Government, but if it could, the fines would exceed 
over $8 billion. If the statute of limitations were 
disregarded, the fines would exceed over $40 billion. So, 
again, what I'd like to do, Mr. Secretary, is work within the 
department to figure out how we can do a better job of this.
    Right now, DOI has suggested to the State of Alaska that we 
can do one well a year. If that's the rate that we're going, 
we're sitting here with over a hundred years to remediate and 
repair. I need to have an action plan for the people of the 
State of Alaska on this, and I need you-all to be working with 
me a little more aggressively.
    In that same vein, I will also bring up the Alaska Land 
Conveyance Act, and, again, asking you to assign to me--I know 
that Secretary Hayes has been tasked with the double duty of 
taking on so many of Alaska's issues, we appreciate that, but 
we need to have a better path forward as to how we're going to 
complete these conveyances.
    Again, if we keep on the track that we have been on, it's 
going to be an additional 70, 80 years for Alaska to get our 
lands conveyed, those lands that were promised on statehood, 
that lands that were promised to Alaska natives under the 
Alaska Native Claims Settlement Act. That's too long for the 
Federal Government to keep its promise. I need to be able to go 
back and report that, in fact, we are making progress, and 
better than just a couple conveyances a year, or a couple 
Legacy Wells a year. So, I would ask for your commitment to be 
working with me, with your folks, and the people in Alaska.
    Secretary Salazar. Senator Murkowski, we know the 
priorities for both of these issues, and we agree with you that 
both of them need to get done. As I said at the outset of the 
budget, it's a painful budget, because I wish that we could do 
more, including on the Legacy Wells, and on the conveyance 
issues for Alaska.
    The priority that I've placed on the Legacy Wells, I think 
you can see evident, in terms of the investments that we made 
from the American Recovery Act, the stimulus package, which 
helped us move forward with the plugging and abandonment of 
some of these wells.
    Senator Murkowski. We got 3.
    Secretary Salazar. Yes. No, we did then, in the Recovery 
Act, and we proposed an additional 3 in the 2013 budget. But I 
recognize there's more to go. Close to 40 more that we have to 
get done, and I hope that we can find a way of getting it done.
    The same thing is true with Alaska conveyance. I mean if we 
could put more money into Alaska conveyance and get it done a 
lot faster, we would be happy to do that. We'd be happy to work 
with you, to tell you what the plans are, given the fiscal 
constraints that we face. If there are other ways in which we 
can get to the same end, which we both agree on, we both agree 
that we need to get both of these things done, we'd be happy to 
work with you on that.
    Senator Murkowski. We need an action plan that works. It's 
not just this administration, I will tell you. I had to push 
the previous administration on this as well. I don't think that 
any other State would sit and wait for 50 years to get the 
lands that were promised at their statehood.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Mr. Secretary, I want to make sure I understood what you 
said a moment ago in response to the chairman's questions. 
Surely, you're not suggesting, are you, that there is no 
relationship, to use the verbiage of this chart, that there is 
no relationship between U.S. oil production and U.S. gasoline 
prices. Would you agree with that statement, that there is no 
relationship between U.S. oil production and U.S. gasoline 
prices?
    Secretary Salazar. What I said, Senator Lee, is that gas 
prices are set as a matter of the global marketplace, in terms 
of oil.
    Senator Lee. As a result of the complex interaction between 
supply and demand, and all the factors, domestically and 
internationally, that affect supply and demand.
    Secretary Salazar. Yes.
    Senator Lee. OK. U.S. oil production is one of those 
factors.
    Secretary Salazar. Yes.
    Senator Lee. OK. Mr. Secretary, your office recently issued 
a programmatic environmental impact statement dealing with oil 
shale production, basically, se of Federal lands for oil shale 
production. This PEIS proposes to replace a previous PEIS 
issued by your department in 2008, I believe. The 2008 PEIS 
identified about 2 million acres of Federal public land that 
could be potentially suitable for leasing for the development 
of oil shale and tar sands. Your new PEIS proposes to limit 
that amount by more than 75 percent, bringing it down to about 
450,000 acres.
    Meanwhile, in 2007, the Bureau of Land Management issued 
several R&D leases for purposes of oil shale development. One 
of those R&D leases was in Utah. Can you assure me that your 
recent PEIS won't affect those previous leases that were issued 
in 2007? In other words, will those be taken off the map now as 
a result of this reduction?
    Secretary Salazar. You know, with respect to your specific 
question, let me get back to you.
    Senator Lee. OK.
    Secretary Salazar. With respect to the specific lease. With 
respect to your more general question on the oil shale 
potential in your State of Utah, and Wyoming, and my State of 
Colorado, the fact is that there's still a lot of research and 
development that needs to take place. Senator Domenici and I, 
actually, when he was chairman of this committee, went to visit 
a couple of those places. There are huge unanswered questions, 
in terms of water supply, unanswered questions in terms of 
technology. The companies themselves admit that they need to 
have answers to those questions. So, my approach to oil shale 
and what is set forth in the PEIS is a conclusion that I have 
reached, that we ought not to engage in a wholesale giveaway of 
the public domain until we have some of these questions that 
are answered, but at the same time, moving forward in full 
support of the research and development programs that are under 
way both in my State, as well as your State.
    Senator Lee. But you're aware, of course, Mr. Secretary, 
that this technology, or variations of it, has been in place 
and use in Europe for about a hundred years, and it's been used 
in some circumstances to produce oil, to produce electricity, 
and is still in use, to some extent, in Europe. I believe they 
produce about a million barrels a year from oil shale in 
Europe, currently, and they do all of this, meeting European 
environmental standards. It has not been used extensively in 
this country on a commercial scale, but it has been in Europe.
    So, is that really what we need? Is it what, another 
hundred years of research? What is it that we're waiting for? 
What's the magic bullet?
    Secretary Salazar. Senator Lee, we're waiting for the 
technology to be developed to be able to honestly assess the 
potential here. The fact is, I think you were born by then, but 
you might remember the 1980s, and what happened in Colorado and 
other places with the oil shale bust. That was after the 
investment of billions and billions of dollars, because the 
technology wasn't there. So the research and development that's 
taking place now, with respect to the development of kerogen 
from these rocks, which is very different from shale gas, and 
very different from shale oil, is something that is very 
important. We're very supportive of moving forward with those 
research and development efforts to get the right answer.
    Senator Lee. There was a bust in the 1980s. Of course, we 
both know, there were a lot of reasons for that. A lot of those 
reasons have to do with kinks in the technology that have since 
been worked out, kinks in the technology that have been worked 
out, in terms of the amount of processed water, the amount of 
input energy that's required, the carbon footprint, the 
physical footprint that's required for these retoured systems. 
A lot of that has been worked out.
    But, I do think that it's important to remember, I don't 
think it's your job to mitigate and to protect against all risk 
from the oil companies. In other words, if they want to make 
that investment, they are placing their own investment at risk. 
But, should they not be given the opportunity to make the 
investment, and to lease these Federal public lands for that 
purpose, knowing that they could develop oil there? An 
estimated 1.2 trillion barrels of proven recoverable oil locked 
up in oil shale in just a small segment of 3 Western Rocky 
Mountain States, Utah, Colorado, and Wyoming alone. 1.2 
trillion barrels. More than the combined petroleum reserves of 
the top 10 oil-producing countries of the world, combined.
    Secretary Salazar. You know, Senator Lee, it's my job to 
protect the public lands and public resources of the United 
States, as the custodian of America's natural resources. When I 
look at the oil shale potential of your State, Wyoming, and 
Colorado, I think there is potential there, but we need to move 
forward with answers to some very tough questions, including 
one of the key questions. You know, if it's going to take 
upwards of 1 million of acre feet of water to develop oil shale 
on the western slope of Colorado, where is that water supply 
going to come from? What's it going to do to agriculture? 
What's it going to do to municipalities? Those questions have 
not yet been answered. That's why the research and development 
efforts that are under way, which we are fully supportive of, 
are important. We will get answers to those questions. It's 
part of what we are undertaking right now.
    Senator Lee. OK. I see my time has expired. But let me just 
close with the thought, this is one of the reasons why I hope 
you'll allow these research and development leases to move 
forward. This is one way that I think you really can get some 
of the answers that you're looking for. Allow those R&D leases 
to move forward. Don't cancel them. Let them do their thing, 
because they'll prove their ability to make it happen in an 
environmentally responsible and a commercially feasible way.
    Thank you.
    The Chairman. Senator Manchin.
    Senator Manchin. Thank you very much, and thank you, Mr. 
Secretary, for being here. I have 2 points that I want to talk 
about. The AML, the Abandoned Mine Land Fund, from OSM, Office 
of Surface Mining, I see that where you-all have made some 
recommendations there and changing the process of the grant 
funds, which I applaud. I think it's the right direction, 
picking the most hazardous sites or the worst environmental 
sites that we have in the States that are most affected.
    The money had been distributed before a little differently, 
as you know, by tonnage. You know, how much mining was done, 
how much per ton. Then it was coming back in that same, where 
it was kind of not really addressing the environmental needs. I 
think you're taking that step in the right direction, from what 
I can see here.
    You estimated there will be some great savings on that, I 
would like to hear. The savings, I guess, would come, and it 
might be, Mr. Secretary, that, if you want Mr. Hayes, if he's 
worked on that end, or whatever you would think about that, how 
the savings are calculated.
    Secretary Salazar. Let me just say I appreciate that 
comment, Senator Manchin. What we're trying to do is to focus 
on the high-risk areas.
    Senator Manchin. Our State has a lot of old mining and 
Kentucky has a lot of old mining. Pennsylvania has a lot of 
old, old mining that really helped build the country. I think 
it's a step in the right direction to clean that up and put it 
back into production, so we can do something with the land.
    Secretary Salazar. I think that was part of the intention 
of SMCRA, when it was passed, so we'd go after those old mines 
and get them cleaned up, and that's happening. I'm going to 
have either David or Pam--I don't know whether you know enough 
about the process and how it's changed.
    Senator Manchin. If not, you can get back to me on that.
    Mr. Hayes. I think the savings, Senator, is gained from 
focusing on the intent of SMCRA, which are the coal mine issues 
themselves, as opposed to other deeds.
    Senator Manchin. I interpreted it by looking at the now 
targeting the return on the AML money, the abandoned mine land 
money.
    Mr. Hayes. Yes.
    Senator Manchin. Even though it was received from the 
tonnage that was produced, it's going to where the need is.
    Mr. Hayes. Right.
    Senator Manchin. Where we've always said----
    Mr. Hayes. That's the primary intent. That's right.
    Senator Manchin. That the savings would be that basically 
we were able to clean up and put land in production. I would 
assume that's the effect you-all have.
    Mr. Hayes. Right.
    Senator Manchin. Does everyone agree to that?
    Secretary Salazar. That's correct.
    Senator Manchin. Now, where I disagree. You were afraid of 
that, right?
    Secretary Salazar. I'm not afraid of it.
    Senator Manchin. Concerning the OSM and the Bureau of Land 
Mines, the merger, I can't find anybody that seems to be in 
favor and think that this would be a good thing. I don't see 
the generation of savings for the disruption of the operation. 
The OSM, you know, it's been kind of a long-term relationship, 
learning how to work as a partnership, working, making sure 
that there's a balance between the environment and the economy.
    Going into the BLM, or recommending that merger, and I know 
you're doing it on from cost-effectiveness, and I can 
understand that, but, sir, on this one, I don't see the savings 
for what could be the downturn of having more regulations to 
the point we can't do anything. We're having a hard time now. 
Maybe somebody will want to talk to that. Are you-all serious 
about the OSM, BLM merger, or is it something maybe we can 
forget about?
    Secretary Salazar. Senator Manchin, let me first say that I 
think it's important for us in government to always take a look 
at our----
    Senator Manchin. Sure.
    Secretary Salazar [continuing]. Agencies and see how we can 
do a better job, and it's in that vein that we move forward 
with my effort, which I authorized, approved, and supported 
then, and still support today, to take a look at how we could 
do a better job between BLM and OSM.
    Based on the review that we've gotten, and a report, which 
is currently on my desk, I think there will be efficiencies 
that we can find between BLM and OSM. I have not yet read the 
final report. The deputy secretary has been leading it. But my 
since is that the guidance from this committee and your staff, 
especially Sam Fowler, who knows a lot about this, means that 
there's not going to be the wholesale consolidation----
    Senator Manchin. Right
    Secretary Salazar [continuing]. That was once planned for 
OSM and BLM. But there will be changes, and there will be more 
efficient ways of doing some of our work.
    Senator Manchin. I understand that. That's not a problem. 
The bottom line is, I think we were expecting a report by 
February the 15th . Do you happen to have your report?
    Secretary Salazar. I actually received it last night.
    Senator Manchin. OK.
    Secretary Salazar. It's in my briefcase.
    Senator Manchin. You'll be sharing it with us.
    Secretary Salazar. I am reviewing it.
    Senator Manchin. It will not go the direction that we 
thought that it might have been going before.
    Secretary Salazar. I think we should have a separate 
conversation, as soon as we get it.
    Senator Manchin. Be happy to do it.
    Secretary Salazar. To the point where we release it, but I 
think it will improve both the functions of OSM and BLM.
    Senator Manchin. Yes.
    Secretary Salazar. I think we will find some efficiencies 
there. I hope you will be positive in your response to it.
    Senator Manchin. It's a stream buffer, sir, and I know it's 
been talked about briefly. I think it's been brought up by 
Senator Barrasso. I know my time's running short.
    I'm concerned about the definition. I mean I want people to 
know in West Virginia, our streams are very valuable, our water 
sources are very valuable. But our topography, it is what it 
is. A stream that carries water 12 months a year, a stream that 
provides recreation, provides life-giving water and sources 
that have not have been touched, nor never intended to be 
touched, and I think there's a misnomer. We're talking about 
what some people have identified as a stream which is basically 
a drainage ditch, or a drainage area that might, if you had a 
piece of property, and you're putting the property, you want to 
make it more useful, and you change the ditch from here to 
here, so when they have heavy rains, and it runs off, it goes 
in an area that still keeps your property more useful, and 
that's a discussion I'd love to have with whoever in your 
office that we could have that with.
    I know my time's up, but if you would accommodate me with 
that, I would really appreciate it, sir.
    Secretary Salazar. Senator Manchin, let me just say, we 
know the importance of a stream buffer protection rule to you.
    Senator Manchin. Right.
    Secretary Salazar. To your State. As we move forward in 
addressing how we can both support coal development, at the 
same time making sure that we're protecting the streams, we 
will make sure that we are including you in our conversation.
    Senator Manchin. In West Virginia, we believe very 
strongly, there's a balance between the environment and the 
economy, and we are more than glad to lead the way, if you 
will. But we want a partnership.
    Thank you.
    The Chairman. Thank you. Senator Heller.
    Senator Heller. Thank you, Mr. Chairman. I'll get off my 
$10-a-gallon bush, and talk about another issue that's 
important for Nevada. It's something that you've already 
touched on, Mr. Secretary, a little bit. That is the listing of 
the sage grouse. I know Senator Lee brought that up a little 
bit.
    I have a letter here that you responded to a request for 
some information. First of all, I want to tell you, thank you. 
I'm not used to the administration responding to requests for 
information, so to have this here means a lot. In fact, I share 
a concern that we have for that listing, was an important part 
of that.
    If the sage grouse were to be listed, I think it would have 
a devastating impact on the economic activities on public 
lands, including one of, I think, our shared priorities, and 
that's renewable energy. I have many concerns with the land 
management controls proposed by BLM and the sage grouse, and 
for that reason, I'm putting together a sage grouse working 
group.
    You have an interim plan, without the listing, an interim 
plan, and it was, I believe, called an instructional memoranda. 
That was to maintain and enhance sage grouse habitat, which I 
think is an appropriate goal. A concern I have is that 
mitigation is not part of the restrictions. So this is my 
question.
    I am concerned if the proposed actions of themselves would 
not be more restrictive, perhaps even more harmful than an 
actual listing. Can you respond to that?
    Secretary Salazar. Senator Heller, you are focused on a 
very important issue for all the Western States, including 
Nevada, at least the 11 Western States where we know that there 
is sage grouse habitat. Director Abbey is moving forward with 
new resource management plans that deal with sage grouse, I 
think in 62 areas. But important to that effort, we are working 
very closely with the States, including your Governor, Governor 
Sandoval.
    Senator Heller. Correct.
    Secretary Salazar. Governor Hickenlooper, from Colorado, 
Governor Mead, Governor Otter, and trying to move forward in 
the program, where, hopefully, we'll be able to develop a 
Western States habitat conservation program that will protect 
the species, and at the same time allow development to go 
forward. Based on successes that we've had with other species 
in other parts of the country, I am very hopeful, and I do 
believe that we'll get it done.
    Senator Heller. Here's the concern. Here's the concern. 
With this new memorandum that, as I just mentioned, was 
mitigation, if you have an application for a new mining site, 
without mitigation, do you think you can maintain or enhance 
sage grouse habitat? If you had an application for a solar 
farm, do you think you could produce and put up a solar farm 
without mitigation that would maintain and enhance the sage 
grouse habitat? The same thing with agriculture, can you do the 
same thing with agriculture, if you have some kind of an 
application to push agriculture, can you do that without 
mitigation? That's the concern that I'm hearing from my 
constituents back home.
    They have no problems with moving forward, and to your 
goal, a healthy goal of maintaining the sage grouse, but the 
question is: Can you meet those goals without some possibility 
or ability to mitigate mining issues, agricultural issues, and 
renewable energy issues?
    Secretary Salazar. Senator Heller, I think with respect to 
all of our permitting programs, including many in your State, 
both on mining and renewable energy, and transmission, and so 
many other things, mitigation is part of the package. We have 
done a good job on that, from my point in view, in terms of 
requiring mitigation when you have impacts in the development 
of renewable energy, where there are other projects. It would 
be better, frankly, if we did have a complete cohesive plan for 
sage grouse strategy across the 11 States than trying to do it 
project by project, and hopefully, the effort that we have 
under way, with the leadership of Director Abbey and Director 
Ash, and the involvement of the Governors of the States, we'll 
get us to that point.
    Senator Heller. OK. Thank you. You answered my question. 
Thank you.
    The Chairman. Senator Murkowski, did you have additional 
questions?
    Senator Murkowski. Mr. Chairman, I do have a whole bunch of 
additional questions, but in the interest of time, and 
recognizing that the Secretary has given us a great deal of 
time this morning, I will submit them in writing.
    I will ask, though, it's my understanding that last year, 
after a similar budget hearing, it took almost 6 months to get 
some responses to our questions, and by that time, of course, 
they're stale. I understand you have an awful lot on your 
plate, but if I could ask that we have more prompt replies.
    I'm going to have the pleasure of having you before the 
Appropriations Committee tomorrow, so we'll be able to spare 
you some of the written responses in those questions tomorrow. 
But if we could have a little more expediency with the 
responses, I would certainly appreciate it. I know that all the 
staffs would. So, thank you. But, thank you for being here 
today.
    Secretary Salazar. We will do our best.
    Senator Murkowski. Thank you.
    The Chairman. Mr. Secretary, you've been very generous with 
your time, as Senator Murkowski said. We appreciate it, and we 
look forward to continuing to work with you to solve these 
problems. Thank you for coming.
    Secretary Salazar. Thank you very much.
    The Chairman. That will end our hearing.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]

    [The following statement was received for the record.]
  Prepared Statement of Carla Bowers, National WH&B Legislative Team, 
                              Volcano, CA
    This is an urgent call to the Appropriations & Natural Resources 
Committees and Congress delegates to redirect funding from 
unsustainable, fiscally irresponsible roundups/removals/ warehousing of 
America's threatened wild horses and burros to on-the-range management 
through the FY13 appropriations process. The appropriation powers 
vested in Congress must be used immediately to stop the waste of 
millions of tax dollars and to save America's fast-disappearing 
national treasures, our valued wild horses and burros of the West. 
Independent research using BLM numbers and methodology has uncovered 
the following:
Fiscally Irresponsible Management--Millions of Tax Dollars Wasted
  <bullet> The BLM is creating the out-of-control costs of the Program 
        by taking wild horses and burros off the range, including non-
        excess animals, and by not allocating reasonable resources to 
        them on their legal Western public lands. The herds are better 
        managed on the range at very little cost using limited 
        fertility control & scientifically based, reformed management 
        protocols.
  <bullet> Millions of taxpayer dollars are being wasted on the 
        unnecessary, inhumane roundups and removals of herds, $11.4M in 
        FY11, and the warehousing of animals, $48M in FY11.
  <bullet> Millions of taxpayer dollars are spent to support the BLM 
        Grazing Program for less than 0.5% of the total U.S. livestock 
        inventory (on HAs/HMAs) at a loss of up to $1B per year.
  <bullet> The 2008 GAO report stated the Program lacks accountability, 
        science and fiscal sustainability.
Dangerously Low Numbers On The Range--BLM Removing Non-Excess WH&B
  <bullet> 26,600 WH&B is the BLM's targeted national HIGH AML 
        (appropriate management level). Research shows BLM appears to 
        be using taxpayer dollars to unnecessarily round up non-excess 
        animals below 26,600 in violation of the l971 Act. They are 
        actually targeting LOW AML, ca. 18,000 total WH&B nationally.
  <bullet> 18-26,600 are dangerously low numbers for long-term health & 
        survival of the protected herds. Of that number, burros are in 
        grave danger at only about 2-3,000 left in the wild. The 
        majority of herds on the range consist of numbers well below 
        the 150 animals per herd considered necessary for 
        sustainability over time by expert equine geneticists.
  <bullet> Compare the exorbitant numbers of livestock (up to 3M on BLM 
        lands & 1.5M on USFS lands) & other wildlife (20+M deer; 1M 
        elk; 780K pronghorns; 70K bighorns, considered a `species of 
        concern', to the miniscule numbers of WH&B.
Minimal Land / Forage / Water Allocated For Sustainability Over Time--
        Constant Downward Trend
  <bullet> The herds are not overpopulated. They are under-allocated 
        land, forage and water.
  <bullet> They are being squeezed off their legal public lands. The 
        original 53M acres where they were found in 1971 have been 
        reduced to 27M BLM acres. Continued reductions are planned. 
        These actions are in direct defiance of the 1971 Act.
  <bullet> The herds are restricted to these 27M BLM acres or 4% out of 
        650M total Federal public land acres (which includes 245M BLM 
        acres).
  <bullet> Livestock graze over 238M USFS and BLM acres, which includes 
        the 27M acres to which iconic herds are restricted in their 
        HMAs (Herd Management Areas). On the HMAs, livestock are given 
        preference and are allocated the majority of forage (3-15 times 
        more) compared to the legally protected WH&B.
  <bullet> 339 Herd Areas, or HAs, in l971 have been reduced down to 
        BLM's count of 179 HAs and HMAs. Needless to say, hundreds of 
        unique herds have been zeroed out and lost forever over the 
        last 40 years, again counter to the intent of the 1971 Act.
  <bullet> BLM claims to be managing the land for `thriving natural 
        ecological balance'. This mandate is impossible to achieve 
        without `natural predation' because of extreme predator control 
        to benefit the livestock & hunting industries and the grazing 
        of `unnatural' livestock on public lands. WH&B are `an integral 
        part of the natural system of the public lands' per the 1971 
        Act.
  <bullet> BLM also claims to be managing the land `in balance with 
        other multiple uses'. The numbers of livestock & other wildlife 
        compared to WH&B in no way demonstrates any semblance of 
        `balance'. BLM `zeroing out' 160 herds from their legal lands 
        defies the `multiple use' mandate as well.
Lack of Science, Consistency, Accuracy, Credibility, Transparency
  <bullet> BLM's published data over the Program life is inaccurate, 
        inconsistent, non-credible and non-transparent.
  <bullet> No state-of-the-art, scientific census of actual WH&B 
        numbers on the range has ever been undertaken to substantiate 
        the Program goals. BLM cannot prove their estimated numbers.
  <bullet> Current on-the-range management practices lack science and 
        long-term efficacy studies on fertility treatment, sex ratio 
        adjustments, herd/band behavior/dynamics/health and on the BLMs 
        haphazard roundup protocols that have most probably caused the 
        destruction of the social fabric of the herds & compensatory 
        reproduction. Also, current roundup methods are inhumane as 
        demonstrated by ample documentary evidence.
  <bullet> Program lacks true independent peer review and 
        accountability.
  <bullet> Forced to acknowledge the lack of a science based Program, 
        BLM has engaged the National Academy of Sciences to analyze the 
        whole Program and make recommendations. However, this 2-year 
        Study is flawed from the start because it's based on the false 
        assumption made by BLM that the herds are overpopulated & are 
        ruining the rangelands. The Study is not based on the whole 
        Program. Plus, it is not an `independent scientific study' 
        because the BLM has `directed' it, from creating the `scope' of 
        the Study, to influencing who is on the Study Panel to who 
        presents information to the Study Panel at the meetings. Two 
        years time, $2M more taxpayer dollars and 15K more WH&B rounded 
        up in the meantime will render this Study biased & useless, 
        with very few WH&B even left on the range to manage.

    America asks Congress to redirect funding through the FY13 
appropriations process from the wasteful, destructive roundups/
removals/warehousing of wild horses and burros to humane, science 
based, on-the-range management protocols. These protocols can be 
implemented right now as indicated on pages 3 & 4 of this submission.
  what congress can do immediately to save taxpayer dollars and save 
              america's threatened wild horses and burros
Vote for Fiscal Responsibility in the Program
  <bullet> Utilize the current FY13 budget process to redirect funding 
        away from all roundups/removals of WH&B, with the exception of 
        independently verified emergency situations.
  <bullet> Redirect Program funds for humane, on-the-range WH&B 
        management and stop additional stockpiling of animals in 
        government holding facilities.
  <bullet> Redirect Program funds for an immediate independent, 
        accurate, state-of-the-art census of animals on the range & in 
        holding.
  <bullet> Redirect Program funds to repatriate as many animals as 
        possible in holding back to their legal Western public lands. 
        (Potential to save up to $48M in FY13)
  <bullet> Ensure continued funding for all horses in holding until 
        they can be repatriated back to their legal Western public 
        lands.
  <bullet> Ensure no funds are allocated for euthanasia or slaughter of 
        wild horses & burros.
  <bullet> Acknowledge & encourage revenue-producing ecotourism 
        centered around the cultural, historic & heritage assets of 
        America's living legends. Wildlife viewing is a $45B a year 
        national industry as reported by USFWS, 2006.
Demand Science, Credibility, Accuracy, Consistency & Transparency in 
        the Program
  <bullet> Question the validity & credibility of the NAS Study. If the 
        following parameters are not additionally considered, the Study 
        & Recommendations will be biased & useless:

          1) Detailed accounting of current AUM allocations between 
        livestock, WH&B & other wildlife, how they are established & 
        the best course of action to raise the AUMs/AMLs for WH&B to 
        maintain healthy, genetically diverse herds long-term in all 
        WH&B management areas, i.e. amend all Land Use Plans & Range 
        Management Plans.
          2) Detailed analysis of current uses of over 20M acres 
        removed from WH&B usage by the BLM & scientific assessment of 
        these lands for the repatriation of some animals in holding.
          3) Analysis & determination if compensatory reproduction has 
        been caused by BLMs roundup/removal protocols, i.e., 
        fragmenting the harem family bands, selective removals & 
        selective returns to the range, as opposed to natural selection 
        & keeping family bands intact.
          4) Analysis & determination if less compensatory reproduction 
        would occur if family bands, including the lead stallions, lead 
        mares & older family members were returned to the range intact 
        minus a couple of younger adoptable members.
          5) Analysis & determination of the effects of 60/40 sex 
        ratios, PZP & other fertility control methods on long-term herd 
        behavior, dynamics, structure & health.
          6) Analysis & determination of best management protocols for 
        truly humane treatment of WH&B through all phases of 
        management.
          7) Analysis & determination of the best live stream tracking 
        system to follow all animals during helicopter roundups & 
        during removals from the range through & to their final 
        destinations.
          8) Analysis & designation of non-traumatized, non-manipulated 
        herds still on the range to be used as control groups for pilot 
        research projects (very few left in this category).
          9) Independent, state-of-the-art census of all populations on 
        the range & in holding facilities to obtain an accurate 
        baseline utilizing FLIR (forward-looking infrared), satellite 
        imagery &/or drones.

  <bullet> Develop and pass legislation to re-protect America's WH&B.
  <bullet> Develop and pass legislation to ensure the highest humane 
        treatment and management practices on the range, which includes 
        improved WH&B handling, tracking, accountability and real 
        consequences for inappropriate management.
  <bullet> Consider alternatives to remove entire Program from BLM's 
        jurisdiction and create another entity that will truly preserve 
        and protect America's herds as the original 1971 Act intended.
Create More Equitable Land/Forage/Water Reallocation Legislation to 
        Protect and Preserve Viable Herds on the Range Long-Term
  <bullet> Acknowledge that reducing the original HAs of 53M acres down 
        to 27M acres and zeroing out over 150 herds has violated the 
        multiple-use mandate of the 1971 Act.
  <bullet> Acknowledge WH&B are not being allocated equitable resources 
        on their restricted, legal Western public lands to sustain 
        their health and longevity as Federally-protected species 
        mandated by the 1971 Act.
  <bullet> Utilize powers already vested in the 1971 Act to return all 
        original HA acreage to WH&B and designate WH&B as the 
        ``principle'' user on all HMAs and HAs. This will entail 
        passing legislation requiring BLM to amend the Land Use and 
        Range Management Plans of all the HMAs and HAs in order to:

          1) reinstate migratory routes and lands lost to WH&B,
          2) designate the lands as `ranges' for WH&B,
          3) reflect marked increases in forage and water allocations 
        to WH&B, as the ``principle'' user of those resources, and
          4) reflect marked increases in appropriate management levels 
        of WH&B to ensure their continued survival for generations to 
        come on public lands.

Stand up for Increased Appropriate Management Level Numbers of Wild 
        Horses and Burros on the Range for their True Preservation Well 
        into the Future
  <bullet> Acknowledge that 18-26,600 WH&B on the range in the 10 
        Western states are far below a `species of concern' population 
        level as compared to other large wild land species. Wild burros 
        numbering from 2-3,000 are in the endangered category right 
        now.
  <bullet> Support the increase of appropriate management levels of 
        WH&B so their numbers will be sustainable for long-term 
        survival on all HMAs & HAs.
  <bullet> Support repatriation of WH&B currently in expensive holding 
        facilities back to their legal lands in the West, thus saving 
        millions of taxpayer dollars and preserving and protecting 
        America's living legends as was originally intended by the 1971 
        Act.
           WILD HORSES & BURROS (WH&B)--THE NATIONAL PICTURE
            some perspective, numbers, questions & solutions
  <bullet> America's `legally protected' WH&B are not `overpopulated'. 
        They are being squeezed off their legal lands and are not 
        getting a fair share of forage & water.
  <bullet> The national AML range of 16,000-26,600 for WH&B is too low 
        & threatens the genetic diversity & survival of healthy, self-
        sustaining herds over the long-term.

    --38,500: BLM reported total of WH&B population (as of 2/28/11, not 
            validated) [1]
    --26,600: BLM High AML (appropriate management level) for WH&B 
            population [1]
    --16,000-18,000 actual current targeted Low AML for WH&B population 
            by BLM [2]
    --21,354: WH&B population as of 2/28/11 using BLM's own data & 20% 
            growth model (independent analysis) [3]
          120,000-480,000: Approximate head of livestock on WH&B 
        management areas [4]
    --720,000-2.9M head of livestock on BLM lands [5]
    --Up to 1.5M livestock on USFS lands [6]
    --20 million deer, 1 million elk, 700,000+ pronghorns, 70,000 
            bighorns (considered a ``species of concern'') on Federal, 
            state & private lands [7]
    --245 million: Number of acres BLM currently manages [8]
    --157 million: Number of BLM acres allocated to livestock use [8]
    --53.8 million: Number of BLM & private acres originally designated 
            for WH&B in 1971 [1]
    --31.6 million: Number of BLM & private acres currently managed for 
            WH&B [1]
    --22.2 million: Number of acres WH&B have lost since 1971 [1]
    --27 million: Number of BLM acres currently allocated to WH&B use 
            (with livestock) [1]
          11%: Amount of BLM land currently designated for WH&B use [9]
    --83%: Average estimated forage allocated to livestock in BLM WH&B 
            areas [10]
    --17%: Average estimated forage allocated to WH&B in BLM WH&B areas 
            [10]
    --339: Number of BLM original Herd Areas designated for WH&B in 
            1971 [1]
    --179: Number of BLM reduced-size Herd Management Areas currently 
            designated for WH&B [1]
    --160: Number of WH&B Herd Areas BLM has zeroed-out [1]
    --191 million: Number of acres USFS currently manages [11]
    --81 million: Number of USFS acres allocated to livestock use [12]
    --million: Number of USFS acres allocated to WH&B use (with 
            livestock) [13]
    --1.05%: Amount of USFS land currently designated for WH&B use [14]
    --650 million: Number of Federal land acres [15]
    --4.5%: Amount of Federal land acres (BLM/USFS) designated for WH&B 
            use (with livestock) [16]
Costs to Taxpayers:
    --$75.7 million: FY2011 total cost of BLM's WH&B Program [17]
    --$11.4 million: FY2011 cost of roundups, including fertility 
            control [17]
    --$48.2 million: FY2011 cost of BLM warehousing WH&B [17]
    --$766,164: FY2010 cost of BLM WH&B census & range monitoring (3.3% 
            of budget) [17]
    --$144-500 million: FY2011 cost of livestock grazing program [18]
    --$13 million: FY2011 cost of predator control program to benefit 
            livestock [19]
                               questions
    --Considering the above numbers, is it fair to claim WH&B are 
            overpopulated in America?
    --Why is livestock allocated the majority of forage on WH&B legal 
            areas?
    --How does BLM arrive at AML for WH&B versus livestock on WH&B 
            legal areas?
    --Is WH&B genetic diversity & survival of healthy, self-sustaining 
            herds considered at all in AML establishment?
    --Shouldn't the above requirement be the first consideration in 
            WH&B AML establishment before forage allocations are set on 
            WH&B legal areas?
    --What is the best mechanism to correct the insufficient & unfair 
            allocations between livestock & WH&B on WH&B legal areas?
    --Shouldn't the original Herd Areas legally designated by the 1971 
            Act be restored for WH&B use?
    --How is damage to the range studied exactly & how much time is 
            dedicated to monitoring?
    --How is it determined unequivocally what animals did any range 
            damage, i.e., WH&B, livestock or other wildlife?
                               solutions
    --Suspend helicopter roundups, in all but verifiable emergency 
            situations, while the entire BLM WH&B Program undergoes 
            objective & scientific review & reform.
    --Increase Appropriate Management Levels (AML) & Animal Unit Months 
            (AUM) for WH&B.
    --Implement in-the-wild management that would keep WH&B on the 
            range in their family bands & save taxpayers millions 
            annually by avoiding the mass removal & stockpiling of them 
            in government holding facilities.
    --Restore lost acreage designated for WH&B by law in 1971.
    --Create WH&B corridors for herd connectivity & to support summer/
            winter migration patterns.
    --Protect predators in & around the WH&B management areas.
    --Use only bait/water trapping to manage the herds, no helicopters.
    --Apply only 1-year dartable PZP fertility control between the 
            months of Nov-Feb.
    --Increase budget for accurate censusing, range monitoring & range 
            improvements.
    --Return short-term holding WH&B to zeroed-out HAs/HMAs (Herd Areas 
            & Herd Management Areas).
    --Obtain an independent, state-of-the-art census of all management 
            areas.
    --Develop safari-style tourism around the WH&B for job creation & 
            added value to this iconic natural & cultural asset.
References:
[1] http://www.blm.gov/wo/st/en/prog/whbprogram/herd_management/
Data.html
[2] Estimated two-thirds of High AML
[3] Chart 2 by C.R. MacDonald, updated by Carla Bowers 11/4/11, 
originally Table 1 from Report to Congress, 11/10, http://tinyurl.com/
46pppfx
[4] Calculated as 1/6 of [5] based on 27M BLM WH&B acres being 1/6 of 
157M total BLM lands grazed
[5] 8.6M AUMs allocated to livestock in FY10 per BLM feeds this range 
of cattle/calves depending on usage months
[6] http://www.fs.fed.us/rangelands/ftp/docs/
GrazingStatisticalSummaryFY2009.pdf
[7] http://wildlifecontrol.info/deer/pages/deerpopulationfacts.aspx
  http://www.rmef.org/AllAboutElk/FastFacts/
  http://en.wikipedia.org/wiki/Pronghorn_antelope
  http://www.defenders.org/wildlife_and_habitat/wildlife/
bighorn_sheep.php
[8] http://www.blm.gov/wo/st/en/prog/grazing.html
[9] 27M acres/245M acres = 11%
[10] Calculation based on 1/6 of 8.6M AUMs allocated to livestock on 
WHB HMAs, or an estimated 1,433,333 AUMs, compared to 301,000 AUMs 
allocated to WH&B at High AML 1,433,333 + 301,000 = 1,734,333; 301,000/
1,743,333 = 17.3% (most probably high)
[11] http://www.fs.fed.us/rangelands/whoweare/index.shtml
[12] http://www.fs.fed.us/rangelands/ftp/docs/
GrazingStatisticalSummaryFY2009.pdf
[13] Estimate by Barry Imler, National Program Manager, Rangeland 
Products, USDA Forest Service, email communication with Carla Bowers 
dated 3/8/10
[14] 2M acres/191M acres = 1.05%
[15] http://nationalatlas.gov/printable/fedlands.html
[16] 29M acres/650M acres = 4.5%
[17] http://www.doi.gov/budget/2011/data/greenbook/
FY2011_BLM_Greenbook.pdf, pgs. 1-34 to I-35 & IV-71 to IV-82
[18] http://sagebrushsea.org/pdf/factsheet_Grazing_Fiscal_Costs.pdf
[19] http://greenscissors.com/wp-content/uploads/2011/08/
Green_Scissors_2011.pdf, pg. 21
        2009 forage allocation--animal unit months (aums) chart
References
AUM--The estimated amount of forage that one horse, one cow & calf, 5 
sheep, 1.7 elk, 5 pronghorn & 5 bighorn consume in one month at: http:/
/projects.ecr.gov/tushar/pdf/Carter_AUM_paper.pdf

Ten Western states include CA, OR, NV, ID, UT, CO, AZ, AR, MT, WY

Wildlife AUMs do not include over 20 MILLION deer nationally

Additional references from WWW.AMERICANHERDS.BLOGSPOT.COM:

          (1) 8.6M AUMs--BLM Grazing Fact Sheet downloaded 9/13/10 at: 
        www.blm.gov/wo/st/en/prog/grazing.html
          (2) 301K AUMs--At High AML (Appropriate Management Level) 
        that support only 23K WH & 3K Burros. BLM Wild Horse & Burro 
        Program Quick Facts, Updated 8/25/10, downloaded 9/11/10, at: 
        http://www.blm.gov/wo/st/en/prog/wild_horse_and_burro/
        wh_b_information_center/Fact_Sheet.html
          (3) 1,031,000 Elk--Elk Population Reflects Success of RMEF's 
        First 25 Years, Rocky Mountain Elk Foundation, Press Release, 
        April 27, 2009, at: http://www.rmef.org/NewsandMedia/
        NewsReleases/2009/ElkPopulations.htm
          (4) 780,800 Pronghorn--

                  (a) 2002 Pronghorn Antelope populations obtained from 
                Pronghorn Population Totals as of 2002, Nevada's 
                Pronghorn Antelope: Ecology, Management and 
                Conservation, Nevada Department of Wildlife, 2003, 
                Table 2, at: http://www.ndow.org/about/pubs/pdf/
                reports/pronghorn.pdf
                  (b) 2006 Pronghorn antelope population estimates for 
                MT, WY obtained from Conservation of the Northern 
                Yellowstone Pronghorn: A Report and Possible Approach 
                for NPCA's Involvement, Blank, Intern, Stevens, July 
                2006, National Parks Conservation Association, pg. 1, 
                MT/WY average
                  (c) 2009 NM pronghorn antelope population obtained 
                from NM Fish & Game at: http://
                www.wildlife.state.nm.us/commission/presentations/
                documents/PronghornManagement.pdf
                  (d) 2009 NV pronghorn antelope population estimates 
                obtained from Nevada Department of Wildlife at: http://
                www.ndow.org/

          (5) 70,000 Bighorn--2008 National bighorn sheep population 
        estimates found at: ``Bighorn Facing Smaller Habitat, Federal 
        agency wants to reduce protected area by more than 50%'', Mike 
        Lee, Union-Tribune [San Diego], March 23, 2008, at: http://
        www.signonsandiego.com/uniontrib/20080323/news_1n23sheep.html
                      Busting a Hole in the Budget
  us taxpayer costs for blm wh&b program and blm/usfs grazing programs
References
$21M in the black--http://www.sagebrushsea.org/pdf/
factsheet_Grazing_Fiscal_
Costs.pdf (ca. 2007)

About one-half of that $21M goes back into the Range Betterment Fund 
for range improvements, so the income is really only about $10.5M from 
grazing permit fees--

  http://www.sagebrushsea.org/pdf/factsheet_Grazing_Fiscal_Costs.pdf 
(ca. 2007)
  and http://www.biologicaldiversity.org/publications/papers/
assessing_the_full_

  cost.pdf (2002)

$75M in the red--FY11 Proposed & Granted WH&B Program Budget

$144M in the red--http://www.sagebrushsea.org/pdf/
factsheet_Grazing_Fiscal_
Costs.pdf (ca. 2007)

Up to $1B in the red--http://www.biologicaldiversity.org/publications/
papers/assessing_the_full_cost.pdf (2002)

American taxpayers are in the hole in a major way to support livestock 
grazing on public lands (which produces less than 3% of the total 
cattle inventory of the U.S.--Managing For Extinction booklet, Animal 
Welfare Institute, pg. 15)

America's wild horses & burros should be kept on their legal Western 
public lands basically free to the taxpayer, not rounded up, removed 
and warehoused to benefit livestock & other commercial uses of public 
lands, all at huge taxpayer expense.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

 Responses of Secretary Ken Salazar to Questions From Senator Bingaman
         national oceanographic and atmospheric administration
    Question 1. The President has requested that Congress provide him 
with reorganization authority to streamline government, and the 
transfer of the National Oceanographic and Atmospheric Administration 
from the Department of Commerce to the Department of the Interior was 
one example that was mentioned in that context. I am very interested in 
learning more about the Administration's ideas on this proposal, and 
would like to have more details. I understand that this proposal was 
not initiated by your Department, but I would appreciate it if you 
would coordinate with other appropriate offices in the Administration 
to provide me with the Administration's views on what such a transfer 
would entail.
    Answer. On February 12, 2012, the President submitted to Congress 
the proposal the ``Reforming and Consolidating Government Act of 
2012,'' which would reinstate reorganization authority similar to that 
afforded to Presidents for almost 50 years.
    In general, the authority would allow the President to present, for 
expedited review by Congress, proposals to reorganize and consolidate 
Executive Branch agencies to streamline the government and improve 
operations. A coordinated planning effort will begin once Congress 
provides authority to the President to reorganize.
       price's dairy (middle rio grande national wildlife refuge)
    Question 2. I'd like to thank you again for visiting Albuquerque 
last September to announce the creation of the Middle Rio Grande 
National Wildlife Refuge in the city's South Valley. I am concerned, 
however, that the Administration has not requested sufficient funding 
to complete the purchase in a timely manner. Can you tell me what the 
Department's timeline is for acquiring these lands?
    Answer. As proposed, the Middle Rio Grande National Wildlife Refuge 
outside of Albuquerque, New Mexico, will become the first urban 
National Wildlife Refuge in the southwestern United States, and would 
serve as host to thousands of visitors each year as a cornerstone for 
recreation and restoration along this reach of the Rio Grande. This 
proposal is one of the key projects of the America's Great Outdoors 
Initiative. The Office of Valuation Services recently completed an 
appraisal of the property and we have identified adequate funds 
necessary to complete a Phase 1 acquisition closing by July 29, 2012. 
This is consistent with the landowner's current agreement with the 
Trust for Public Land to keep the Price's Dairy property off the 
market. The U.S. Fish and Wildlife Service (Service) plans to 
incorporate Bernalillo County's financial contribution into this 
acquisition phase in advance of the expiration of those funds. Due to 
the cost of these lands, the timing of project approval in relation to 
the appropriations cycle, and the limited amount of funds available 
through the Land and Water Conservation Fund, the Service is also 
exploring potential funding resources from an array of local, State and 
Federal partners.
    Notably, execution of a first phase acquisition will formally 
establish the Refuge, which will enable the Service to pursue 
additional federal funding to complete acquisition of the property. 
Furthermore, Service staff continues to identify partners and 
additional sources of funding for future acquisition, habitat 
restoration, and infrastructure development.
                  transboundary aquifer assessment act
    Question 3. In 2006, Congress passed the United States-Mexico 
Trans-boundary Aquifer Assessment Act which directed USGS to work with 
states and universities on both sides of the border to perform a 
comprehensive assessment of aquifers that extend to both sides of the 
border. Since 2008, approximately $1.5 million has been spent on this 
program.
    I understand that significant progress has been made in 
implementing this Act by research universities in New Mexico, Texas, 
and Arizona along with USGS and their counterparts in Mexico. I also 
understand that Mexico has provided funding for the next phase of 
research and is waiting for matching funds from the US.
    Under those circumstances, why hasn't the Department of the 
Interior allocated any funding for this effort so that we can continue 
to try to better understand the aquifer characteristics and foster 
better bi-national relationships like we are doing on energy issues and 
within the Colorado River Basin?
    Answer. The U.S.-Mexico Transboundary Aquifer Assessment Program 
has been a successful partnership between Mexico and the USGS, and the 
Water Resources Research Institutes from Arizona, New Mexico and Texas. 
Progress has been made in developing and implementing bi-national 
workplans. As a result of this partnership, a five-year interim report 
on the United States-Mexico Transboundary Aquifer Assessment is in 
development. Despite the success of this initiative, direct funding for 
this effort has not been continued as a result of other priorities. 
However, the USGS Groundwater Resources Program has provided funding to 
the USGS Arizona and Texas Water Science Centers to complete activities 
already in progress, and the USGS' NAWQA program is contributing 
funding to ongoing work in Texas.
                           federal oil & gas
    Question 4. Critics of the Department's management of the Outer 
Continental Shelf often state that only 2-3% of the OCS is available 
for leasing or development. This apparently refers to the percentage of 
the 1.7 billion acres of the Outer Continental Shelf that are currently 
under lease, and not to a percentage of the available oil and gas 
resources. Do you believe that this is a valid measure of the extent to 
which the oil and natural gas resources on the Outer Continental Shelf 
are available to industry? If not, why not?
    In your response, please provide information on the percentage of 
federally owned oil and gas resources that are currently available for 
lease both onshore and offshore; the percentage of those resources that 
are currently in the pre-leasing planning process; the percentage of 
the acres onshore and offshore available for lease that actually have 
been leased by industry; and the percentage of those acres available 
for lease that have been put into production by industry.
    Answer. Regarding development on the Outer Continental Shelf (OCS), 
the Bureau of Ocean Energy Management published the Proposed Five-Year 
Program for 2012-2017 in November 2011, and on June 28, 2012, the 
Secretary announced the Proposed Final Program. The Proposed Final 
Program would make available offshore areas that contain more than 75 
percent of undiscovered technically recoverable oil and gas resources 
that the OCS is estimated to hold. As the Outer Continental Shelf Lands 
Act requires, this represents a proper balance among the potential for 
environmental damage, the potential for the discovery of oil and gas, 
and the potential for adverse impact on the coastal zone.
    Two primary guiding principles underlie this Proposed Final 
Program. First, the program is designed to promote the diligent 
development of the Nation's offshore oil and gas resources, which are 
and will remain central to the Nation's energy strategy, economy, and 
security. The program is in alignment with the Administration's 
Blueprint for a Secure Energy Future, which aims to promote the 
Nation's energy security and reduce oil imports by a third by 2025 
through a comprehensive national energy policy that includes a focus on 
expanding safe and responsible domestic oil and gas production.
    Second, this Proposed Final Program is grounded in the lessons 
learned from the Deepwater Horizon explosion and oil spill. Since the 
Deepwater Horizon incident, DOI has raised standards for offshore 
drilling safety and environmental protection in order to reduce the 
risk of another loss of well control in our oceans and improve our 
collective ability to respond to a blowout and spill. While offshore 
oil and gas exploration and development will never be risk-free, the 
risk from these activities can be minimized and operations can be 
conducted safely and responsibly, with appropriate measures to protect 
human safety and the environment.
    The Department recently released a report that shows that, 
offshore, industry had leased nearly 36 million acres, but only about 
10 million acres were active. Moreover, in the lower 48 states, an 
additional 20.8 million acres remain idle, and 7,000 approved but 
unused permits to drill on public lands continue to be held by 
companies.
                   bureau of ocean energy management
    Question 5. How many acres of the OCS are under lease but not 
producing oil and gas?
    Answer. As noted in response to the previous question, the recently 
released report shows that offshore, industry had leased nearly 36 
million acres, but only about 10 million acres were active.
          office of surface mining reclamation and enforcement
    Question 6. The Budget proposes to eliminate payments to certified 
states and tribes. This will hit the Navajo Nation, which I understand 
uses the funds for public facilities and the reclamation of 
contaminated uranium mine sites, particularly hard. Have you engaged in 
a government-to-government consultation regarding the elimination of 
this funding with the Navajo Nation consistent with the trust 
responsibility?
    Answer. Consultation with the Tribe has taken place on several 
occasions over the past several years. For the FY 2013 Budget Request, 
the Director of the Office of Surface Mining led a call on February 14, 
2012, with all interested groups and briefly touched on the proposal, 
which is the same proposal as that put forward last year. Most 
recently, on May 18, 2012, OSM sent a letter to the Tribe to determine 
the Tribe's interest in consulting on the proposal this year. That 
letter noted that the legislative proposal contained in the FY 2013 
budget is identical to that proposed for the current fiscal year and 
that consultation took place on last year's proposal, which was not 
enacted by Congress.
    Question 7. OSM is in the process of revising permanent program 
regulations relating to excess spoil and stream buffer zones. Please 
provide your time table for this rulemaking.
    Answer. OSM will take the time necessary to make informed decisions 
on the rulemaking, and plans to publish a Proposed Rule and associated 
Draft Environmental Impact Statement later this year.
    Question 8. New Mexico and the Navajo Nation have serious needs 
with respect to the reclamation of abandoned uranium mines, many of 
which were developed initially to provide uranium for our Nation's 
weapons program. Please provide for the record by state and tribe the 
funds included in the President's Budget proposal for the reclamation 
of abandoned uranium mines. Please include this information for all the 
Bureaus within the Department of the Interior and for all Federal 
agencies which fund abandoned uranium mine reclamation.
    Answer. There are no funds included in the FY 2013 budget proposal 
for the Department of the Interior bureaus to cleanup abandoned mines 
on tribal lands.
    The BLM's appropriated funds for abandoned mine cleanup, $19.5 
million in FY2012, will be used to mitigate public safety and 
environmental hazards associated with abandoned mines on public lands, 
and projects are undertaken based on a priority ranking irrespective of 
the mineral once mined at the site.
                       bureau of land management
    Question 9. How many fulltime I&E inspectors are currently employed 
in the Farmington Field office?
    Answer. There are 45 fulltime I&E inspectors currently employed in 
the Farmington Field Office.
    Question 10. How much Federal onshore acreage is under oil and gas 
lease but not producing?
    Answer. As of December 31, 2011, approximately 56 percent of total 
acres of public land under lease in the Lower 48 States--totaling 
approximately 20.7 million acres--are undergoing neither production nor 
exploration activities. As of September 30, 2011, there are over 7,000 
approved permits to drill on public and Indian lands that have not yet 
been acted on by companies. In the lower 48 states, 20.8 million acres 
remain idle, and 7,000 approved but unused permits to drill on public 
lands continue to be held by companies.
    Question 11. What is the current level of funding and what level is 
proposed for fiscal year 2011 for the administration of renewable 
energy development on public lands? Please provide allocation by energy 
type.
    Answer. In the current year, FY 2012, wind and solar activities are 
funded at $19.7 million through the BLM's Renewable Energy Management 
program. The BLM does not break out funding by energy type for wind and 
solar energy development activities. The BLM does have a breakout for 
geothermal energy because the program has been historically managed 
within the BLM's oil and gas appropriation. In FY 2012, funding for 
geothermal activities comes from two sources: $1.3 million from the Oil 
and Gas Management program; and $3.9 million from the Geothermal Steam 
Act Implementation Fund under the Energy Policy Act of 2005. New 
deposits into the Geothermal Steam Act Implementation Fund ceased in 
2010, and current year expenditures are expected to exhaust the 
remaining balance.
    For FY 2013, the budget request for the BLM's Renewable Energy 
Management program is $26.8 million, and incorporates geothermal 
activities. This request includes a transfer of $2.0 million from Oil 
and Gas Management for geothermal activities, and an increase of $5.0 
million for a combination of geothermal activities and other high-
priority renewable energy studies.
    Question 12. Please describe all geothermal leasing activity, 
including date and state for all lease sales, subsequent to the 
Geothermal Steam Act amendments contained in the Energy Policy Act of 
2005. Please provide a table of lands showing acres under geothermal 
lease (and whether production is occurring) by state.
    Answer. BLM geothermal sales since passage of Energy Policy Act of 
2005 are contained in the following chart:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    BLM geothermal leases by state and producing status are contained 
in the following chart:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 13. How many applications for solar rights-of-way are 
pending? How many applications for wind rights-of-way are pending? 
Please provide listings by state and location.
    Answer. The following chart contains the requested information:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Information related to pending solar energy right-of-way 
applications is contained in the following charts:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 14. How many acres administered by the Forest Service and 
the BLM have been leased for oil and gas development during each of the 
past ten fiscal years? Please display this on a state-by-state basis 
and by agency.
    Answer. The BLM administers all acres of federal oil and gas 
mineral estate. The following link provides data for the total acres of 
federal land leased for the last 10 years by state. The attached table 
breaks out the acres of the Forest Service leased each of the past ten 
fiscal years for each state.http://www.blm.gov/style/medialib/blm/wo/
MINERALS--_REALTY--_AND_RESOURCE_PROTECTION_/energy/oil_gas_statistics/
data_sets.Par.80157.File.dat/table05.pdf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 15. How many acres of lands administered by the Forest 
Service and the BLM in states west of the hundredth meridian have been 
under oil and gas lease in each of the past ten fiscal years? Please 
display by state and agency.
    Answer. The BLM administers all acres of federal oil and gas 
mineral estate. The following table and link provides data for the 
total acres of BLM and Forest Service land leased for the 12 western 
states and those states through which the 100th meridian passes. The 
attached table breaks out the acres by agency of BLM and Forest Service 
land leased for the 12 western states and those states through which 
the 100th meridian passes. http://www.blm.gov/style/medialib/blm/wo/
MINERALS_REALTY_AND_RESOURCE_PROTECTION_/energy/oil_gas_statistics/
data_sets.Par.67327.File.dat/table-03.pdf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 16. How many wells were started on federal lands (BLM and 
Forest Service) in each of the past 10 fiscal years? Please provide by 
state. Please also provide the number of completions per state per year 
on federal lands.
    Answer. The number of wells started (spud) on all federal mineral 
estate in each of the past ten years is shown on the table below. The 
following data table and link provides the data on total well 
starts.http://www.blm.gov/style/medialib/blm/wo/
MINERALS_REALTY_AND_RESOURCE_PROTECTION_/energy/oil_gas_statistics/
data_sets.Par.36209.File.dat/table09.pdf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 17. Please list the total number of new federal oil and 
gas leases by state by year.
    Answer. The following table and link provides the total number of 
new federal oil and gas leases by state by year for the last ten 
years.http://www.blm.gov/style/medialib/blm/wo/
MINERALS_REALTY_AND_RESOURCE_PROTECTION_/energy/oil_gas_statistics/
data_sets.Par.62098.File.dat/table04.pdf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         bureau of reclamation
    Question 18. What is the status of Reclamation's efforts to develop 
rules or criteria for the Rural Water program? If criteria have been 
finalized, please provide a copy.
    Answer. The Bureau of Reclamation released its Rural Water 
Assessment Report on July 9, 2012, which reviews the status of the 
Bureau's rural potable water projects and includes a description of the 
proposed prioritization criteria. This comprehensive set of draft 
criteria for ranking projects will enable the Bureau to direct its 
limited construction dollars to the completion of the most meritorious 
projects. The draft assessment report reflects Reclamation's revisions 
to the interim criteria used to allocate the additional appropriations 
received in FY 2012. The interim criteria were also used to formulate 
the President's FY 2013 budget request for rural water construction. 
Reclamation modified the interim criteria to account for the collection 
of data on regional economic impacts and the use of renewable energy to 
meet project power demands. The revised criteria are available for 
public review and comment for 60 days, ending at 5:00 p.m. (MDT) on 
September 10, 2012. It is important to note that the prioritization 
criteria will not be finalized until Reclamation has considered and 
reviewed comments submitted during the 60 day review period. 
Reclamation will continue to work closely with members of Congress, 
project partners, and stakeholders to finalize the criteria.
    The revised criteria include factors that account for project 
completion, urgent and compelling needs for water supply, economic 
impacts in areas with low employment, Native American populations 
served, available non-Federal cost-share, and energy efficiency and 
renewable energy use. A copy of the Report and funding prioritization 
criteria can be found at: http://www.usbr.gov/ruralwater/docs/Rural-
Water-Assessment-Report-and-Funding-Criteria.pdf.
    Pursuant to Section 9505 of the Act, the Department of Energy (DOE) 
is in the process of conducting an assessment on the effect of, and 
risk resulting from, climate change with respect to water supplies that 
are required for the generation of hydropower. In consultation with 
Reclamation and USGS, along with the Power Marketing Administrations, 
the National Oceanic and Atmospheric Administration and the Army Corps 
of Engineers, DOE is preparing a report to Congress on climate change 
effects at Federal hydropower facilities, and recommendations on how to 
change operating and contracting practices to address identified 
climate change risks.
    Question 19. What is the status of Reclamation's efforts to develop 
rules or criteria for the Title XVI program?
    Answer. In October 2010, after receipt of public comments, 
Reclamation finalized funding criteria to identify Title XVI projects 
that most effectively stretch water supplies and contribute to water 
supply sustainability; address water quality concerns or benefit 
endangered species; incorporate the use of renewable energy or address 
energy efficiency; deliver water at a reasonable cost relative to other 
water supply options; and that meet other important program goals. 
Those criteria were incorporated into funding opportunity announcements 
in FY 2011 and FY 2012 to prioritize projects that most closely meet 
program goals for available funding.
    Question 20. Please summarize the work being done to implement the 
SECURE Water Act, authorized by Section 9501 et seq. of P.L. 111-11?
    Answer. The Department of the Interior is addressing the 
authorities within the SECURE Water Act (Act) through a broad set of 
activities. These activities, in conjunction with Secretarial Order 
3289 establishing the Department's integrated approach to addressing 
climate change and Secretarial Order 3297 establishing the WaterSMART 
Program, are implementing the Act's intent to assess risks to the water 
resources of the Western United States and develop strategies to 
mitigate risks to help ensure that the long-term water resources 
management of the United States is sustainable. The Act requires 
identified Federal agencies to assess climate change implications for 
water supplies, water deliveries, hydropower generation, fish and 
wildlife, water quality, flood control, ecological resiliency, and 
recreation. The following summarizes the work being done by the 
Department to implement the Act.
    Secretarial Order 3297 established the WaterSMART Program 
(WaterSMART), calling for coordination across agencies to integrate 
energy and water policies, and to ensure the availability of sound 
science and information to support decisions on sustainable water 
supplies. WaterSMART addresses current and future water shortages, 
degraded water quality, increased demands for water from growing 
populations and energy needs, amplified recognition of environmental 
water requirements, and the potential for decreased water supply 
availability due to drought and climate change. WaterSMART includes 
funding for cost-shared grants for water and energy management 
improvement projects, basin-wide efforts to evaluate current and future 
water supplies and demands, Title XVI water reclamation and reuse 
projects, the establishment and expansion of collaborative watershed 
groups, and smaller-scale water conservation activities through the 
Water Conservation Field Services Program. Together, these programs 
form an important part of Reclamation and the USGS's implementation of 
the Act.
    The Department, through the Bureau of Reclamation, is addressing 
climate change impacts and water supply and demand imbalances through 
the Basin Study Program, which implements Section 9503 of the Act 
through three activities: (1) Basin Studies, through which Reclamation 
works with State and local partners to comprehensively identify 
strategies to meet future water demands within a river basin; (2) West-
Wide Climate Risk Assessments (WWCRAs), which provide consistent 
projections of risks to water supplies and demands and impacts to 
Reclamation operations due to the potential impacts of climate change 
across the eight major Reclamation river basins identified within the 
Act; and (3) Landscape Conservation Cooperatives, which are focused on 
working with partners to identify shared science needs and meeting 
those needs through the development of applied science tools, 
collaboration, and information sharing to support resource management 
at the landscape scale.
    WaterSMART grants, under WaterSMART, implement Section 9504 of the 
Act by providing cost-shared assistance on a competitive basis for the 
following types of projects: (1) water and energy efficiency 
improvements that save water, increase energy efficiency and the use of 
renewable energy in water management, address endangered species and 
other environmental issues, and facilitate transfers to new uses; (2) 
pilot and demonstration projects that address the technical and 
economic viability of treating and using brackish groundwater, 
seawater, impaired waters, or otherwise creating new water supplies 
within a specific locale; (3) system optimization reviews that assess 
the potential for water management improvements and identify specific 
ways to implement those improvements; and (4) projects to develop 
climate analysis tools to more efficiently manage water resources in a 
changing climate.
    In FY 2013, Reclamation anticipates funding approximately 50 new 
WaterSMART grant projects, including approximately 35 projects. 
Additionally, to ensure that the most effective approaches to 
sustainable water conservation and water recycling are being employed, 
Reclamation will continue to develop the WaterSMART Clearinghouse 
website as a resource to provide leadership and assistance in 
coordinating and integrating water conservation and sustainable water 
strategies. On May 2, 2012, Reclamation announced $11 million in 
WaterSMART Water and Energy Efficiency Grants, which will allow 34 
projects sponsored by States, Indian tribes, irrigation districts, 
water districts and other organizations to partner with Reclamation on 
projects that increase water conservation or result in other 
improvements that address water supply sustainability in the West. 
Eight congressionally authorized Title XVI water recycling and reuse 
projects will receive $20.3 million in funding as well.
    Pursuant to Section 9505 of the Act, the Department of Energy (DOE) 
is in the process of conducting an assessment on the effect of, and 
risk resulting from, climate change with respect to water supplies that 
are required for the generation of hydropower. In consultation with 
Reclamation and USGS, along with the Power Marketing Administrations, 
the National Oceanic and Atmospheric Administration and the Army Corps 
of Engineers, DOE is preparing a report to Congress on climate change 
effects at Federal hydropower facilities, and recommendations on how to 
change operating and contracting practices to address identified 
climate change risks.
    In 2011, USGS issued a report pursuant to Section 9506 of the Act 
which documents actions that can be taken to help manage and prepare 
for the changes that may occur to our Nation's water supply systems as 
a result of climate change with a particular focus on observational 
data and measuring and monitoring systems. In addition, USGS has begun 
its work on implementing the WaterSMART availability and use assessment 
program pursuant to Sections 9507 and 9508 of the Act and has completed 
an initial pilot study in the Great Lakes system. Additional pilot 
studies are underway in the Colorado River Basin, Delaware River Basin 
and the Apalachicola-Chattahoochee-Flint River Basin.
    A National Groundwater Monitoring Network (NGWMN) was authorized 
under Section 9507 of the Act, which is being implemented by USGS. In 
2013, the USGS will transition from the pilot-scale NGWMN data portal 
to a production-scale portal. Using hydrologic understanding and 
modeling tools currently available and being developed for selected 
major aquifers, as part of groundwater availability studies, USGS 
scientists will identify monitoring locations to enhance the national 
monitoring network. In consultation with State and local agencies, the 
USGS will incorporate qualified wells and springs from State and local 
agencies into the NGWMN. The USGS will begin expansion of the 
groundwater climate response network to improve the understanding of 
the effects of climate change on groundwater recharge and availability. 
The proposed NGWMN will bring comparable monitoring data together from 
disparate sources in order to close spatial data gaps and evaluate 
national-scale groundwater levels, quality, and rates of change.
    A Brackish Aquifer Assessment is also authorized under Section 9507 
of the Act. Hydrologic understanding for selected major aquifers gained 
through the regional groundwater availability studies will be used to 
assist in identification of brackish groundwater resources. In 
addition, the USGS, in consultation with State and local water resource 
agencies, will begin assembling available data and other relevant 
information in order to identify significant brackish groundwater 
resources located in the United States and develop a work plan for the 
national Brackish Aquifer Assessment.
    Over the next 10 years, the USGS plans to conduct a new assessment 
of water availability and use pursuant to Section 9508 of the Act, 
which calls for the establishment of a national water assessment 
program. The USGS Science Strategy identifies a water census as one of 
six USGS science priorities, and the Water Resources activity is able 
to provide scientific underpinnings for a coordinated assessment of 
water availability and use through its Hydrologic Networks and Analysis 
Program.
    Question 21. The WaterSmart grant program supports innovative 
efforts to improve water and energy efficiency among other things. Of 
the projects that have been funded in the program's two-year history, 
are there any that you would like to highlight as demonstrable 
successes?
    Answer. In 2011, Reclamation awarded more than $25 million for 58 
Water and Energy Efficiency Grants. These projects were estimated to 
save about 100,000 acre-feet of water, enough to supply water for about 
400,000 people for one full year. In addition, over 25 of the projects 
were expected save more than 15 million kilowatt hours of electricity 
per year, enough electricity for about 1,300 households.
    The Three Sisters Irrigation District in Oregon, for example, will 
use its WaterSMART award to conserve water for environmental needs in 
the Upper Deschutes Basin. The district will use $859,149 to replace 
20,000 feet of open canal with pipe expected to result in 750 acre-feet 
of water savings annually. The water conserved will then be marketed 
through the Deschutes River Conservancy for a protected instream right 
to support critical habitat for bull trout, red band trout, summer 
steelhead and chinook salmon. The District also will install a 950-
kilowatt capacity turbine generator as part of the project. This 
renewable energy source is expected to supply 3.1 million kilowatt-
hours of electricity annually.
    Another project of note is the Vadose Zone Recharge Wells Capital 
Improvement Project being carried out by the City of Surprise, Arizona. 
Reclamation announced a $1 million WaterSMART Water and Energy 
Efficiency Grant for the City of Surprise in May 2011. Through this 
grant, the City intends to construct and operate 15 additional vadose 
zone wells, increasing the amount of reclaimed water that can be 
recharged annually by about 6,049 acre-feet annually (AFA). This 
$4,517,600 project would enable the City to recharge up to a total 
maximum of 8,049 AFA of reclaimed water that would be stored 
underground for later City use.
    Question 22. How are grant applications for WaterSmart evaluated 
and prioritized for funding?
    Answer. Each year, Reclamation posts funding opportunity 
announcements that describe eligibility requirements and funding 
criteria for the public. For example, water and energy efficiency 
projects should seek to conserve and use water more efficiently, 
increase the use of renewable energy and improve energy efficiency, 
protect endangered and threatened species, facilitate water markets, or 
carry out other activities to address climate-related impacts on water 
or prevent any water-related crisis or conflict. These projects 
include, but are not limited to: canal lining/piping, municipal 
metering, irrigation flow measurement, and groundwater recharge. 
Applications received in response to Reclamation's funding opportunity 
announcements are scored against evaluation criteria by a review 
committee composed of experts in relevant disciplines selected from 
across Reclamation. Reclamation then prioritizes projects for funding 
based on those results and additional steps conducted to ensure the 
total amount of all awards does not exceed available funding levels. 
This is to ensure that the projects meet the scope and priorities of 
the WaterSMART program.
    Question 23. WaterSmart grants support projects focused on water 
and energy efficiency, pilot and demonstration projects, system 
optimization reviews, and climate analysis tools. Will the same 
WaterSmart thematic areas be supported by increased funding in 2013 or 
are there new priorities that the Bureau of Reclamation are considering 
supporting with additional funds?
    Answer. Yes, the same WaterSmart thematic areas will be supported 
by increased funding in 2013. In FY 2013, Reclamation proposes to fund 
WaterSMART at $53.9 million, $6.8 million above the 2012 enacted level. 
This request includes $21.5 million for WaterSMART grants, a $3 million 
increase in funding from the FY 2012 budget request. With that 
additional funding, Reclamation plans to provide cost-shared assistance 
on a competitive basis for the four existing categories of projects: 
(1) water and energy efficiency improvements that save water, increase 
energy efficiency and the use of renewable energy in water management, 
address endangered species and other environmental issues, and 
facilitate transfers to new uses; (2) pilot and demonstration projects 
that address the technical and economic viability of treating and using 
brackish groundwater, seawater, impaired waters, or otherwise creating 
new water supplies within a specific locale; (3) system optimization 
reviews that assess the potential for water management improvements and 
identify specific ways to implement those improvements; and (4) 
projects to develop climate analysis tools to more efficiently manage 
water resources in a changing climate. Interest from eligible 
applicants is strong. For example, Reclamation has received 167 
proposals for new FY 2012 water and energy efficiency grants, together 
representing a request for approximately $100 million in Federal 
funding. Significant interest is also expected for all grant categories 
in FY 2013.
    Question 24. Please provide by agency the funds to be expended by 
the Department on restoration of the Klamath River Basin restoration 
during FY 2013. If possible, please also provide this information for 
other Federal agencies working on Klamath Basin restoration.
    Answer. The fiscal year 2013 budget request for Klamath River Basin 
restoration activities includes: $7.1 million for the Bureau of 
Reclamation to support implementation of a number of the restoration 
and water supply actions that are authorized under existing law; $7 
million for the Bureau of Indian Affairs to be provided to the Klamath 
Tribes to implement economic activities that support the Klamath Basin 
Restoration Agreement; $1.6 million for the Fish and Wildlife Service 
to fund the Arcata, Yreka, and Klamath Falls Fish and Wildlife 
Conservation Offices to support critically needed fisheries and fish 
habitat monitoring and modeling, fish and watershed habitat planning 
and restoration projects, and projects to improve instream flows for 
fish; and $901,000 for the U.S. Geological Survey to determine 
relationships between water availability, fish habitats, and water 
quality on sucker growth, condition, and survival in the Upper Klamath 
and Clear lakes, investigate aquatic productivity with special 
attention to intensity, magnitude, and composition of plankton blooms, 
investigate production of blue green algae and transfer of cyanotoxins 
through food webs to endangered suckers, and assess the biological 
effects of exposures of cyanotoxins in leading to a possible bottleneck 
in population recovery.
                    united states geological survey
    Question 25. I have a longstanding concern about depletions in the 
southern High Plains Aquifer. This is especially important in New 
Mexico because communities in eastern New Mexico rely on the Aquifer 
for their water supplies. Will you undertake more analysis necessary to 
address this serious problem?
    Answer. We understand how important the High Plains aquifer is to 
New Mexico and many other states, and the USGS has been monitoring and 
studying this aquifer for many years. Since 2009, the USGS, through the 
Groundwater Resources Program, has been conducting a High Plains 
aquifer groundwater availability study to quantify groundwater 
resources, evaluate changes in those resources over time, and provide 
tools to forecast how those resources will respond to stresses from 
future human and environmental uses. This work already has resulted in 
several publications, and we expect more. A recent noteworthy product 
(2011) is a water budget analysis for the entire aquifer (USGS 
Scientific Investigations Report 2011-5183), including the Southern 
High Plains aquifer (NM, TX, and OK). Additionally, in 1987 Congress 
directed the USGS, in collaboration with numerous Federal, State, and 
local water resources entities, to assess and track water level changes 
in the High Plains aquifer. The most recent product (2011) summarizes 
changes in water levels and drainable water in storage in the High 
Plains aquifer from predevelopment to 2009 (FS 2011-3069). Groundwater 
quality of the High Plains aquifer also was evaluated by the USGS 
(1999-2006) as part of the National Water-Quality Assessment (NAWQA) 
Program.
    For more information:

          High Plains Groundwater Availability Study web page (http://
        txpub.usgs.gov/HPWA/index.html)
          High Plains Water-Level Monitoring Study web page (http://
        txpub.usgs.gov/HPWA/index.html)
          High Plains Groundwater Quality Study web page (http://
        co.water.usgs.gov/nawqa/hpgw/HPGW_home.html)

                       office of insular affairs
    Question 26. The proposed FY13 OIA budget again assumes enactment 
of legislation approving the Agreement with Palau to extend financial 
assistance under the Compact through 2024. However, the Committee has 
been unable to report the necessary legislation because no viable 
offset has been identified to pay for the mandatory spending provided 
by the Agreement.
    One option being considered is based on the proposal of Delegate 
Donna Christensen as set forth in H.R. 2220. This bill would authorize 
a ``Pilot Program for Public-Private Territorial Investment'' and would 
allow taxpayers a one-time transfer of existing IRA, 401k, and other 
tax-deferred investments into a special fund with no tax or penalties 
at the time of the initial transfer. 1/3rd of the collected 1.5% 
transfer fee would be made available for critical infrastructure 
construction in the USVI.
    Is the Administration willing to consider support for the concept 
in H.R. 2220--to provide a portion of collections from such a pension 
fund transfer fee to be used by the territories to meet essential 
infrastructure needs, and at the same time, support Congressional use 
of a portion of the U.S. Treasury collections of the transfer fees as 
an offset for the legislation to approve the Palau Agreement?
    Answer. The Administration proposes the following offsets to the 
legislation approving the Agreement with Palau to extend financial 
assistance under the Compact through 2024: Net Receipt Sharing, which 
takes into account the costs of managing Federal oil and gas leases 
before revenues are shared with the States; terminating payments for 
reclaiming abandoned coal mines to states that are already certified as 
having cleaned up all of their priority sites; and production incentive 
fees on non-producing Federal oil and gas leases. The Department has 
not developed a position on the bill. The Department looks forward to 
working with you and the Committee to find an appropriate offset for 
the Palau legislation.
    Question 27. What is OIA's rough estimate of unfunded critical 
infrastructure need in each of the territories?
    Answer. Covenant Capital Improvement Project (CIP) funds address a 
variety of infrastructure needs in the U.S. territories including 
critical infrastructure such as hospitals, schools, wastewater and 
solid waste systems. Improvements to critical infrastructure not only 
benefit the current population and businesses, but lay the groundwork 
to attract new investment to the territories thereby promoting economic 
development. The territorial governments, individually, compile and 
budget for anticipated actual infrastructure investment. Thus, there is 
no grand total for unfunded needs. The insular areas would certainly 
require billions of dollars to upgrade infrastructure to mainland 
standards.
    Question 28. Would you please work with OMB to provide the 
Committee with a list of non-pension, and non-healthcare mandatory 
spending programs/authorizations, with spending in excess of $200 
million annually, within the budgets of the State and Defense 
Departments, a portion of which could be considered as offsets for the 
Palau Agreement.
    Answer. The Administration has proposed the following offsets to 
the legislation approving the Agreement with Palau to extend financial 
assistance under the Compact through 2024: Net Receipt Sharing, which 
takes into account the costs of managing Federal oil and gas leases 
before revenues are shared with the States; terminating payments for 
reclaiming abandoned coal mines to states that are already certified as 
having cleaned up all of their priority sites; and production incentive 
fees on non-producing Federal oil and gas leases. The Department will 
forward to OMB your suggestions for proposing additional offsets from 
the budgets of the Departments of State and Defense. The Department 
looks forward to working with you and the Committee to find an 
appropriate offset for the Palau legislation.
    Question 29. I am concerned that the corpus remaining in the 
Rongelap Resettlement Fund may be insufficient to provide annual income 
sufficient to provide for future food importation and radiological 
remediation requirements.

          a. What is the current balance in the Fund?

    Answer. The balance of the Rongelap Resettlement Fund as of Friday, 
March 2, 2012, was $11,033,272.

          b. What is the OIA/DOE estimate for the future annual cost 
        for importing food and remediating radiation that would be 
        expected to be funded by the Resettlement Fund?

    Answer. The Office of Insular Affairs has not been involved with 
the importation of food to or the remediation of radiation at Rongelap 
Island. Representatives of the Departments of Energy and Agriculture 
would develop such an estimate; however, funding would be required for 
such an undertaking.

          c. What size corpus would be needed to meet these future 
        needs?

    Answer. The size of the corpus would have to be determined by the 
Departments of Energy and Agriculture after estimating annual need.

          d. What steps will OIA take to ensure that a sufficient 
        corpus remains in the Fund to meet these and other long-term 
        resettlement needs?

    Answer. Working in consultation with the Committee, OIA has 
forbidden in fiscal years 2011 and 2012 the use of Rongelap 
Resettlement Trust Fund proceeds for activities other than those 
directly connected with the resettlement of Rongelap Island. OIA will 
continue this policy indefinitely.

          e. An initial ``target date'' for initial resettlement was 
        set for last October 1st. What is the current timeline for 
        people to return to Rongelap?

    Answer. The Mayor of Rongelap Atoll Local Government has informed 
OIA that he anticipates that by September 2012 all Rongelap 
schoolchildren from Mejatto Island will be enrolled in the public 
school on Rongelap Island. This will of necessity mean the return to 
Rongelap Island of many adults, who will accompany the returning 
schoolchildren. In addition the Mayor foresees that many Rongelap 
schoolchildren enrolled in the 2011-2012 academic year on Ebeye Island 
will return to Rongelap Island during the 2012-2013 academic year with 
a concomitant return of adult family members as well.
    Question 30. I commend the Department for requesting $5 million to 
supplement the $30 million provided under P.L. 108-188 to mitigate 
compact impact, and for indicating its intent to hire a full-time 
employee in Hawaii to focus on this issue.

          a. Please outline of the tasks you anticipate OIA, the 
        Affected Areas, and the FAS governments will be jointly 
        undertaking to reduce Compact Impacts.
          b. How does OIA intend to enhance the education of migrants 
        and prospective migrants regarding their rights and 
        responsibilities under the Compact?
          c. How does OIA intend to reduce the high cost of providing 
        dialysis and cancer treatment in the Affected Areas?
          d. What will be the performance indicator to determine 
        progress in reducing compact impacts?

    Answer. The Department will be establishing an OIA Compact Impact 
Initiative, which will focus on bolstering the Department's bilateral 
relationships and communication opportunities, while ensuring there is 
an annual forum to discuss issues of concern, make recommendations, and 
implement agreed upon policies. As part of the initiative, OIA will 
seek to facilitate travel by freely associated state (FAS) presidents 
to the affected jurisdictions to enhance relationships and coordination 
among territorial or State, Federal, and FAS leadership and 
communities. This provides opportunities for coordinated messaging and 
information distribution from FAS and U.S. senior officials to FAS 
migrant communities. Assistant Secretary of the Interior for Insular 
Areas, Anthony Babauta convened the inaugural Pacific Island Leaders 
Addressing Compact Impact (PILACI) a bilateral meeting of officials 
from the FAS and U.S. in March 2012. The PILACI meeting provided a 
forum where stakeholders including the FAS Presidents, Governors of the 
Federated States of Micronesia, Guam, and Commonwealth of the Northern 
Mariana Islands (CNMI), as well as the Lt. Governor of Hawaii, Guam 
Congresswoman, and participants from the CNMI Congressman and State 
Department raised concerns and discussed solutions. Future PILACI 
meetings will be held to advance joint undertakings and develop 
performance indicators. Utilizing existing resources, OIA will review 
and evaluate its ability to dedicate a member of the OIA staff to lead 
the OIA Compact Impact Initiative while working closely with PILACI 
stakeholders. OIA is also working with a number of Federal agencies and 
the appropriate regional bureaus to use existing authority under the 
Compacts of Free Association and other relevant Federal statutes.
    As a result of the PILACI meeting, joint undertakings identified 
were:

  <bullet> To better facilitate meaningful outreach meetings in the 
        affected jurisdictions, OIA will convene regularly scheduled 
        meetings with FAS and affected jurisdiction leadership to 
        provide advance notice of travel, structure and format of 
        outreach meetings in a way that maximize distribution of joint 
        messaging and engages stakeholders from the affected 
        jurisdictions.
  <bullet> OIA will work directly with the affected jurisdictions about 
        the feasibility of developing uniform reporting guidelines 
        detailing impact of the Compacts of Free Association. The 
        Abercrombie Administration announced they are pursuing efforts 
        to acquire better data and would be providing input about how 
        report guidelines may be developed. Upon receiving input from 
        the Abercrombie Administration, OIA will distribute to other 
        affected jurisdictions for their comments. Emphasis will be 
        placed on evaluating the impact of qualified nonimmigrants, ``. 
        . .a person, or their children under the age of 18, admitted 
        pursuant to the COFA who is a resident of an affected 
        jurisdiction.''
  <bullet> Given the finite resources available to PILACI participants, 
        the value in leveraging existing relationships, funding, and 
        expertise is a shared priority to address needs in the FAS and 
        affected jurisdictions. To date there has been limited 
        investment by private foundations in Micronesia. This is an 
        area the Micronesian Chief Executives seek to explore further 
        to secure additional resources for the region. OIA will develop 
        a network of private and non-profit sector stakeholders 
        conducting health and education work in the Micronesia region 
        with the assistance of PILACI participants. Once the network is 
        established, OIA will work to provide a forum to facilitate 
        discussion with PILACI participants and the network to 
        strengthen existing partnerships and develop new joint 
        initiatives.

    The Department has supported and funded efforts by the FAS 
governments to provide educational materials to orient their citizens, 
prior to departing their country, about the challenges and 
responsibilities associated with residing in the United States. OIA is 
supportive of awarding additional technical assistance to fund FAS 
government grant proposals that create, update, or enhance education 
and orientation materials for their citizens.
    In addition to the joint undertakings previously mentioned, there 
are three ongoing OIA initiatives intended to reduce the effects of 
Micronesian migration on United States jurisdictions. First, in order 
to better educate and prepare citizens from the RMI traveling to the 
United States, OIA has awarded a technical assistance grant to develop 
an orientation pamphlet and video. These materials identify important 
documents that are necessary to live and work in the U.S., information 
about housing, employment, health care, education, U.S. law, and 
additional resources that can contribute to a better understanding of 
their rights and responsibilities while in the United States. The RMI 
has expressed interest in producing radio broadcasts of the orientation 
content to enhance the dissemination of such information.
    Second, OIA has engaged in discussions with the FAS Governments to 
establish a health screening process. The goal of this initiative is to 
ensure that FAS citizens receive medical attention they need prior to 
traveling and limit the spread of communicable diseases, such as drug 
resistant tuberculosis. This targeted effort will assist in reducing 
the burden of providing expensive medical care and may prevent 
unnecessary loss of life. Areas of continued discussion with FAS 
officials, OIA, and the Departments of Health and Human Services as 
well as Homeland Security include how to develop and implement such a 
health screening process how to ensure consistency with FAS statutes, 
and how to handle the associated costs.
    Third, OIA awarded the FSM Government a technical assistance grant 
to conduct a Household Income and Expenditure Survey (HEIS) that will 
provide data on the distribution of income, compile its national 
accounts, provide nutritional information and food consumption patterns 
for families, and conduct a poverty hardship assessment.
    The OIA has participated in discussions with HHS, health officials 
from Hawaii and Guam, and FSM and RMI leadership about the 
establishment of dialysis facilities. There remains a substantial cost 
involved with establishing, operating, and maintaining dialysis 
facilities. Challenges such as water quality, power reliability, 
limited presence of specialized medical professionals, and 
comprehensive projections for needs of existing and future patients 
were factors that would affect the size and cost of each facility. OIA 
is in the process of contracting for a feasibility and cost assessment 
for constructing dialysis facilities and necessary operation, resource, 
and staff requirements to support such facilities in the FSM and RMI.
    Question 31. The budget request proposes a large (70 percent) 
reduction in funding for the Maintenance Assistance Program. Does this 
reflect a decrease in the need for maintenance assistance in the 
territories?
    Answer. In 2012 and 2013, the Maintenance Assistance Program plans 
to continue funding immediate needs for maintenance in the insular 
areas. Although the maintenance assistance program has proven to be an 
effective method of institutionalizing better maintenance practices 
throughout the U.S.-affiliated islands, the Department was faced with 
difficult budgetary decisions in a challenging fiscal environment. The 
increase to Empowering Insular Communities to support the 
implementation of sustainable energy strategies offsets the decrease to 
the Maintenance Assistance Program.
    Question 32. The budget proposes $2.971 million for Empowering 
Insular Communities and identifies the two critical areas of focus as 
being lessening the impact of the Guam military buildup, and 
implementing sustainable energy strategies. Given that plans and 
priorities have been developed in these two critical areas, what is the 
purpose of the ``call letter'' and selection process as described on 
page 82 of the Green Book?
    Answer. The Department believes that consultation with the 
territories via a call letter is an important part of determining 
priorities. OIA plans to use the call letter process in future years. 
The Department believes that proposals for Empowering Insular 
Communities funding need to be reviewed through open and transparent 
criteria.
    Question 33. GAO and the DOI/OIG have reported on the need for OIA 
to improve grant monitoring. What is the current level of OIA's effort 
in this area and how would this proposed budget enhance that effort?
    Answer. OIA currently has 15 financial assistance managers to 
manage a budget of $561 million in 2012. In order to respond to the 
findings of GAO and the OIG, OIA has moved two policy employees in to 
the Budget and Grants Management Division to provide additional 
financial assistance oversight. By the end of 2012, the Office plans to 
have hired two more financial assistance managers to manage FSM and 
compact impact issues.
    Question 34. The OIA ``Green Book'' has a limited description 
regarding the CNMI Labor Ombudsman's Office. Accordingly, please have 
the CNMI Labor Ombudsman submit a brief report to the Committee 
describing:

          a. The type and number of cases being handled by the Office,
          b. The changes in the Office workload anticipated for the 
        coming year,
          c. A description of the issues that the Office has been 
        involved in related to implementation of P.L. 110-229, and the 
        status/outlook on resolution of these issues.

                  (If there are questions regarding this request, 
                please have the Ombudsman and other appropriate 
                officials contact the Committee staff at 224-7865 for 
                clarification).

    Answer a. Since its inception in May of 1999, the Ombudsman's 
office has assisted nearly 11,000 aliens in over 9,000 cases or 
complaints, the results of which have been awards of over $7 million 
during the thirteen-year period. Over the past three years since the 
position was filled in May of 2009 with the hiring of Pamela Brown 
Blackburn, the office has assisted nearly 4,000 aliens in close to 
3,000 cases or complaints. Neither of these numbers includes telephone 
or walk-in inquiries not requiring a full in-take into the Ombudsman 
data system.
    The office has handled much of the same types of cases over the 
past nearly 13 years of its existence. The law enforcement agencies to 
which aliens are referred for resolution of their cases/complaints have 
changed to include the various offices of the U.S. Department of 
Homeland Security, which only recently arrived in the CNMI. Referrals 
are still being made to the Federal Bureau of Investigations (FBI), 
U.S. Department of Labor, Wage & Hour Division, Equal Employment 
Commission, and CNMI Department of Labor, and when appropriate, CNMI 
Department of Public Safety.
    The vast majority of alien cases and complaints involve the 
assistance of this office with aliens' labor complaints, such as 
failure to pay wages for hours worked, improper termination, failure to 
provide repatriation benefits as required by CNMI law, failure to 
provide payment of medical expenses as required by CNMI law, and other 
similar complaints of failure of employers to honor contractual 
obligations or CNMI labor law requirements.
    Several labor complaints involved large numbers of workers 
complaining of an employer's failure to properly pay overtime wages for 
hours worked. These cases as always are referred to the U.S. Department 
of Labor, Wage & Hour Division. There has not been a marked increase in 
discrimination complaints but the steady flow of such complaints 
continues with the Ombudsman office working closely with the Equal 
Employment Commission to resolve these complaints expeditiously.
    In 2009, the Ombudsman's office experienced a drastic increase in 
the number of aliens reporting to the office complaining of trafficking 
and labor fraud. From May 2009 to present, the office has directly 
assisted 243 aliens with trafficking and labor fraud complaints. While 
the majority of those aliens seeking help were Chinese nationals, 15 
Indian nationals were also assisted.
    Many aliens reported having been brought to the CNMI in mid-2008; 
however, most arrived during 2009 with increasing numbers coming just 
prior to the effective date of P.L. 110-229. Regardless of when or from 
where they came, all told similar stories detailing the promises and 
benefits they would receive in the CNMI. Promises ranged from high-
paying jobs in resorts, construction companies or elegant restaurants 
once they completed a few months of English language classes. They were 
told that not only were these jobs waiting for them in the CNMI but 
that employers in Guam were also ready to hire them as soon as they 
completed such English training. The vast majority also reported the 
promise of Federal immigration status once they arrived in the CNMI and 
P.L. 110-229 became effective. All of these aliens were interviewed, 
questioned as to documentary evidence which could corroborate their 
claims, and whether any fee was paid either here or in their respective 
countries of origin. They all paid recruitment fees ranging from 
US$4,000 to US$50,000. Finally, the vast majority of the aliens had the 
return portion of their air-ticket cancelled upon arrival in the CNMI, 
effectively stranding them here.
    All were referred to the FBI since there were no DHS investigators 
on island at that time and operational during this period. It was later 
learned, however, that some of these victims were part of a DHS, 
Immigration and Customs Enforcement (ICE) investigation. Since ICE (now 
known as Homeland Security Investigations or HSI) became operational 
here in the CNMI, many of the victims are being referred to their 
agency for investigation and enforcement.
    Service providers are limited but the U.S. Department of Justice 
and Office of Insular Affairs have provided funds to the only shelter 
in the CNMI, Guma Esperansa, to assist these victims with food and 
shelter. Also, Micronesian Legal Services working in conjunction with 
this office and Guma Esperansa is filing for T and U visas for the 
victims on a case by case basis. All of the victims have agreed to 
cooperate with law enforcement investigations and have done so when 
asked.
    The number of aliens per year reporting to the Ombudsman office 
with trafficking and labor fraud complaints is: in 2009--153; in 2010--
71; in 2011--17, in the first 3 months of 2012--3. The above numbers 
include both severe forms of trafficking as well as trafficking and 
labor fraud. The same recruitment scheme is being reported by the vast 
majority.
    The other major addition to the caseload of the Ombudsman office 
since 2009 has been the increasing number of aliens and employers 
seeking assistance and clarification of P.L. 110-229.
    Answer b. Based on the number and types of complaint and cases 
encountered by the Office during the first quarter of 2012, it is not 
anticipated that the Office's workload will change from workloads of 
2010 and 2011. During these respective years, the number of aliens 
assisted was 1,748 and 901 respectively. The complaints did not change 
from those experienced by the Office during the 13 years of operation. 
The Office does, however, expect an increase in labor related 
complaints once aliens' Federal statuses are finally determined. It is 
suspected that a number of employers are paying aliens improperly or 
not at all during the past two years as well as not providing them with 
the benefits required under CNMI law, such as medical benefits. Years 
of experience working with aliens in the CNMI suggests that these 
matters are going unreported due to aliens' concerns for their Federal 
statuses.
    The office continues to see more aliens and employers seeking 
assistance with how to navigate the complex Federal immigration system 
under which the CNMI now operates. Many of these simply require having 
procedures explained. Those with more complicated situations are either 
referred to the fledgling CNMI immigration bar for assistance or 
assisted in filling out and submitting an appropriate form to the DHS 
agency tasked with handling such matters. Demand for translation and 
interpretation numbers are expected to increase as a result of the 
continuing transition to Federal immigration procedures. Currently, the 
major area of concern is the uncertainty surrounding the Federal 
immigration statuses available under P.L. 110-229 for aliens who were 
lawfully present in the CNMI on November 28, 2009. Once the system is 
fully functioning, the Office may see a decline in the number of aliens 
seeking clarification of this process. It is not expected that demand 
for other immigration matters will decline, however.
    Additionally, there will be an increase in the workload due to the 
expansion of the geographical region of responsibilities not only to 
the territory of Guam but also in correlation with the interagency 
focus on a Pacific regional approach to anti-trafficking in persons. 
The Ombudsman was recently named a member of the Advisory Board for a 
regional project funded through a grant from the U.S. Department of 
State to the National Association of District Attorneys. The project is 
a joint effort involving State, the Department of Justice, and the 
Department of the Interior to establish anti-trafficking operations 
within the freely associated states (FAS) of the Republic of Palau, 
Republic of the Marshall Islands and the Federated States of 
Micronesia. The project is also in consultation and coordination with 
the governments of the FAS.
    The election of the Ombudsman as the co-chair of the CNMI Human 
Trafficking Intervention Coalition along with the U.S. Attorney for the 
Districts of Guam and the Northern Mariana Islands is also expected to 
increase workload within the Office. The HTIC focus for 2012 is 
community outreach and education as well as expanding the pool of 
service providers within the CNMI. The Ombudsman is expecting to be 
involved in such an effort as part of her expanded duties in Guam.
    Answer c. The number one issue involving the implementation of P.L. 
110-229 was the late date of October 2011 for the publication of the 
final CW visa regulation. The implementation of P.L. 110-229 created a 
great deal of anxiety, uncertainty and associated rumors. The Office 
has been seeing a large number of aliens and employers seeking 
clarification of the immigration procedures, which appear to the lay 
person as a shifting set of rules and expectations. The numbers were 
more than 40 to 50 a day during 2009 and 2010 but began to dwindle 
until the final deadline of November 28, 2011. With the delayed 
publication of the final rule, the Office's workload greatly increased 
due to calls and appointments with employers seeking to understand what 
needed to be submitted to support the petition for CW workers and where 
it should all be sent in order to meet the deadline for submission.
    Further, after the filing of the CW petitions and the United States 
Citizenship and Immigration Services' (USCIS) decision to issue 
humanitarian parole status to certain classes of aliens, the Saipan 
Application Service Center was inundated with aliens and employers 
requesting status on their respective petitions and applications. Also, 
the increase in the number of biometric examinations required for the 
granting of each and every request for some type of status or benefit 
simply overwhelmed the operation. Walk-in aliens were suddenly being 
turned away and the info-pass system was unavailable for many months. 
During this period, the Office, again, provided clarification and 
assistance to aliens and employers alike in seeking updates to their 
status questions and answers to other immigration related matters.
    Most employers were unaware of which employment status could be or 
should be requested for alien employees. Therefore, despite several 
being qualified to begin seeking H1B or L1 federal employment status 
for their alien workers during the umbrella permit period from November 
28, 2009 to November 28, 2011, most waited to see the final CW rule to 
begin a process for an H1 or L1 visa that usually takes up to 7 days to 
get a labor condition application (LCA) from USDOL for an H-1B, and 
another 60 days to simply get the proper clearance from USCIS for an H-
1B or an L-1 visa petition. Most of these workers were, therefore, 
required to acquire a parole status and employment authorization (EAD) 
to continue employment in the CNMI. Many of these H and L petitions are 
still awaiting final adjudication from USCIS almost six months later. 
This translates into an alien needing to renew both the parole and EAD 
in order to remain in lawful status prior to final adjudication on the 
petition.
    The second major area of concern involved the employment status of 
aliens for whom an employer submitted a petition. Many parolees were 
only given parole status until January 31, 2012 due to USCIS' 
expectation that CW petitions would be expeditiously processed and 
granted by that date. Out of 11,000 petitions, very few CW visas were 
issued by early April 2012. Petitioners seeking CW, H, and L visas 
suffer severe anxiety as they strive to maintain a lawful presence in 
the CNMI during an elongated petition period, which was unanticipated.
    The Office discusses these issues regularly with the appropriate 
USCIS officials and disseminates the appropriate response within the 
community but each time an EAD must be renewed, it costs the alien or 
the employer $380. This is placing a heavy fiscal burden on alien 
workers who typically earn $5.15 per hour.
    The Ombudsman is told that more adjudicators are being temporarily 
assigned to the California Service Center where all CW petitions are 
processed. She further successfully resolved the issue of having all 
parole requests and EADs for pending petitions adjudicated in Guam and 
not through the normal procedures of sending such requests to Chicago. 
USCIS expects to see most of the back log cleared within the next few 
months.
    The third issue regarding implementation of P.L. 110-229 that 
required the Ombudsman's attention was the lack of regulations for 
issuance of visas for CW and E2C investors once they received their 
respective Federal immigration status. In response to my inquiry 
regarding two of the first aliens issued E-2C status who had been 
awaiting visa issuance in Seoul, Korea for over 6 months, State sent 
the following explanation:

                  While the publishing of guidance for consular 
                officers adjudicating E-2C and CW visa initially 
                delayed by the interagency clearance process, the 
                guidance was published in 9 FAM 41.34 on December 27th. 
                On January 10, the ALDAC announcing the established 
                reciprocity arrangement for these visa classifications 
                was distributed worldwide. With those publications, 
                posts have the resources necessary to begin issuing E-
                2C and CW visas (and our embassies in Malaysia and 
                Japan have already begun doing so). Please advise 
                individuals who require an E-2C or CW visa to contact 
                the U.S. Embassy or consulate where they intend to 
                apply for their visa. While this message was 
                encouraging, many aliens possessing CW status were 
                still experiencing delays in the issuance of visas and 
                being told by embassy and consulate staff that they 
                were awaiting guidance in order to adjudicate such 
                requests.

    Finally, with the implementation of P.L. 110-229 came the 
application of other Federal laws such as the Title VII of the Civil 
Rights Act of 1964 which prohibits national origin discrimination in 
all aspects of employment, such as hiring, firing, promotion, wages, 
and retaliation. It covers employers with 15 or more employees, and is 
enforced by the Equal Employment Opportunity Commission (EEOC). In 
addition, the Immigration Reform and Control Act of 1986 (IRCA) makes 
it illegal for an employer to discriminate against a person because of 
that person's citizenship or immigration status when it comes to 
hiring, firing, or referral. It also supplements Title VII prohibitions 
against national origin discrimination, covering employers with four to 
14 employees. The IRCA also prohibits retaliation. At present, the 
Ombudsman is in discussions with the Office of Special Counsel for 
Immigration-Related Unfair Employment Practices at the United States 
Department of Justice (DOJ), which enforces the IRCA's 
nondiscrimination requirements, regarding establishment of the 
Ombudsman's office as the outreach and educational office for its 
mission. Such a relationship already exists between the Ombudsman 
office and the EEOC, and has since 1999.
    When and if such an arrangement is implemented, then it is expected 
that additional workload will result. There is, however, DOJ grant 
money available to fund such an operation by the Ombudsman.
    Question 35. I understand that the responsibilities of the CNMI 
Labor Ombudsman have been expanded to include Guam. If this is correct, 
would you please describe these new responsibilities and how they will 
affect the Ombudsman Office budget?
    Answer. In light of the relocation of several thousand military 
personnel to Guam and anticipated need for an increase of H-2B workers 
to accommodate the associated infrastructure development, the Office of 
Insular Affairs (OIA) recognized the potential for an increase of the 
types of abuse of alien workers experienced in the CNMI. As such, the 
Assistant Secretary for Insular Areas expanded the geographic area of 
responsibility for the Ombudsman to Guam. OIA determined that having 
the Ombudsman operational prior to the introduction of a large number 
of H-2B workers would be advantageous. During the course of the last 
ten months, the Ombudsman has travelled to Guam to develop 
relationships with Federal and local government officials as well as 
with the alien communities in an effort to understand the community and 
the unique issues facing Guam. She has already formed strong ties with 
the U.S. Attorney, FBI, USCIS, Guam Attorney General, Guam Department 
of Public Safety, Guam Department of Labor, and many in the faith-based 
community as well as with consulates located on the island.
    Temporary office space was secured in the U.S. Attorney's office in 
Hagatna, Guam, with the Ombudsman having full access to the building 
once she received the appropriate security clearance. The majority of 
these trips have been day trips with only occasional overnight travel. 
So far, costs have been kept to a minimum. Once the office is fully 
established and operational with its own office space, it is 
anticipated that the Ombudsman will make weekly trips to Guam to 
provide assistance to aliens as she does in the CNMI at present. This 
includes assistance with labor abuses, immigration abuses, trafficking 
and other criminal matters.
   Responses of Secretary Ken Salazar to Questions From Senator Wyden
                      western oregon timber sales
    Question 1. I appreciate the leadership that you personally have 
taken in advancing pilot projects on the BLM forestlands in western 
Oregon and am glad you recently had a chance to tour these projects. I 
similarly appreciate the proposed increase in the budget of $1.5 
million towards western Oregon forest management programs. Following up 
on my question and your answer at the hearing, you highlighted the 
pilot projects and I appreciate that these are moving forward and five 
more projects are being planned. However, I continue to have concerns 
about the overall lack of timber volume coming from the BLM lands in 
western Oregon, particularly in southwest Oregon. While in 2010 the 
agency came close to meeting the target of 230 million board feet laid 
out in your 2009 announcement, it fell well short in 2011. In fact, in 
Fiscal Year 2011 the BLM only awarded 137 mmbf in western Oregon and 
6.3 mmbf in the Medford District. While the pilot projects are moving 
forward, my understanding is that part of the shortfall is because 
other timber sale projects have been protested. As a result, they 
simply have not moved forward and the expected timber volume never gets 
to the mills that desperately need the timber. Mr. Secretary, what is 
the BLM doing to resolve the protests on these projects and this year's 
program so this timber can be made available to local mills? Is the 
proposed budget increase intended in any way to help with this issue 
and juggling the other forestry tasks the agency is undertaking, such 
as the new pilots and revised plans?
    Answer. The BLM is working to make timber sales available and has 
prioritized resolving protest and appeals in the Medford district. In 
FY 2012, the BLM plans to offer the program target volume of 193 mmbf 
of timber for sale; the Roseburg target is 28 mmbf and the Medford 
target is 19 mmbf. The BLM also plans to reoffer additional volume from 
eight more contracts that were mutually cancelled. The increase in the 
program volume target from 190 mmbf to 193 mmbf corresponds with a 
budget increase of $527,000 in the O&C forest management program in the 
FY2012 Budget.
    The proposed increase of $1.5 million towards western Oregon forest 
management programs in the Fiscal Year 2013 budget proposal is intended 
to increase western Oregon's offered volume from the Fiscal Year 2012 
target of 193 MMBF, to a Fiscal Year 2013 target or 197 MMBF, or an 
increase of 4 MMBF.
    The BLM Districts in western Oregon, and the Medford District in 
particular, are working diligently to resolve administrative protests. 
This includes exploring protest resolution through informal agreement 
with timber sale purchasers and conservation organizations, as well as 
issuing protest decisions. Protesting organizations can subsequently 
appeal BLM's protest decision to the Department of the Interior Board 
of Land Appeals (IBLA), triggering a second phase in administrative 
remedy and response. The BLM's Medford District has issued several 
protest decisions since the BLM provided a briefing for your staff on 
this topic in December of 2011. Some of the 2010 and 2011 protest 
decisions have been appealed to the IBLA, creating a respective 
workload. One 2010 timber sale decision was appealed to the IBLA and 
has subsequently been challenged in court (pending decisions in IBLA 
and District Court jurisdictions).
                        water resources/research
    Question 2. The U.S. Geological Survey (USGS) budget zeroes out 
$6.5 million in Water Resources Research Act programs. In my state, 
Oregon State University has fostered important water resources research 
and understanding over the past 50 years. It, and other land grant 
universities across the nation, use the funds primarily for important 
student research opportunities. The USGS budget justification touts the 
value of this research saying, ``[w]ater resources research, 
information, and monitoring activities support the USGS Science 
Strategy to provide scientific information on the water availability 
and quality of the United States in order to inform the public and 
decisionmakers about the status of freshwater resources and how they 
are changing.'' I'm concerned that even though the USGS budget request 
is a $ 34.5 million increase over the 2012 enacted level, federal 
contributions to state water quality research is left by the wayside. 
Q: Can you explain why the Department is turning away from its 
partnership with the states after 27 years since the Water Resources 
Research Act passed? What message does this send to the state water 
resources research institutions and the students who are learning to 
tackle the many water issues we face?
    Answer. The Water Resources Research Institutes (WRRIs), located at 
54 land-grant universities across the Nation, use their 2:1 (non-
Federal to Federal) matching grants to support over 250 research and 
technology transfer projects annually. These projects are developed in 
response to priorities set by the institutes' individual State Advisory 
Committees and address a wide variety of water resources issue and 
problems. The research projects provide support and training to over 
700 students nationwide each year, contributing to the development of 
the next generation of water resources scientists, engineers, and 
technicians. The Water Institutes' program is described at http://
water.usgs.gov/wrri/.
    Federal funding for WRRIs is often highly leveraged by multiple 
sources of State and local funding. With diverse sources of funding and 
stakeholder involvement in WRRI decision-making, the priorities of 
individual Institutes are not solely driven by the Federal government. 
As a result, their priorities have not always been aligned with the 
national priorities of the USGS water programs. This is not a comment 
on the overall excellence or quality of the Institutes, which produce 
research products and students that can directly benefit the USGS 
mission. The USGS is currently evaluating different ways in which the 
work of the Institutes can become more aligned with National 
priorities, while retaining a local focus.
    Though the USGS recognizes and appreciates the contributions of the 
Institutes, in a time of severe fiscal constraints, tough decisions 
were made in the formulation of the 2013 budget to meet the science 
needs of the Nation as a whole. The 2013 budget reflects efforts to 
balance USGS research, assessment, and monitoring activities to ensure 
the USGS's continued ability to address a broad array of natural 
resources and natural science issues that face the Nation. The budget 
supports a continued legacy of world-class science to support decision-
making.
              county payments proposal--o&c lands funding
    Question 3. I am pleased that the President's budget includes a 
funding proposal to reauthorize the county payments program and that it 
specifically funds it as mandatory spending. But, I am again 
disappointed that--like in last year's proposal--the Bureau of Land 
Management provides no funding for its portion of this critical program 
and that steep cuts to the program are again being proposed. Under the 
recently expired county payments program, the BLM payments are a 
significant portion of what the O&C counties receive from the county 
payments program. However, in this budget request, there is no 
recognition that this portion of the program for the BLM's lands is 
BLM's responsibility. Rather, BLM's role in providing county payments 
to the O&C counties has been handed over to the Forest Service. I asked 
you about this issue last year, and raised it in subsequent discussions 
with the Agency, but was never able to get an explanation as to why it 
makes any sense for the BLM to hand over responsibility for these 
payments to another agency. Mr. Secretary why is the BLM handing over 
responsibility for providing funding to these counties to another 
agency? Can you explain to me what portion of the proposed county 
payments program funding will consist of the O&C payments, how the 
allocation of funding for Forest Service and BLM lands will be made and 
whether the Interior Department will be providing any funding for the 
program?
    Answer. Sec. 601 of P.L. 110-343, the Secure Rural Schools and 
Community Self-Determination Program, authorized an extension and 
ramping down of payments to the counties through fiscal year 2011. The 
final, mandatory payments by Sec. 601 were previously authorized, and 
final Secure Rural Schools program payments were made in October 2011.
    The Budget reflects a five-year reauthorization, starting in 
FY2012, of the Secure Rural Schools Act with funding through mandatory 
U.S. Forest Service appropriations. This includes Secure Rural Schools 
payments to western Oregon counties. This SRS proposal revises the 
allocation split between the three portions of the program from the 
current authority emphasizing enhancement of forest ecosystems, 
restoration and improvement of land health and water quality and the 
increase of economic activity. The FY 2013 payment is proposed for $294 
million.
    Upon expiration of PL 110-343, the BLM's authority to make payments 
for FY 2012 to the O&C grant lands and CBWR counties is limited to the 
Oregon and California Grant Lands Act of 1937 and the Act of May 24, 
1939. For any of the 18 counties in Western Oregon choosing not to 
receive payments for 2012 (in 2013) under the reauthorization proposal 
discussed above, the payments would revert back to payments under the 
1937 O&C Act and subsequent amendments. The 1937 statute authorizes 
payments of 50 percent of Federal receipts from activities on O&C grant 
lands. In the case of Coos and Douglas Counties, if they were to choose 
not to receive payments for 2012 (in 2013) under the proposal, the 1939 
statute authorizes payments for lost tax revenue not to exceed 75 
percent of the receipts from activities on Coos Bay Wagon Road grant 
lands. For payments for 2011 (received in 2012), this totaled 
approximately $40 million.
 Responses of Secretary Ken Salazar to Questions From Senator Cantwell
       ``fundamental transformation'' of the oil and gas industry
    Mr. Secretary, in addition to calling for sorely-needed 
improvements in government oversight and regulation, the National 
Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling 
report focused a great deal on the need for a transformation within the 
oil and gas industry itself. The report stated:

                  Government oversight must be accompanied by the oil 
                and gas industry's internal reinvention: sweeping 
                reforms that accomplish no less than a fundamental 
                transformation of its safety culture.

    Question 1a. What are the top three big, tangible steps the 
industry needs to take to show the American public that they mean 
business about achieving the `sweeping reforms' the Commission is 
calling for?
    Answer. It is in our country's interest to have a robust offshore 
oil and gas industry, one that carries out both safe and responsible 
operations on the OCS. The Department has been working hard since the 
Deepwater Horizon explosion and spill to bring this to fruition.
    In this regard, it is important that a new culture of safety 
emerges throughout the industry, strong enough to overcome ingrained 
practices. This new safety culture should reflect the Bureau of Safety 
and Environmental Enforcement's credo of ``Safety at all levels, at all 
times.'' Additionally, industry must establish a record of safety for 
offshore oil and gas operations under today's more stringent regulatory 
regime by demonstrating compliance with all offshore safety rules and 
regulations. And finally, it is important that industry demonstrate a 
record of commitment to continuous improvement and innovation regarding 
operational and workplace safety.
    Question 1b. If the oil and gas industry falls short of the 
fundamental transformation you are calling for today, do you believe 
the industry has the right to ask for the trust of the American people 
in the future?
    Answer. It is important that industry demonstrate a commitment to 
this culture of safety and compliance following the Deepwater Horizon 
explosion and spill, and falling short of these expectations will 
likely jeopardize the public's trust.
    Question 1c. What reform has been implemented at DOI to ensure 
better oversight of the industry? Please give specific examples of 
changes made to programs, staff changes, expertise, and permitting.
    Answer. In the time since the Deepwater Horizon oil spill in the 
Gulf of Mexico, the Department has launched the most aggressive and 
comprehensive reforms to offshore oil and gas regulation and oversight 
in U.S. history, including:

  <bullet> Implementation of strong new safety rules that raise 
        standards for everything from drilling equipment and well 
        design to casing and cementing; a requirement that companies 
        establish comprehensive risk management programs; a requirement 
        that operators demonstrate the capability to deal with a 
        catastrophic blowout; limiting the use of categorical 
        exclusions so that proposed lease sales and drilling projects 
        go through rigorous environmental reviews under the National 
        Environmental Policy Act (NEPA); and requiring companies 
        certify that their rigs comply with safety and environmental 
        laws and regulations;
  <bullet> Dissolution of the Minerals Management Service, with the 
        transfer of minerals revenue management to a newly-established 
        Office of Natural Resources Revenue in the Office of the 
        Secretary and the creation of two separate bureaus--the Bureau 
        of Ocean Energy Management and Bureau of Safety and 
        Environmental Enforcement--to handle the leasing and safety 
        oversight functions of the former MMS;
  <bullet> Development and implementation of regulations and guidance 
        to operators responsive to the recommendations of the DOI 
        Safety Oversight Board, the National Academy of Engineering, 
        and the National Commission on the BP Deepwater Horizon Oil 
        Spill;
  <bullet> Completion of a review of ethics issues related to the 
        Department's management of the OCS program, and creation of the 
        Investigations and Review Unit;
  <bullet> Implementation of a recruitment strategy to expand the field 
        of inspectors and engineers in the offshore program; and
  <bullet> Establishment of the Ocean Energy Safety Advisory Committee 
        to advise the Department on issues related to offshore energy 
        safety, including drilling and workplace safety, well 
        intervention and containment, and oil spill response.

    Within BSEE, which is tasked with providing safety and 
environmental oversight of offshore oil and gas operations on the OCS, 
we have increased the number of inspectors by 50 percent since April 
2010, and the number of engineers, who also perform critical safety 
functions, by nearly 10 percent. With regard to permitting, BSEE has 
held permit processing workshops for industry, which has improved the 
quality and thoroughness of applications; published a permit 
application completeness checklist to make it clear to industry what 
information is required and to reduce the frequency of incomplete 
applications; established priorities for reviewing permit applications; 
and allowed authorized users of our online permit application system to 
track the status of their applications, answering the call for greater 
transparency in our permitting process. As a result of these steps, and 
the industry's increasing familiarity with the process, permit review 
times have decreased significantly in the past year.
    Question 1d. What legislative action, if any, does DOI need to 
oversee the industry better?
    Answer. In testimony before the Senate Energy and Natural Resources 
Committee on May 17, 2011, the Secretary announced a series of 
legislative principles intended provide a framework for the efficient 
and responsible development of our domestic resources. In the realm of 
enhanced oversight, these principles include:

  <bullet> Codifying new safety and environmental standards for 
        offshore oil and gas development that have been established 
        through administrative procedures by the Bureau of Safety and 
        Environmental Enforcement and the Bureau of Ocean Energy 
        Management.
  <bullet> Statutorily extending exploration plan approval time under 
        the Outer Continental Shelf Lands Act to allow for appropriate 
        environmental review.
  <bullet> Formalizing existing research collaboration by authorizing 
        an Ocean Energy Safety Institute to connect government, 
        industry, academia, and outside experts devoted to developing 
        cutting-edge safety, containment, and response capabilities.
  <bullet> Formalizing the reorganization of the Bureau of Ocean Energy 
        Management, Regulation and Enforcement by adopting organic 
        legislation for: (1) the Bureau of Ocean Energy Management; (2) 
        the Bureau of Safety and Environmental Enforcement; and (3) the 
        Office of Natural Resource Revenue.
  <bullet> Provide special hiring authorities for BOEM and BSEE that 
        allow those bureaus to hire personnel for critical positions 
        during times of need at competitive salaries.

    In addition, the Department proposed the following legislative 
proposals in its FY 2013 Budget Request that will improve oversight or 
ensure a fair return to the public for development of their resources:

          New Fee for Onshore Oil and Gas Inspections.--Through 
        appropriations language, the Administration proposes to 
        implement an inspection fee in 2013 for onshore oil and gas 
        drilling activities that are subject to inspection by BLM. The 
        proposed inspection fee is expected to generate an estimated 
        $48.0 million in 2013, $10.0 million more than the 
        corresponding $38.0 million reduction in requested BLM 
        appropriations, thereby expanding the capacity of BLM's oil and 
        gas inspection program. The fee would support Federal efforts 
        to increase production accountability, human safety, and 
        environmental protection.
          Onshore Oil and Gas Drilling Permit Fee.--The 2013 budget 
        proposes to continue a fee for processing drilling permits 
        through appropriations language, an approach taken by Congress 
        in the Interior Apppropriations Acts. A fee of $6,500 per 
        drilling permit was authorized in 2010, and if continued, would 
        generate an estimated $32.5 million in offsetting collections 
        in 2013.
          Repeal of Deep Gas Incentives.--The Administration proposes 
        to repeal Section 344 of the Energy Policy Act of 2005. Section 
        344 mandated royalty incentives for certain ``deep gas'' 
        production on the OCS. This change will help ensure that 
        Americans receive fair value for federally owned mineral 
        resources. Based on current oil and gas price projections, the 
        budget does not assume savings from this change; however, the 
        proposal could generate savings to the Treasury if future 
        natural gas prices end up below current projections.
          Fee on Non-Producing Oil and Gas Leases.--The Administration 
        proposes to encourage energy production on lands and waters 
        leased for development. A $4.00 per acre fee on non-producing 
        Federal leases would provide a financial incentive for oil and 
        gas companies to either get their leases into production or 
        relinquish them so that the tracts can be leased to and 
        developed by other parties. The proposed fee would apply to all 
        new leases onshore and offshore and would be indexed annually. 
        In October 2008, the Government Accountability Office issued a 
        report critical of past efforts by Interior to ensure that 
        companies diligently develop their Federal leases. Although the 
        report focused on administrative actions that the Department 
        could undertake, this proposal requires legislative action. 
        This proposal is similar to other non-producing fee proposals 
        considered by the Congress in the last several years. The fee 
        is projected to generate revenues to the U.S. Treasury of $13.0 
        million in 2013 and $783.0 million over ten years.
          Net Receipts Sharing for Energy Minerals.--The Administration 
        proposes to make permanent the current arrangement for sharing 
        the cost to administer energy and minerals receipts, beginning 
        in 2014. Under current law, States receiving significant 
        payments from mineral revenue development on Federal lands also 
        share in the costs of administering the Federal mineral leases 
        from which the revenue is generated. In 2013, this net receipts 
        sharing deduction from mineral revenue payments to States would 
        be implemented as an offset to the Interior Appropriations Act, 
        consistent with identical provisions included in the Act since 
        2008. Permanent implementation of net receipts sharing is 
        expected to result in savings of $44.0 million in 2014 and 
        $449.0 million over ten years.

                    arctic oil spill recovery plans
    Mr. Secretary, the United States plans to open the North Slope to 
exploratory drilling during the Summer of 2012. The Coast Guard and 
others have testified to Congress that we do not have the technology 
required to clean up oil in ice conditions.
    Question 2a. Has DOI identified methods to clean up oil in ice 
conditions? If not, what clean up procedures have been submitted by the 
proposed resource users, and why does DOI think that they are or are 
not sufficient?
    Answer. The Department is aware of a large amount of research that 
has been done on the cleanup of oil in ice conditions. Research has 
been ongoing for decades, most recently through the Joint Industry 
Program on Oil Spill Response for Arctic and Ice-covered Waters (``JIP 
Oil in Ice'') launched in 2006 by the independent Scandinavian research 
organization SINTEF in conjunction with industry and academic partners. 
Field tests with oil released into icy Arctic waters were conducted in 
2008 and 2009, with experiments conducted on mechanical recovery 
equipment, in-situ burning, dispersants, remote sensing, oil 
weathering, and more. These experiments showed that a number of 
response strategies could be employed in icy waters. In January of this 
year, the International Association of Oil & Gas Producers announced 
that it is launching a new JIP Oil in Ice program, which will consist 
of additional field tests of oil removal in ice conditions. A summary 
of the current state of knowledge in this field is available in Chapter 
5 of the USGS' An Evaluation of the Science Needs to Inform Decisions 
on Outer Continental Shelf Energy Development in the Chukchi and 
Beaufort Seas, Alaska.
    Question 2b. The Arctic is lacking coastal infrastructure that was 
essential in the Deep Water Horizon Oil Spill cleanup. For example, 
cleanup efforts relied on local fishing boats, docks, hotels, 
outfitters and other services to fuel the cleanup effort. What is the 
plan for the Arctic? Is there a plan? Are there response plans 
currently in place that are inaccurate and have unrealistic 
assumptions?
    Answer. BSEE conducted a thorough and critical review of the oil 
spill response plans submitted by Shell in conjunction with its planned 
exploration activities in the Beaufort and Chukchi Seas during the 
summer of 2012. Shell was required to make clear how they would 
mobilize and sustain a massive response over an extended period of 
time. Shell plans to stage a full suite of response assets near the 
offshore drill site for immediate response, while also having 
additional equipment available for quick delivery in the event that 
sustained spill response is necessary.
    BSEE's approval followed months of comprehensive internal, public, 
and interagency review, including involvement of the Interagency 
Working Group on Coordination of Domestic Energy Development and 
Permitting in Alaska, chaired by Department of the Interior Deputy 
Secretary David J. Hayes. More information on the federal government's 
preparedness and response coordination efforts is available at: http://
www.bsee.gov/BSEE-Newsroom/BSEE-Fact-Sheet/Arctic-Fact-Sheet.aspx.
             independent certification of drilling systems
    Mr. Secretary, the U.S. Coast Guard has a fairly good model for a 
regulatory working relationship between vessel owners and independent 
classification societies like the American Bureau of Shipping (ABS). 
ABS and other classification societies use their technical and 
engineering expertise to help the government ensure that ships meet the 
stringent requirements to be considered safe and seaworthy.
    Question 3a. What is BOEM doing to ensure that regular third-party 
audits occur at three-to five-year intervals and certification of 
drilling systems?
    Answer. Safety certification of drilling systems is part of an 
operator's Safety and Environmental Management System (SEMS). 30 CFR 
250, subpart S, defines the regulations regarding SEMS. Specifically, 
30 CFR 250.1920(a) states:

          (a) You must have your SEMS program audited by either an 
        independent third-party or your designated and qualified 
        personnel according to the requirements of this subpart and API 
        RP 75, Section 12 (as incorporated by reference in 30 CFR 
        250.198) within 2 years of the initial implementation of the 
        SEMS program and at least once every 3 years thereafter. The 
        audit must be a comprehensive audit of all thirteen elements of 
        your SEMS program to evaluate compliance with the requirements 
        of this subpart and API RP 75 to identify areas in which safety 
        and environmental performance needs to be improved.

    If non-compliance resulting from an inspection or BSEE-directed 
audit poses actual harm or threat to the human and marine environment, 
BSEE will proceed with a civil penalty review of that violation(s) 
subject to 30 CFR part 250, subpart N--Outer Continental Shelf Civil 
Penalties. Should non-compliance with subpart S display serious and 
pervasive safety management concerns, BSEE may restrict or revoke the 
operator's privilege to operate on the OCS as a designated operator or 
lessee operator through probationary or disqualification actions as 
detailed in 30 CFR 250.135.
    While BSEE currently allows the audit to be performed by an 
operator's designated and qualified personnel as set forth in 30 CFR 
250.1926, the agency proposes to remove this option from the existing 
regulation. The new requirement would instruct the operator to use an 
approved independent third party auditor to perform the audit.
    Question 3b. What effect does the current lack of independent 
third-party certification have on the overall safety culture?
    Answer. As outlined in the response above, BSEE does not feel there 
is an overall lack of independent third-party certification. Subpart S 
requires the operator (a lessee, the owner or holder of operating 
rights, or the designated operator) to integrate a comprehensive SEMS 
program into the management of their OCS operations.
    Question 3c. The American Bureau of Shipping (ABS) and other 
classification societies have the expertise to ``class'' sub-sea 
drilling systems, and already do so when companies opt to do this 
voluntarily in the U.S. Is there a possible role for classification 
societies to act as an independent third-party certifier as recommended 
in the National Commission on the BP Deepwater Horizon Oil Spill and 
Offshore Drilling report?
    Answer. As BSEE continues to improve, enhance, and enforce offshore 
oil and gas safety requirements, it is identifying best-practices, 
standards, and third-party organizations which may be used where 
appropriate.
                            r.s. 2477 claims
    Mr. Secretary, Revised Statute 2477 (R.S. 2477) was enacted by 
Congress in the 1866 Mining Law to provide ``the right of way for the 
construction of highways across public lands, not reserved for public 
uses.'' While Congress repealed the law in 1976 as part of the Federal 
Land Policy and Management Act (FLPMA), existing R.S. 2477 rights were 
grandfathered. The state of Utah has recently filed a notice of intent 
to sue the DOI to gain title to over 18,000 rights of way. The vast 
quantity of these claims causes me to question whether all of them are 
valid. I understand that thousands of these claims may have never even 
been constructed or maintained. I urge you and the DOI to evaluate 
these claims carefully and vigorously defend against any invalid claims 
in Utah--and across the country.
    Question 4a. How will DOI determine how these R.S. 2477 claims 
would impact existing and proposed conservation designations? How would 
they affect your conservation goals and achievements?
    Answer. The Department is still in the early stages of this matter, 
and we are beginning to gather the kind of information that will inform 
questions such as this. In general, once a suit to quiet title on an 
R.S. 2477 claim is filed BLM will, among other things, carry out an 
analysis of the resources that could potentially be impacted by 
designation of such a right-of-way. If an alternative resolution cannot 
be found, all parties agree that adjudication of these lawsuits will be 
time consuming and costly. Depending on the nature and scope of the 
right-of-way and the designation or resources at issue, if a county 
successfully proves R.S. 2477 claims in or near existing and proposed 
conservation designations, historic sites, or other areas managed by 
BLM to protect sensitive resources, BLM's ability to implement 
protective management could be impacted.
    Question 4b. How would the recognition of these claims affect DOI's 
ability to manage federal public lands? Would they affect the 
effectiveness of law enforcement or the protection of archaeological 
sites?
    Answer. The BLM will take any RS 2477 claims traversing the public 
lands that are recognized by a court into account when it manages the 
public lands. The BLM retains the power to reasonably regulate such 
rights-of-way. The BLM reviews travel impacts to archeological 
resources on a case-by-case basis. As appropriate, the BLM protects 
archeological resources from damage by exercising its statutory and 
legal authorities, and by entering into agreements with neighboring 
land managers.
    Question 4c. Some of the state of Utah's claims lie in BLM 
wilderness areas as designated in the Cedar Mountains Wilderness Act 
and the Washington County Wilderness Act. How will you manage 
congressionally designated wilderness areas in relation to R.S. 2477 
claims?
    Answer. The BLM will comply with Wilderness Act and Congressional 
direction regarding the management of designated Wilderness Areas. The 
BLM's ability to manage areas to preserve wilderness character could be 
impacted if the county and state are successful in proving R.S. 2477 
claims in wilderness. Validity of an R.S. 2477 claim is ultimately left 
to the determination of a court of competent jurisdiction. Holders of 
valid R.S. 2477 rights-of-way may complete some maintenance and 
improvement activities on recognized rights-of-ways after consultation 
with the BLM, but are not entitled to engage in new road construction 
without obtaining a Title V permit under the Federal Land Policy and 
Management Act from the BLM. The BLM will not issue such a permit in a 
Wilderness Area.
                land and water conservation fund (lwcf)
    Mr. Secretary, LWCF not only helps families get outdoors and lead 
healthier lives, it also protects watersheds and drinking water for our 
communities and boosts our local and state economies. Each year over 
2.7 million people enjoy hunting, fishing and wildlife watching in 
Washington State, and according to the Outdoor Industry Foundation, the 
outdoor recreation economy contributes more than $11.7 billion and 
supports 115,000 jobs annually. Cuts to LWCF undermine the real 
economic asset that our federal, state and local public lands provide.
    Since the program was created, LWCF has invested over $500 million 
in Washington State. This year, we have nationally ranked, ready-to-go 
LWCF projects, such as those for the Pacific Crest Trail, Nisqually 
National Wildlife Refuge, and Mt. Rainier National Park. Funding cuts 
to LWCF would mean that these and many other important recreation and 
conservation projects cannot be completed.
    Question 5a. Do believe that LWCF should be fully funded? Could you 
please explain why the budget request is half of that amount?
    Answer. The Administration remains committed to funding LWCF 
programs, which helps preserve, develop, and assure access to outdoor 
recreation resources; provide clean water; preserve wildlife habitat; 
enhance scenic vistas; protect archeological and historical sites; and 
maintain the pristine nature of wilderness through Federal land 
acquisition and grants.
    Question 5b. Are you aware of any other avenues that could mitigate 
this insufficient funding level of LWCF? Under this budget request, how 
do propose to protect the jobs and economic opportunities associated 
with LWCF projects?
    Answer. Conserving large landscapes requires collaboration among 
all stakeholders, including private landowners, conservation and 
recreation groups, and local, State, tribal, and Federal governments. 
In FY 2013, the budget proposes $60.0 million for grants to states, a 
programmatic increase of $14.9 million over the FY 2012 enacted level. 
This increase will provide an economic impact and support jobs in local 
communities across the country.
 Responses of Secretary Ken Salazar to Questions From Senator Murkowski
                              oil and gas
Pre-approval
    Question 1. The leaked draft of BLM regulations on hydraulic 
fracturing refers to a new requirement for ``pre-approval'' of well 
stimulation operations. What is the technical basis on which such 
approval will be given or withheld by the agency?

          a. Is it common for operators to make adjustments to well 
        stimulation fluid during the process of drilling and completing 
        a well? As a practical matter, is this something that can be 
        done 30 days in advance with no changes?
          b. Do you agree that because of the level of detail and 
        specificity required by BLM's proposed regulations, an operator 
        that changes its fluid formulation could be forced into a 
        situation where it must stop and resubmit a new proposal to the 
        agency?

    Answer. Information collected by the BLM and used for pre-approval 
of hydraulic fracturing operations is needed for a variety of reasons 
so that the BLM may determine the parameters of the well stimulation 
operation; verify that the operator has taken the necessary precautions 
to prevent migration of fluids in to the usable water horizons; ensure 
that the facilities needed to process or contain the estimated volume 
of fluid will be available on location; and ensure the methods used 
will adequately protect public health, safety and the environment.
    It is common for operators to make adjustments to well stimulation 
fluid during the process of drilling and completing a well, and this is 
not something that, as a practical matter, can be done 30 days in 
advance with no changes. Moreover, we do not agree that the level of 
detail and specificity required by BLM's proposed regulations would 
force an operator to stop activities and resubmit a new proposal to the 
agency because, within 30 days after completion of well stimulation 
operations, operators would submit a Subsequent Report Sundry Notice on 
Form 3160-5 (Sundry Notices and Report on Wells). The information 
included in such a report will allow BLM to:

          1) Document and assure that stimulation fluids are going into 
        the formation for which they were designed;
          2) Document and assure that stimulation fluids remain 
        confined to the petroleum-bearing rock layers;
          3) Confirm that the disposal methods used are those that were 
        approved and conform to the regulations and;
          4) Obtain reasonable assurance that other resources are 
        adequately protected.

Tribal Consultations
    Question 2. Mr. Secretary, can you describe the process by which 
you have consulted the Tribes on these draft regulations?

          a. What feedback have you received from these consultations?

    Answer. Tribal consultation is a critical part of this effort, and 
the Department is committed to making sure tribal leaders play a 
significant role as we work together to develop resources on public and 
Indian lands in a safe and responsible way. The BLM has initiated 
government-to-government consultation with tribes on this proposal and 
has offered to hold follow-up consultation meetings with any tribe that 
desires to have an individual meeting. The BLM held four tribal 
consultation meetings, to which over 175 tribal entities were invited. 
These initial consultations were held in Tulsa, Oklahoma on January 10, 
2012; in Billings, Montana on January 12, 2012; in Salt Lake City, Utah 
on January 17, 2012; and in Farmington, New Mexico on January 19, 2012. 
Eighty-four tribal members representing 24 tribes attended the 
meetings. Attending for the BLM were both senior policy makers from the 
Washington Office as well as the local line officers that have built 
relationships with the tribes in the field.In these sessions tribal 
representatives were given a draft of the hydraulic fracturing rule to 
serve as a basis for discussion and substantive dialogue about the 
hydraulic fracturing rulemaking process. The BLM asked the tribal 
leaders for their views on how a hydraulic fracturing rule proposal 
might affect Indian activities, practices, or beliefs if it were to be 
applied to particular locations on Indian and public lands. A variety 
of issues were discussed, including applicability of tribal laws, 
validating water sources, inspection and enforcement, wellbore 
integrity, and water management, among others.
    At the request of various tribes, the BLM subsequently has met with 
several tribal representatives, including the United South and Eastern 
Tribes, the Coalition of Large Tribes, and the Mandan, Hidatsa and 
Arikara Nation to discuss hydraulic fracturing and the impacts it may 
pose to their lands. The development of this hydraulic fracturing rule 
will continue to include proactive Tribal consultation under the 
Department's newly-formalized Tribal Consultation Policy. This policy, 
announced on December 1, 2011, emphasizes trust, respect and shared 
responsibility in providing Tribal governments an expanded role in 
informing Federal policy that impacts Indian lands. Under this policy, 
consultation is an open, transparent, and deliberative process.
    The agency will continue to consult with Tribal leaders throughout 
the rulemaking process and has offered continued government-to-
government consultation on this proposal through follow-up meetings as 
part of the consultation process with any tribe that desires to have an 
individual meeting. On May 11, 2012, the BLM sent over 180 invitations 
for continued government-to-government consultation to exchange 
information on the development of the hydraulic fracturing rule. 
Regional meetings were held in June in Salt Lake City, Utah; 
Farmington, New Mexico; Tulsa, Oklahoma; and Billings, Montana. The BLM 
has initiated follow-up calls with many of the Tribal leaders or their 
representatives and will continue to keep multiple lines of 
communication open during the Tribal consultation process. Responses 
from Tribal representatives will inform the agency's actions in 
defining the scope of acceptable hydraulic fracturing rule options.
Info Sharing
    Question 3. In the course of developing the draft BLM regulations, 
please describe the efforts BLM has made to consult with the state 
agencies that are now regulating drilling and completion activities 
within their borders.

          a. Did any of these conversations lead you or others within 
        the Department or BLM to determine that the state regulatory 
        programs were insufficient in such a way that a new set of BLM 
        regulations was required?

    Answer. At the President's direction, the Secretary of Energy's 
Advisory Board convened a Natural Gas Subcommittee (Subcommittee) to 
evaluate hydraulic fracturing issues. The Subcommittee met with 
industry, service providers, state and Federal regulators, academics, 
environmental groups, and many others stakeholders. Recommendations 
were issued by the subcommittee. Among other things, the report 
recommended that more information be provided to the public, including 
disclosure of the chemicals used in fracturing fluids. The Subcommittee 
also recommended the adoption of progressive standards for wellbore 
construction and testing. The report recommended that operators 
engaging in hydraulic fracturing prepare cement bond logs and undertake 
pressure testing to ensure the integrity of all casings.
    The BLM recognizes the efforts of states to regulate hydraulic 
fracturing and is focused on coordinating closely with individual state 
governments to avoid duplicative regulatory requirements. The agency 
has a long history of working cooperatively with state regulators and 
the BLM often enters into memorandums of understanding or establishes 
working groups to coordinate state and Federal activities, such as the 
oil and gas working groups that currently exist in many of our oil and 
gas states. The BLM is applying the same approach to this effort and 
will work closely with individual states on the implementation of the 
proposed regulation. The BLM's intent is to encourage efficiency in the 
collection of data and the reporting of information. The BLM routinely 
shares information on oil and gas operations with state regulatory 
authorities and the BLM will continue to work with individual states to 
ensure that duplication of efforts is avoided to the extent possible. 
Some states already have in place rules and regulations that address 
hydraulic fracturing. The BLM found that these rules may be either more 
or less stringent than the provisions in the BLM regulation proposal.
Domestic Production
    Question 4. During his State of the Union, the President called for 
an all-of-the-above energy policy. This is a phrase many of us are 
familiar with, having advocated for such an approach over the last 
several years. We understand it as the development of all energy 
resources, without supporting one at the expense of another. But the 
President's record and much of the Interior Department's budget request 
tell a decidedly different story.
    First we saw the President sign into law a Stimulus bill whose only 
direct beneficiaries were renewable and transmission projects, with 
nuclear power, clean coal, and other promising technologies cut out. 
Then we saw the delay or outright cancellation of oil and gas lease 
sales in Utah, Alaska, and throughout the Outer Continental Shelf. 
Recently, you approved the withdrawal of over 1 million acres--outside 
the boundaries of a park--from production of high-grade uranium, which 
is needed to fuel clean nuclear power. And now we are confronted with a 
budget request that seeks to raise taxes and fees on energy sources 
that Americans rely upon to keep the economy growing, keep their homes 
heated, and keep their vehicles on the road. Those tax hikes would show 
up in electric bills, at gas pumps, and home heating prices for every 
family in the country. Needless to say, this has created some confusion 
for those of us trying to square the President's rhetoric with the 
reality of his Administration's actions. The Administration appears to 
be saying no to domestic energy production more than it's saying yes. 
So I'd ask if you can you shed some light on how these actions 
represent an all-of-the-above strategy?
    Answer. The Obama Administration and the Department of the Interior 
are working to secure our energy future by ensuring that our domestic 
oil and gas resources are safely and responsibly developed and that the 
potential for clean energy development on our public lands and waters 
is realized. We have taken a balanced approach, and it is an approach 
that works. Interior is moving aggressively to put the President's 
energy strategy, Blueprint for a Secure Energy Future, into action and 
expand secure energy supplies for the Nation--a strategy that includes 
an all-of-the-above approach, including the responsible development of 
both conventional and renewable energy sources on the public lands.
    To encourage energy production, the Administration is taking a 
series of common sense steps as part of the Blueprint, a broad effort 
to reduce our dependence on foreign oil by producing more oil and 
natural gas at home and using cleaner, alternative fuels and improving 
our energy efficiency. Specifically with regard to domestic hydrocarbon 
production, the President has made clear that he wants us to continue 
to produce more oil and natural gas here at home.
    While production levels fluctuate from year-to-year based on market 
conditions and industry decisions, a recently published Energy 
Information Administration report confirms that this Administration has 
overseen an overall expansion of production on federal lands and waters 
as part of the nationwide rise in production levels even when taking 
into account the impact of the Deepwater Horizon oil spill in the Gulf 
of Mexico in 2010.
    At the Department we are expanding development of cleaner sources 
of energy, including renewables like wind, solar, and geothermal, as 
well as natural gas on public lands. The Administration is also working 
to facilitate the development of advanced coal technologies. But 
domestic oil and gas production remain critical to our energy supply 
and to reducing our dependence on foreign oil. We are also taking steps 
both onshore and offshore to encourage industry to develop the 
thousands of leases and permits it already has but that are currently 
sitting idle.
    During calendar year 2011, the BLM held 32 onshore oil and gas 
lease sales, offering 1,755 parcels of land covering nearly 4.4 million 
acres. Nearly three-quarters (1,296) of those parcels were leased, 
generating about $256 million in revenue. Onshore mineral leasing 
revenues are estimated to be $4.4 billion in 2013. The 2011 lease sale 
revenues are 20 percent higher than those in calendar year 2010, 
following a strong year in which leasing reform helped to lower 
protests and increase revenue from onshore oil and gas lease sales on 
public lands. This strong record is expected to continue in 2012 with 
over 30 planned lease sales.
    Following the Deepwater Horizon explosion and oil spill, the 
Administration has been implementing the most aggressive and 
comprehensive reforms to offshore oil and gas regulation in U.S. 
history. Production from leases on the OCS generates billions of 
dollars in revenue for the federal treasury and state governments while 
supporting thousands of jobs. In calendar year 2010, OCS leases 
produced 589.5 million barrels of oil and 2,300 billion cubic feet of 
natural gas, accounting for about 30 percent of domestic oil production 
and 10 percent of domestic natural gas production.
    Western Gulf of Mexico Lease Sale 218, held on December 14, 2011, 
was the last Western Gulf sale scheduled under the current Five-Year 
Program, and the first sale conducted after completion of a 
supplemental environmental impact statement that considered the effects 
of the Deepwater Horizon oil spill. That sale attracted $337,688,341 in 
high bids on 191 tracts comprising over a million acres. The sum of all 
bids received was over $700 million, and the total area made available 
for leasing was more than 21 million acres. BOEM conducted Consolidated 
Central GOM Sale 216/222, the final sale in the current Program, on 
June 20, 2012. That sale made available 39 million acres in an area of 
the Gulf estimated to contain close to 31 billion barrels of oil and 
134 trillion cubic feet of natural gas that are undiscovered and 
technically recoverable, and attracted $1,704,500,995 in high bids for 
tracts on the U.S. outer continental shelf offshore Louisiana, 
Mississippi and Alabama. A total of 56 offshore energy companies 
submitted 593 bids on 454 tracts covering more than 2,402,918 acres. 
The sum of all bids received totaled $2,602,563,726.
    BOEM also recently finalized the next Five-Year Program for 2012-
2017, which will be in effect later this year. The proposed Program 
includes substantial acreage for lease in regions with known potential 
for oil and gas development, making areas containing more than 75 
percent of undiscovered technically recoverable oil and gas resources 
estimated in federal OCS available for exploration and development. It 
also advances an innovative, regionally-tailored approach to offshore 
oil and gas leasing that will take into account the particular resource 
potential, environmental and social concerns, and infrastructure 
condition of each planning area. In sum, this Proposed Program both 
promotes responsible and expanded OCS development and is informed by 
lessons learned from the Deepwater Horizon tragedy and the reforms that 
we have implemented to make offshore drilling safer and more 
environmentally responsible.
    Moreover, while we continue to offer additional new acreage for oil 
and gas development, industry now has more leased acreage than it is 
putting to productive use. While the Department can, and does, offer 
significant acreage in its lease sales, it is industry that makes the 
final decision whether or not to purchase a lease on any particular 
tract and, subsequently, whether and when to develop the resources on 
such lease. The Department is also providing greater incentives for its 
lessees to make production from their leases a priority.
    This balanced approach will secure our energy future by ensuring 
that our domestic oil and gas resources are safely and responsibly 
developed and that the potential for clean energy development on our 
public lands and waters is realized.
                      us fish and wildlife service
Unimak Island
    Question 1. Secretary Salazar, as you know, the caribou herd on 
Unimak Island is nearing a critically low point--subsistence users have 
even been banned from harvesting caribous--but USFWS and the Alaska 
Department of Fish and Game have been unable to reach an agreement on 
how to proceed with managing the herd numbers. Can you please address 
if and when the EIS will be revisited?

          a. Currently, is it legally possible for the State ADFG to 
        conduct any predator management on Unimak Island?
          b. Can you explain what will be done by the Department of the 
        Interior to ensure that this herd is not wiped out?

    Answer. The most recent Environmental Assessment (EA) on this 
matter was completed in December 2011, with a decision document issued 
shortly thereafter that supported a ``no action'' alternative regarding 
predator management on Unimak Island. As such, the FWS has not 
authorized a management program to conduct predator control on Unimak 
Island. The analyses in the EA/FONSI pointed to effects on refuge 
purposes related to natural diversity, biological integrity, and the 
stewardship of wilderness resources. This, along with the need for more 
scientific information, precluded the implementation of management 
actions such as predator control.
    Regarding herd management, caribou numbers have fluctuated widely 
on Unimak Island. There are likely multiple factors contributing to 
this, including variable habitat conditions, predation by bears and 
wolves, and harvest by humans. Current and expanded efforts are needed 
to improve the science surrounding these issues, and the FWS believes 
the best path forward is to carry out a joint State-FWS effort to 
identify those scientific needs, set biological objectives, and define 
management actions needed to achieve those objectives.
    We have committed significant levels of staffing and funding to 
address the caribou decline on Unimak Island. This includes an ongoing 
cooperative study with the University of Alaska, Anchorage, in 
collaboration with the Alaska Department of Fish and Game on habitat 
and nutritional ecology of island caribou entitled: Habitat and 
Nutritional Ecology of Unimak Island Caribou: Does Habitat Play a 
Critical Role in Caribou Population Dynamics and Health? This study is 
a component part of a larger National Science Foundation study 
conducted on the Alaska Peninsula and southwestern Alaska investigating 
caribou-vegetation relationships entitled, Nutrient Cycling in Tundra 
Soil-Plant-Caribou System. The FWS is also sponsoring a floristic 
community classification focused on composition and structure. We 
continue to cooperate with the State on routine herd monitoring; radio-
collaring of caribou, and spring calving, mid-winter total herd counts 
and mid-summer cow-calf and fall composition counts, and the FWS has 
offered the State the opportunity to transplant caribou bulls to 
augment the population and address the low bull to cow ratio on the 
island while we work to identify the cause of the overall decline. 
Continuing these efforts, and initiating needed studies, will allow us 
to make the appropriate management decisions.
    The FWS believes the best approach is to work with our partners to 
develop a more comprehensive management plan for Unimak Island that 
balances and meets the requirements of relevant statutes, including the 
Alaska National Interest Lands Conservation Act, which directs the FWS 
to conserve fish and wildlife populations in their natural diversity, 
and to provide, in a manner consistent with this purpose, the 
opportunity for continued subsistence uses by rural residents; the 
National Wildlife Refuge System Improvement Act, which requires the FWS 
to maintain the biological integrity, diversity, and environmental 
health of each refuge; and the Wilderness Act, which requires the FWS 
to preserve the wilderness character of refuge lands. Development of 
such a plan would prompt an accompanying NEPA document, likely another 
EA.
Wood Bison
    Question 2. As you know, the State of Alaska is currently working 
towards reintroducing a non-essential experimental population of Alaska 
Wood Bison. The herd is being housed at the Alaska Wildlife 
Conservation Center at a cost of over $250,000 per year. What is the 
current status of the Alaska Wood Bison reintroduction efforts? Can you 
please explain to me why the USFWS has decided that this non-essential 
and experimental species would need such a high threshold number before 
any harvest would be permitted?
    Answer. The FWS has been working closely with the State to support 
wood bison reintroduction efforts. Last year we contributed $250,000 
toward the cost of maintaining wood bison at the Alaska Conservation 
Center. We have jointly prepared a proposed rule that would designate a 
nonessential experimental population of wood bison and enable the State 
to be the lead agency in the reintroduction and subsequent management 
of wood bison in Alaska. The proposed rule is currently undergoing 
final review; it does not contain a specific threshold number that 
would need to be reached before harvest would be permitted. We have 
worked closely with the State agreed upon language in the rule over six 
months ago that would allow hunting based on sustained yield principles 
established by the State and the FWS.
     america's great outdoors and land and water conservation fund
    Question 1. The Land and Water Conservation Fund budget request is 
for a funding level of $450 million, which represents $105 million 
increase above the current level for DOI agencies and the Forest 
Service. Can you please explain to me why, with such an enormous 
maintenance backlog, DOI is focusing such a large amount of money on 
acquiring more federal land? Shouldn't these funds be used to pay down 
our maintenance backlog?
    Answer. The Department of the Interior takes seriously our 
responsibilities to maintain facilities and infrastructure. The FY 2013 
Budget proposes focusing funding on the most critical health and safety 
issues through line-item construction accounts and facility maintenance 
subactivities within operation accounts. Construction of new facilities 
has been restricted to replacement of facilities in poor condition for 
the fiscal year 2013. This will focus our resources on correcting the 
most critical repairs on our highest priority assets.
    Through the America's Great Outdoors listening sessions and public 
input process, we learned that there is a powerful consensus across 
America that outdoor spaces--public and private, large and small, urban 
and rural--remain essential to our quality of life, our economy, and 
our national identity. Americans communicated clearly that they care 
deeply about our outdoor heritage, want to enjoy and protect it, and 
are willing to take collective responsibility to protect it for their 
children and grandchildren.
    Americans support concrete investments in conservation. In November 
of 2010, voters across the country overwhelmingly approved a variety of 
measures for land conservation, generating a total of $2 billion in new 
land protection funds according to the Trust for Public Land. Of 36 
proposals on State and local ballots for conservation funding, 30 
passed--an approval rate of 83 percent. This is the highest rate during 
the past decade and the third highest since 1988.
    Consistent with these results at the State and local levels, the 
feedback received during the AGO listening sessions indicated that 
funding LWCF program is a high priority for the American people. 
Respondents also suggested that LWCF funding could be more effectively 
used if it was strategically focused on specific project types and/or 
locations. With this in mind, an investment in the Crown of the 
Continent ecosystem was developed in the Rocky Mountain Front where 
Interior proposes to invest $28.6 million to protect threatened and 
endangered plants, fish, and wildlife; ensure terrestrial ecosystem and 
watershed health; ensure resiliency, connectivity, and climate change 
adaptation; support working farms, ranches and forests; enhance 
recreational access; and protect rivers and waterways. This land comes 
with minimal operations and maintenance costs. This proposal includes 
the outstanding landscapes of Glacier National Park; four units of the 
National Wildlife Refuge System; famous western rivers and lakes; and 
vast high deserts and high mountain valleys administered by the three 
DOI bureaus. The lands proposed for acquisition, both conservation 
easements and fee, will protect crucial wildlife migration corridors, 
endangered biological and geological systems, and special status 
species. Conserving these properties enhances cultural and natural 
landscapes while allowing for traditional working ranches and forests 
in many cases. Outdoor recreational opportunities will be enhanced by 
increasing access, maintaining the integrity of the scenic vistas and 
the primitive qualities of the Crown of the Continent Ecosystem. Once 
these lands are developed, there is no going back to how they currently 
exist.
    Interior's 2013 request, together with the Forest Service's 
request, funds the LWCF at $450 million, half of the legal limit that 
could be appropriated for this fund. Interiors' Federal land 
acquisition request of $212 million includes $84 million for line-item 
projects resulting from a collaborative effort. The collaborative 
effort between the Departments of the Interior and Agriculture was in 
response to directives from Congress in House Report 111-180 and 
Conference Report 111-316. The remaining $58 million in Interior's 
line-item projects support bureau specific, mission related priorities. 
Smart investments in strategic conservation through both the 
interagency collaborative process and the bureau specific, mission 
related process will prevent further ecosystem decline or collapse, 
which is expected to preclude the need for future investments in 
restoration.
    Activities funded under LWCF ensure public access to the outdoors 
for hunting, fishing and recreation; preserve watersheds, viewsheds, 
natural resources and landscapes; provide corridors for wildlife to 
migrate within; and protect irreplaceable cultural and historic sites 
for current and future generations. LWCF funds are also used to protect 
historical uses of working lands, such as grazing and farming.
    Interior's acquisition programs work in cooperation with local 
communities, rely on willing sellers, and maximize opportunities for 
easement acquisitions. Proposed acquisition projects are developed with 
the support of local landowners, elected officials, and community 
groups. LWCF funds for Federal acquisition will support simpler, more 
efficient land management; create access for hunters and anglers; 
create long-term cost savings; address urgent threats to some of 
America's most special places; and support conservation priorities that 
are established at the State and local levels.
          coastal impact assistance program rescission (ciap)
    The Coastal Impact Assistance Program was created by the Energy 
Policy Act of 2005 to provide funding to six OCS oil and gas producing 
states to conserve and protect the coastal environment. These states 
include four on the Gulf coast and Alaska and California.
    The Fiscal Year 2013 budget proposes to rescind $200 million--
almost 40 percent--of the remaining $550 million allocated for this 
program. I realize this is a large amount of unobligated funding 
waiting to be spent by the states, but there is a good reason for this. 
Just last year, your budget recommended--and Congress agreed--that the 
program administration should be moved from the former MMS to the Fish 
and Wildlife Service, who administers many similar grant programs with 
states. It's my understanding states had complained about the 
timeliness of federal approval for project plans.
    Question 2a. Can you explain the Administration's thinking behind 
this rescission? It seems to me that you're penalizing these states 
because of past failures of the federal government. Of course, it did 
give you an extra $200 million to spend on your other priorities in the 
bill, so maybe I already know your answer. I worry that with flat 
budgets, we're using gimmicks that ultimately we have to pay for and we 
are also giving unrealistic expectations of inflated budget numbers for 
other programs.
    Question 2b. How would you respond to states that have been 
critical of the burdensome administrative regulations that have, in 
their view, delayed the timely distribution of funds which has resulted 
in the large carryover balances?
    Answer. Of the $1 billion provided during FY 2007--2010, $540 
million remains available under the Coastal Impact Assistance Program 
(CIAP). CIAP gives states broad flexibility to use the funds, so there 
is little accountability for achieving specific results. The 
Administration plans on using this reduction in CIAP balances to fund 
higher priorities elsewhere.
    The Department (through the former Minerals Management Service) 
approved State CIAP Plans for each of the six States for FY 2007--2010 
funds, with the exception of Texas that has an approved Plan for 2007-
08 funds, and a proposed Plan for 2009-10 funds. Additionally, there 
have been subsequent amendments to approved plans submitted by States, 
for example, Louisiana submitted a fourth revision to their plan in 
November 2011.
    There are a number of factors that have contributed to the 
relatively slow obligation rates for CIAP. A primary factor is that 
CIAP requires a substantive public planning process that is coordinated 
through a designated State lead agency with a great degree of 
information and planning provided by local Coastal Political 
Subdivisions (CPS). In addition to the 6 eligible states, there are 70 
CPSs, which are the County, Parish and Borough governments eligible to 
receive CIAP funds directly. A multi-level CIAP Plan review process at 
the federal level also contributed to the delayed Plan implementation 
and slow obligation rates. Further, the proposed projects are all 
located in sensitive coastal habitats that often involve a high degree 
of time-consuming activities, such as permitting and appraisals, prior 
to the full obligation of funds as part of the grant review process. 
The complexity of the administrative process was also a recognized 
factor in the slow obligations. In FY 2012, the Secretary re-delegated 
CIAP administration authority to the FWS under its Wildlife and Sport 
Fish Restoration Program, and the FWS is in the process of awarding the 
balance of CIAP funds, with the goal of completing all obligations by 
December 2013 for projects to be completed by December 31, 2016.
                       alaska specific questions
Alaska Water Resources
    Question 1. Your budget is proposing to cut funding for hydrologic 
networks and analysis by the U.S. Geological Survey by $2.6 million. 
Back in 2008 I won passage of the Alaska Water Resources Act (S. 200) 
which required USGS to do what it has done in every other state, 
conduct a survey of aquifers in urban parts of Alaska to see how much 
drinking water the state has underground. The USGS has never done any 
of the work, even though USGS wrote a great briefing paper in 2008 
supporting the approved law saying that the law was needed since ``the 
understanding of the connectivity of small aquifers across the 
(Anchorage) area is poor.'' It is hard for me to support an increase of 
$51 million for USGS nationwide, partially to fund the new WaterSMART 
Program, when you ignore laws and authorizations that actually are 
about to expire without ever having been implemented by the Department. 
Is there any assistance that the USGS can provide to assess potable 
water reserves for Fairbanks, the Mat-Su Valley, Anchorage and the 
Kenai Peninsula should we fund your WaterSMART initiative?
    Answer. Through the Cooperative Water Program, the USGS Alaska 
Science Center has worked with the Alaska Department of Natural 
Resources (ADNR) on a groundwater assessment in the Mat-Su Valley 
(2009-present). A similar groundwater assessment of the Anchorage Bowl 
has been proposed by the Alaska Science Center to ADNR. Through USGS' 
WaterSMART Initiative, the USGS Groundwater Resources Program is 
supporting (FY11-12) an assessment of the glacial aquifer system from 
Maine to Alaska. In the initial phase of this work, the USGS compiled a 
bibliography of hydrogeology-related studies in Alaska, and performed a 
GIS analysis to delineate the approximate extent of glacial aquifers 
across the state. The USGS is evaluating this initial information, 
performing a gap analysis, and formulating plans for subsequent 
groundwater-related activities in this and other areas of the glacial 
aquifer system. Under the proposed FY13 budget, the WaterSMART 
Initiative will fund implementation of these plans by the Groundwater 
Resources Program.
Local Hire
    Question 2. Can you please provide me with an update of the ANILCA 
Local Hire Program that was included in the last Interior 
Appropriations bill? Will this program be implemented for the summer 
hiring season of 2012? If not, can you explain what the holdup is and 
when Alaskans can expect to be able to rely on the Local Hire program?
    Answer. The Department (and USDA/FS) successfully carried out a 
local hire program for nearly 30 years following passage of ANILCA. The 
program has been of great benefit in securing experienced and 
knowledgeable personnel for the management of our federal lands in 
Alaska as well as providing economic and social benefits to communities 
and residents located near federal lands. We believe your amendment 
clarifying that the Alaska local hire program was an ``excepted 
service'' overcame an OPM opinion that advised that the program ran 
counter to Civil Service provisions.
    While re-starting the local hire program subsequent to enactment of 
your amendment last December has taken longer than expected, the 
Department has recently issued policy guidance to all bureaus and 
offices that provides direction for consistent application of the new 
statutory provisions. In the past many local hires were seasonal hires, 
primarily for the summer. Unfortunately, seasonal hiring for the 2012 
season began early in 2012, with some employees entering on duty as 
early as late March and early April. While some seasonal hiring is 
still taking place that can benefit from the implementation of the 
local hire program, the benefits of the legislative change will be felt 
most fully in 2013. Additionally, the local hire program is also used 
to fill permanent positions and will be used as vacancies and positions 
occur in the future. The Department expects future local hires for our 
land managing agencies (NPS, FWS, BLM) to return at least to historic 
levels of several hundred people annually. The US Forest Service is 
also expected to hire significant numbers of people under the local 
hire authority.
Yukon-Charley
    Question 3. Can you please provide me with an update of how law 
enforcement efforts are going within Yukon-Charley National Preserve, 
notably on the Yukon River? Has the new law that bans the National Park 
Service from conducting boater safety checks negatively impacted the 
Park's management efforts in any way?
    Answer. Because the rivers remain frozen until the ice goes out in 
May, no boating has occurred in Yukon-Charley Rivers National Preserve 
since the FY 2012 appropriations language prohibiting NPS from 
conducting boater safety checks went into effect. In 2011, park rangers 
did not make boating safety contacts on the water, but did contact more 
than 140 visitors on land to check hunting and fishing licenses and to 
discuss boating safety, among other reasons. Preserve managers continue 
their work with the State of Alaska's safe boating program, 
distributing free life jackets at kiosks in Eagle and Circle.
Hunting Closures
    Question 4. Recently, when the National Park Service has closed 
preserves in Alaska to hunting (Wolf hunting in Yukon-Charley and Lake 
Clark, Bear Denning in Denali and Gates of the Arctic) it has cited 
``Park Values'' in those closures. Can you provide me with a definition 
of the ``Park Values''?

          a. What hunting closures does the National Park Service 
        anticipate for 2012? Can you provide my staff with a list all 
        current closures or anticipated closures for this calendar 
        year?

    Answer. The term ``Park Values'' is derived from NPS laws and 
policy. In the provision commonly known as the Redwood Amendment to the 
National Park System General Authorities Act, Congress directed that 
the protection, management, and administration of areas within the 
National Park System shall be conducted ``in light of the high public 
value and integrity of the National Park System and shall not be 
exercised in derogation of the values and purposes for which these 
various areas have been established. . . .''.
    National Park Service Management Policies (What Constitutes Park 
Resources and Values--1.4.6) provides a list of park resources and 
values that are subject to the no-impairment standard of the National 
Park Service Organic Act and the General Authorities Act. This list 
includes, among others, ``the park's scenery, natural and historical 
objects, and wildlife, and the processes and conditions that sustain 
them, including to the extent present in the park: the ecological, 
biological, and physical processes that created the park and continue 
to act upon it.''
    Specifically, the Alaska National Interest Lands Conservation Act 
states that the purpose for establishing the units is to ``preserve for 
the benefit, use, education and inspiration of present and future 
generations certain lands and waters . . . that contain nationally 
significant natural, scenic, historic, archeological, geological, 
scientific, wilderness, cultural, recreational, and wildlife values. . 
. .''.
    On March 15, 2012, after the consideration of public comments, the 
NPS published the 2012 Compendiums for units of the national park 
system in Alaska. The 2012 Compendiums for Aniakchak, Katmai, and Lake 
Clark National Preserves include a prohibition on killing wolves under 
state hunting and trapping regulations within those units during the 
time wolves are denning and raising pups. The shortened season aligns 
with the federal subsistence season, but remains roughly eight months 
long. The NPS action protects wolves at their most vulnerable period, a 
time in which pelts are also of poor quality and typically not in 
demand. The 2012 Compendiums for Gates of the Arctic and Denali 
National Preserves renew the prohibition of killing bear cubs and sows 
at den sites and the prohibition on the use of artificial light to 
assist in killing black bears at den sites within those units.
Alaska NPS Town Hall Meetings
    Question 5. Can you provide me with a schedule of the National Park 
Service Town Hall meetings that the NPS plans to hold around the State 
of Alaska this calendar year? I would like to commend and thank the 
Park Service for this outreach to Alaskans and I look forward to 
attending the events myself.
    Answer. The NPS held town hall meetings in Fairbanks on April 17 
and Palmer on May 22 and participated as a guest or as a sponsor in 
other public forums through the spring and summer. The NPS is planning 
an open house in Anchorage and an event in Juneau in the fall, along 
with offering input opportunities at the Alaska Federation of Natives 
conference in October, and other public events.
                              oil and gas
    Question 1. Interior has proposed raising onshore royalty rates 
from 12 and a half percent to 18 and a half percent--this is a 50 
percent increase in royalty rates. To clarify, this is both for oil and 
natural gas, correct?

          a. Last Tuesday, Bloomberg reported that ``Profits for the 
        biggest U.S. energy producers including Exxon Mobil are poised 
        to decline the most since the financial meltdown of 2008-09 as 
        the drilling technique known as fracking collapses natural gas 
        prices.'' In other words natural gas producers have basically 
        stopped drilling because natural gas is so cheap (around 
        $3.00)--could a higher royalty on natural gas mean higher gas 
        prices? Could it mean even more gas wells become uneconomical 
        and are shut down?

                    --If more gas wells do become uneconomic, will you 
                seek to make royalty relief available to any of them?
                    --Moving to gasoline prices, if the royalty payment 
                is 50% higher on a barrel of oil, will there be a 
                corresponding increase in the cost of that barrel for 
                refiners, and could the price of gasoline and other 
                fuels rise with this increase as well?

    Answer. The Administration believes that American taxpayers should 
get a fair return on the development of energy resources on their 
public lands. Following on a 2008 Government Accountability Office 
(GAO) report that suggests that taxpayers could be getting a better 
return from federal oil and gas resources in some areas, the 
Administration has been looking at ways to address this issue. When 
determining value and fair return, the government has multiple, diverse 
objectives that must be balanced, including collecting a fair return 
for the use of shared resources, promoting responsible resource and 
energy development, private investment and employment, energy security, 
and environmental protection, among other goals. The Department is 
continuing to gather and review relevant information as it determines a 
path forward.
    Question 2. The Interior Department states that charging more money 
for oil and gas producers to bring these resources to market will bring 
the federal percentage closer in line with the percentages which some 
states charge for development of their lands. But I question whether 
this tells the whole story. More specifically, how does the federal 
government compare with the states in terms of legal and regulatory 
certainty, and in terms of the length of time it takes from lease sale 
to drilling?
    Answer. Although we have not completed a comprehensive survey, we 
believe that Federal leases compare favorably to those of other 
jurisdictions in terms of the legal and regulatory certainty they 
provide leaseholders. The government has multiple, diverse objectives 
that must be balanced, including collecting a fair return for the use 
of shared resources, promoting responsible resource and energy 
development, private investment and employment, energy security, and 
environmental protection, among other goals. These factors must all be 
weighed when determining value and fair return.
    Question 3. If the federal government wants to obtain more revenue 
and return to the taxpayer, will a corresponding 50 percent increase in 
acreage of oil and gas leases be made available?
    Answer. While the Department can, and does, offer significant 
acreage in its lease sales, it is industry that makes the final 
decision whether or not to purchase a lease on any particular tract 
and, subsequently, whether and when to develop the resources on such 
lease. Currently industry has more leased acreage than it is putting to 
productive use.
    Last year BLM held 32 onshore oil and gas lease sales, offering 
1,755 parcels of land covering almost 4.4 million acres. Of those, 
1,296 parcels, or nearly three-quarters of those offered, were 
purchased, generating about $256 million in revenue for the public. In 
2010, the Department offered nearly 37 million acres on the OCS for 
lease, but industry leased just 2.4 million acres. And in 2011, a lease 
sale for the Western Gulf of Mexico made available more than 21 million 
acres, equal to an area the size of South Carolina, and just over 1 
million acres received bids from industry.
    The Department recently released a report that shows that, 
offshore, industry had leased nearly 36 million acres, but only about 
10 million acres were active. Moreover, in the lower 48 states, an 
additional 20.8 million acres remain idle, and 7,000 approved but 
unused permits to drill on public lands continue to be held by 
companies.
    Question 4. Will the states in which these increased federal 
royalties are assessed be entitled to their 48 percent revenue share 
under the Mineral Leasing Act?

          a. Why does the Mineral Leasing Act call for onshore states 
        to receive this share of revenue? (ANSWER: Sec. 35 of the 
        Mineral Leasing Act reads that the revenue should be disbursed 
        to give ``priority to those subdivisions of the State socially 
        or economically impacted by development of minerals leased 
        under this act, for planning, construction and maintenance of 
        public facilities, and provision of public service.''

                    --Are coastal states ever impacted socially or 
                economically from the development of offshore 
                resources? Should they be entitled to similar revenue 
                shares as onshore states?

    Answer. The Department is aware of the applicable statutory 
provisions and any administrative changes would comply with the 
applicable laws.
                             tax increases
    Question 5. I think it would be a huge mistake to raise taxes on 
our nation's energy producers by $40 billion over the next ten years, 
as this budget proposes. I think my general concerns are well known on 
this, so today I want to ask a more specific question. Why has the 
administration continued to target natural gas producers for a tax 
hike? With prices at historical lows, we have seen reports that some 
producers are already considering shutting in their wells because they 
simply cannot make any money off of them. Did the administration give 
any consideration to the impacts that its proposed tax increases could 
have on natural gas production--and therefore prices, jobs, and 
investments--in the longer term?
    Answer. As noted in response to previous questions, the 
Administration believes in encouraging sustainable domestic oil and gas 
production while ensuring a fair return to taxpayers. The President's 
budget includes assumptions in the Interior budget for new fees that 
will encourage production, proposals to eliminate tax preferences 
within the Treasury budget that are specific to oil and gas companies. 
Collectively, these proposals increase the return on Federal mineral 
resources. The Administration carefully considered the impacts of 
various revenue proposals in cooperation with the Departments of the 
Interior, Treasury, Energy, and others.
                            chem disclosure
    Question 6. Mr. Secretary, the states with the most stringent 
disclosure requirements for hydraulic fracturing require that operators 
provide disclosure of the chemicals they used via the FracFocus 
website. The leaked draft BLM regulations on hydraulic fracturing that 
we have seen make no reference to FracFocus. Does BLM intend to create 
an entirely new database of fracture stimulation chemicals at taxpayer 
expense?

          a. Who would be responsible for administering it?
          b. Given that state regulators already require operators to 
        provide information on maximum concentrations of fracking 
        chemicals, I wonder if you could explain what added benefit 
        your new system will provide?
          c. How do you envision operators of valid leases issued by 
        BLM establishing and assuring compliance with these draft 
        regulations?

    Answer. FracFocus is a voluntary hydraulic fracturing chemical 
registry website that is a joint project of the Ground Water Protection 
Council and the Interstate Oil and Gas Compact Commission. The site was 
created to provide public access to reported information on the 
chemicals used in hydraulic fracturing activities. BLM is working 
closely with the Ground Water Protection Council and the Interstate Oil 
and Gas Commission in an effort to integrate the disclosure of non-
proprietary information called for in the proposed rule with the 
existing FracFocus program.As stewards of the public lands, and as the 
Secretary's regulator for oil and gas leases on Indian lands, the BLM 
has evaluated the increased use of these practices over the last decade 
and determined that the existing rules needed to be updated to reflect 
significant technological advances in hydraulic fracturing in recent 
years and the tremendous increase in its use. The BLM recognizes that 
some, but not all, states have recently taken action to address 
hydraulic fracturing in their own regulations. The BLM's proposed 
rulemaking ensures consistent protection of the important federal and 
Indian resource values that may be affected by the use of hydraulic 
fracturing. The proposed rule is also designed to complement ongoing 
state efforts to regulate fracturing activities by providing a 
consistent standard across all public and tribal lands. The BLM is 
actively working to minimize duplication between reporting required by 
state regulations and reporting required for this rule.
    The proposed rule would require oil and gas operators using 
hydraulic fracturing techniques to identify the chemicals used in 
fracturing fluids by trade name, purpose, Chemical Abstracts Service 
Registry Number, and the percent mass of each ingredient used. This 
information is needed in order for the BLM to maintain a record of the 
stimulation operation as performed. The information would be required 
in a format that does not link additives to the chemical composition of 
fluids, which will allow operators to provide information to the public 
while still protecting information that may be considered proprietary. 
And the disclosure of the fluids used in hydraulic fracturing would 
only be required after the fracturing operation has taken place.
                             double permits
    Question 7. The leaked draft of BLM regulations on hydraulic 
fracturing refers to a proposal for well stimulation operations that an 
operator must submit on a separate notice application form--a process 
entirely separate from the review and approval process for the 
application for permit to drill. To me, this seems like it could create 
a situation where an operator could be approved to drill, but not to 
complete its well--is that a fair estimation?

          a. How does BLM intend to reconcile this potential permitting 
        dilemma?

    Answer. Overall, the proposed rule favors flexibility over 
prescriptive standards--something that became more pronounced during 
the drafting and development process. For example, the proposed rule 
would allow operators to apply for approval for well stimulation 
activities when they submit an application for a drilling permit for a 
new well, or seek approval later, through a simple sundry notice. For 
wells permitted prior to the effective date of this section or for 
wells permitted after the effective date of this section, the operator 
would submit a sundry notice and Report on Wells for the stimulation 
proposal for approval before the operator begins the stimulation 
activity. Under the proposal, an operator must also submit a sundry 
notice prior to stimulation if the BLM's previous approval is more than 
five years old or if the operator becomes aware of significant new 
information about the geology, the stimulation operation or technology, 
or the anticipated impacts to any resource.
    However, as noted in the analysis accompanying the proposal, BLM 
does not anticipate that the submittal of additional well stimulation-
related information with APD applications will impact the timing of the 
approval of drilling permits. The bureau believes that the additional 
incremental information that would be required by this rule would be 
reviewed in conjunction with the APD and within the normal APD 
processing time frame, and anticipates that requests to conduct well 
stimulation activities on existing wells that have been in service more 
than five years will be reviewed promptly. However, as with any 
operational activity, there may be unforeseen circumstances that may on 
rare occasions delay approval of APDs.
                              coordination
    Question 8. Does BLM plan to consult with the state agencies that 
will also be enforcing regulations that pertain to well drilling or 
completion?

          a. How will BLM archive the data it receives?
          b. How will this data be compiled, reported and analyzed?

    Answer. BLM has participated in several public meetings on this 
topic, including with representatives from states, and is also seeking 
public comment on this proposed regulation. BLM recognizes that some, 
but not all, states have taken action to address hydraulic fracturing 
in their own regulations. The BLM's proposed rulemaking ensures 
consistent protection of the important federal and Indian resource 
values that may be affected by the use of hydraulic fracturing. The 
proposed rule is designed to complement ongoing state efforts to 
regulate fracturing activities by providing a consistent standard 
across all public and tribal lands. The BLM is actively working to 
minimize duplication between reporting required by state regulations 
and reporting required for this rule. Regardless of any action taken by 
the BLM, operators still would need to comply with any state-specific 
hydraulic fracturing requirements in the states where they operate.
    As noted in response to a previous question, the disclosure of the 
fluids used in hydraulic fracturing would only be required after the 
fracturing operation has taken place. The BLM intends to place non-
proprietary information on a public web site and is working with the 
Ground Water Protection Council in an effort to integrate this 
information into the existing disclosure website known as 
FracFocus.org.
                                 water
    Question 9. Can you please describe the basis of BLM's interest in 
requiring operators to provide volumes of flowback fluid?

          a. How do you expect this to be accomplished, and over how 
        long a period?
          b. How will this data be archived, reported and analyzed?

    Answer. Estimates and information related to the handling of 
recovered fluids are required under the proposed regulations in order 
to provide BLM the information necessary to ensure that facilities 
needed to process or contain the estimated volume of fluid will be 
available on location, to help protect human health and safety, and 
prevent the contamination of the environment. As noted in the draft, 
BLM also needs to confirm that the disposal methods used are those that 
were approved and conform to the regulations, and such information will 
assist the bureau in making that determination.
                        pavillion, wyoming study
    Question 10. In early December you stated that the ``jury's still 
out'' on the validity of EPA's study of potential groundwater 
contamination in Pavillion, Wyoming. You also stated that ``it's 
important that the real facts finally get to the table with respect to 
peer review'' on that study. Based on what we have all learned in the 
last two months about the real facts of that case and the questions 
that have emerged about EPA's procedures and peer review process, can 
you characterize your current thoughts on the Pavillion study?

    a. Do you think the Administration should gather all of the 
necessary facts before making public conclusions about the impact of 
hydraulic fracturing on groundwater?

    Answer. Collaboration and use of the best available science are 
critical in meeting the needs of area residents and resolving 
longstanding issues surrounding the safety of drinking water and 
groundwater. The Administration is committed to ensuring the peer 
review process is conducted with maximum transparency and the highest 
level of scientific integrity.
    We are aware that the Environmental Protection Agency, the State of 
Wyoming, and the Tribes all recognize that further sampling of the deep 
monitoring wells is important to clarify questions about the initial 
monitoring results. The EPA is partnering with the State and the United 
States Geological Survey, in collaboration with the Tribes, to complete 
this sampling as soon as possible and will also collaborate with the 
State and other stakeholders in designing the sampling methodology, the 
quality assurance plan, and other features of the next phase of 
testing.
    Question 11. Fracture Length and Height: The draft regulations that 
we have seen would require operators to provide BLM with ``actual, 
estimated or calculated fracture length and fracture height''. From a 
practical standpoint, how difficult is this for operators to do and how 
will the agency use this information?

          a. Please describe the situations that BLM may have 
        encountered in the past concerning the extent of subsurface 
        fractures from well stimulation that this requirement is 
        supposed to address.

    Answer. The proposed regulation would require the operator to 
submit to the BLM the estimated or calculated fracture length and 
height anticipated as a result of the stimulation. This information 
will be determined as a matter of well stimulation engineering design. 
The operator will determine this so they can estimate appropriate 
fracture locations, pressures, and fluid volumes for the stimulation 
operation. The BLM will use this information to verify that the 
intended effects of the well stimulation operation will remain confined 
to the petroleum-bearing rock layers and will not have unintended 
consequences on other rock layers, such as aquifers.
    While the BLM is not aware of any conclusive evidence of negative 
impacts to groundwater as a result of hydraulic fracturing on federal 
wells, we recognize the need to be diligent, and it is for this reason 
that the new and strengthened regulations on hydraulic fracturing on 
Indian and public lands are being developed. The BLM is committed to 
ensuring that development activities occurring on the public lands are 
being conducted in a safe and responsible manner that protects human 
health and the environment.
                      new regulations on drilling
    Question 12. The President has proclaimed that he wants to see more 
leasing. As a practical matter, how do you propose to accomplish this?

          a. In the State of the Union, the President emphatically 
        stated that he was directing your department to increase 
        offshore leasing by 70%. Are you confident that you can 
        accomplish that with the constraints imposed with your 5-year 
        leasing plan?

    Answer. Consistent with the President's statement, BOEM published 
the Proposed Five-Year Program for 2012-2017 in November 2011 and, on 
June 28, 2012, the Proposed Final Program. The program will make 
available offshore areas that contain more than 75 percent of 
undiscovered technically recoverable oil and gas resources that the OCS 
is estimated to hold. It will, as the Outer Continental Shelf Lands Act 
requires, represent a proper balance among the potential for 
environmental damage, the potential for the discovery of oil and gas, 
and the potential for adverse impact on the coastal zone.
    The Proposed Final Program is designed to promote the diligent 
development of the Nation's offshore oil and gas resources, which are 
and will remain central to the Nation's energy strategy, economy, and 
security. The program is in alignment with the Administration's 
Blueprint for a Secure Energy Future, which aims to promote the 
Nation's energy security and reduce oil imports by a third by 2025 
through a comprehensive national energy policy that includes a focus on 
expanding safe and responsible domestic oil and gas production.
    The Proposed Final Program is also grounded in the lessons learned 
from the Deepwater Horizon explosion and oil spill. Since that event, 
DOI has raised standards for offshore drilling safety and environmental 
protection in order to reduce the risk of another loss of well control 
in our oceans and improve our collective ability to respond to a 
blowout and spill. While offshore oil and gas exploration and 
development will never be risk-free, the risk from these activities can 
be minimized and operations can be conducted safely and responsibly, 
with appropriate measures to protect human safety and the environment.
    Based on these principles, the Proposed Final Program provides for 
lease sales in six offshore areas where there are currently active 
leases and exploration and where there is known or anticipated 
hydrocarbon potential. This represents a regionally targeted approach 
that is tailored to the specific needs and environmental conditions of 
different areas in order to best achieve the dual goals of promoting 
prompt development of the Nation's oil and gas resources and ensuring 
that this development occurs safely and with the necessary protections 
for the marine, coastal and human environments. This approach accounts 
for the differences between different areas--including differences in 
current knowledge of resource potential, adequacy of infrastructure to 
support oil and gas activity, accommodation of regional interests and 
concerns, and the need for a balanced approach to our use of natural 
resources.
    The Proposed Final Program is designed to be commensurate with the 
maturity of the infrastructure necessary to support offshore oil and 
gas activity, including infrastructure for spill containment and 
response. It also places an emphasis on the idea that OCS leasing 
should not be ``one size fits all,'' and consideration of lease sales 
in the Beaufort and Chukchi Seas will also be specifically tailored to 
those regions. The traditional area-wide leasing model that has been 
used in the Western and Central Gulf of Mexico (GOM) is not appropriate 
for the Arctic, and BOEM is working to develop alternative leasing 
strategies specifically for the Arctic in order to focus potential 
leasing on areas that have significant resource potential while also 
mitigating the impact of offshore oil and gas activity on the unique 
Arctic environment and its subsistence resources.
    While the Department can, and does, offer significant acreage in 
its lease sales, it is industry that makes the final decision whether 
or not to purchase a lease on any particular tract and, subsequently, 
whether and when to develop the resources on such lease. The Department 
recently issued an update on unused leased federal acreage and, 
according to the report, more than 70 percent of the tens of millions 
of offshore acres currently under lease are inactive, neither producing 
nor currently subject to approved or pending exploration or development 
plans.
    In addition to offering significant acreage from which to lease the 
Department is also providing greater incentives for its lessees to make 
production from their leases a priority. These resources are important 
in creating jobs and reducing our dependence on fossil fuels and oil 
imports, and ensuring the diligent development of lands under lease 
should be a priority for Congress as well.
                               doi budget
    Question 13. The President's proposed budget includes $32.5 million 
for the ``processing of applications for permit to drill and related 
use authorizations'' and $47.95 million for ``conducting oil and gas 
inspection activities.'' Can you tell us how many new Federal employees 
your Department envisions adding to conduct these activities in a 
timely manner?

          a. The budget also notes that this funding will be reduced by 
        a $6,500 application fee to be charged to permit applicants. 
        Based on the number of applications filed in previous years for 
        drilling permits on Federal land, can you estimate for us what 
        the anticipated total is that you expect to collect in permit 
        application fees?

    Answer. The 2013 budget proposes to expand and strengthen the BLM's 
oil and gas inspection capability through new fee collections from 
industry, similar to the fees now charged for offshore inspections. 
Collection of these fees is consistent with the principle that users of 
the public lands should pay for the costs of use authorizations and the 
costs associated with the oversight of authorized activities. The 
inspection fee schedule included in the budget is estimated to generate 
$48.0 million in collections, which would offset a proposed reduction 
of $38.0 million in BLM's appropriated funds, while providing for a net 
increase of $10.0 million in funds available for this management 
responsibility.
    The increased funding is aimed at correcting deficiencies 
identified by the Government Accountability Office in its February 2011 
report, which designated Federal management of oil and gas resources 
including production and revenue collection as high risk. The $10.0 
million increase will help BLM achieve the high priority goal of 
increasing the completion of inspections of Federal and Indian high 
risk oil and gas cases by nine percent over 2011 levels.
    The proposal includes shifting 162 FTE and $37,950,000 from Oil and 
Gas Mgmt requested appropriations, which will be fully offset by the 
collected fees. The proposal also includes collecting an additional $10 
million and funding an additional 46 FTE. The proposed inspection fee 
will total $47,950,000 and fund a total of 208 FTE. As noted in this 
question, the budget request also contemplates continuation of the fee 
for processing onshore drilling permits currently enabled by 
appropriations language in 2010. If continued, it would generate an 
estimated $32.5 million in offsetting collections in 2013.
    Question 14. Virginia leasing: Will you reconsider leasing off the 
Virginia coast as the Governor, legislature and Virginia delegation has 
requested?
    Answer. The Proposed Final Program for 2012-2017 does not include 
lease sales in the North-Atlantic, Mid-Atlantic, and South-Atlantic 
planning areas based on, and in alignment with, the principles that 
underlie the entire Program. Many Atlantic states expressed concerns 
about oil and gas development off their coasts. While an OCS 
development strategy announced in 2010 included the Mid-and South-
Atlantic under consideration for potential inclusion, a number of 
specific considerations supported the decision not to schedule lease 
sales in these areas under this Proposed Final Program. Rather, BOEM is 
proceeding with a specific strategy to address these considerations and 
support decision-making on whether potential lease sales in the Mid-and 
South-Atlantic would be appropriate in the future.
    First, the oil and gas resource potential in the Mid-and South-
Atlantic is not well understood and surveys of these areas are 
incomplete and out of date. Prior to scheduling lease sales in these 
planning areas, it is prudent to develop information evaluating the oil 
and gas resource potential of these regions. BOEM is moving forward 
expeditiously to facilitate resource evaluation in these areas, 
including conducting a programmatic Environmental Impact Statement 
(EIS) relating to seismic surveys in the Mid-and South-Atlantic. BOEM 
announced in March 2012 the publication of the draft EIS and has just 
concluded a series of public hearings across the Mid-and South-Atlantic 
states.
    Second, there are complex issues relating to potentially 
conflicting uses, including those of the Department of Defense, which 
should be addressed so that any potential future leasing activity in 
these areas is designed appropriately. Finally, while evaluation of the 
resource potential of the Mid-and South Atlantic regions moves forward, 
analysis and planning regarding the additional infrastructure necessary 
to support potential oil and gas activities, including spill response 
resources, should as well.
                             epa questions
    Question 1. The hydraulic fracturing studies announced in the 
Administration budget involve multiple agencies addressing the same 
issues. What are the specific roles and responsibilities of each 
agency?

          a. What management structure will exist?
          b. What Agency will be the controlling agency?

    Answer. While the Department defers to the Environmental Protection 
Agency for information related to that agency, the research activities 
that the U.S. Geological Survey will conduct will be carefully 
coordinated with the Department of Energy (DOE), EPA, other federal 
agencies, including the BLM, FWS, and NPS in the Department, tribal and 
state entities, academia, and non-governmental organizations. The 
Department, DOE, and EPA will soon release a joint Memorandum of 
Agreement that will guide this interagency effort. This agreement will 
emphasize the fundamental core competencies of each agency in 
synergistic ways that lead to complementary and non-duplicative work. 
Working collaboratively, the agencies will develop a comprehensive 
federal research plan to address the highest-priority challenges to 
safe and prudent development of unconventional natural gas resources 
through hydrofracturing. The agencies have already begun to work 
cooperatively on studies of environmental impacts through EPA case 
studies at prospective drill sites, in areas of potential induced 
seismicity, in technology enhancements, and in the development of a 
comprehensive plan to assess the potential effects of Marcellus Shale 
gas production on the environment.
    Question 2. EPA is planning a study on air emissions from oil and 
natural gas production related to hydraulic fracturing. The Agency has 
proposed a new source performance standard (NSPS) for oil and natural 
gas production. Based on comments submitted to the docket on this 
proposal, it appears that EPA overestimated emissions from 
hydraulically fractured natural gas wells by as much as 1,400 percent. 
Is EPA taking steps to correct this overestimation by re-testing wells?
    Answer. While this matter falls under the jurisdiction of the EPA 
and the Department defers to that agency for a complete response, on 
April 17, 2012, EPA issued cost-effective regulations to reduce harmful 
air pollution from the oil and natural gas industry while allowing 
continued, responsible growth in U.S. oil and natural gas production. 
The final rules include, for the first time, federal air standards for 
gas wells that are hydraulically fractured. These rules rely on proven 
cost-effective technology and practices that industry leaders are using 
today at about half of the fractured natural gas wells in the United 
States. Extensive public comment was sought on the proposed rules, 
which the agency was required to review under the Clean Air Act, and a 
number of changes were made in response to comments received.
    Question 3. In the same NSPS proposal EPA uses emissions factors 
for vapor from oil storage tanks that is refuted in its own docket 
support materials. Does the Agency have a process in place to ensure 
that its regulatory proposals make sense?
    Answer. As indicated in the response to the previous question, 
while this matter falls under the jurisdiction of the EPA, and the 
Department defers to EPA for a complete response, extensive public 
comment was sought on the proposed rules, which the agency was required 
to review under the Clean Air Act, including two public meetings as it 
was developing the rules and three public hearings on the proposal. The 
agency received more than 156,000 comments on the proposal, and a 
number of changes were made in response to comments received.
    Question 4. EPA has issued requirements for the reporting of 
Greenhouse Gas (GHG) emissions for oil and natural gas production under 
Subpart W. In this Subpart it creates a definition of facility that at 
times includes entire states, and in one case includes the area from 
the Rio Grande to the Mississippi River and from the Gulf of Mexico to 
a line running through Austin, Texas and Baton Rouge, Louisiana. EPA 
even acknowledges that its purpose is to require data that it would not 
get using any normal definition of a facility. These costs appear to be 
imposed solely to create an inventory. What is the Agency's 
justification for its actions?
    Answer. While this matter falls under the jurisdiction of the EPA, 
and the Department defers to EPA for a complete response, this issue 
was addressed in EPA's responses to the comments received after 
publication of the proposal, which can be found at http://www.epa.gov/
climatechange/emissions/downloads10/Subpart-W_RTC_part2.pdf.
    Question 5. EPA announced that it plans to continue its Effluent 
Limitation Guideline (ELG) development for coal bed methane-produced 
waters. Its current efforts are based on information that appears to be 
fairly grossly out of date. Its economic information is based on 
natural gas prices three times current prices and its production 
information does not reflect the dramatic drop in coal bed methane 
production. Since CBM-produced water comes at the beginning of the 
production process, what benefit is it to continue this ELG action? 
What will it cost?
    Answer. This matter falls under the jurisdiction of the EPA, and 
the Department defers to EPA for a complete response. The Department 
understands that EPA continues to evaluate significant amounts of 
information collected during the study of this issue, in addition to 
continuing to obtain additional pollutant?related data; and to meet 
with stakeholders to review regulatory approaches and solicit input.
    Question 6. EPA announced its intent to create an ELG for shale gas 
extraction produced water. Its ``trigger'' for this announcement was 
the discharge of shale gas extraction produced water in Pennsylvania. 
Pennsylvania has prohibited the discharge of this water to surface 
waters. What will it cost to develop this ELG for what would seem to be 
a nonexistent discharge category?
    Answer. This matter falls under the jurisdiction of the EPA, and 
the Department defers to EPA for a complete response. EPA conducts an 
annual review of existing industrial wastewater discharge regulations. 
Comments submitted to EPA in early 2010 as part of the annual review 
prompted EPA to carefully review wastewater discharges from shale gas 
extraction, which generally contain elevated salt content many times 
higher than that contained in sea water, conventional pollutants, 
organics, metals, and naturally occurring radioactive material. 
Additional data show that flowback waters contain concentrations of 
some of the fracturing fluid additives. Some shale gas wastewater is 
transported to public and private treatment plants, many of which are 
not properly equipped to treat this type of wastewater. As a result, 
pollutants are discharged into surface waters such as rivers, lakes or 
streams where they can directly impact aquatic life and drinking water 
sources. EPA plans to reach out to affected stakeholders and to collect 
information to better characterize shale gas wastewaters and the 
efficiency of various treatment, re?use, and disposal technologies that 
will reduce shale gas wastewater pollutant discharges, including those 
technologies currently in use in public and private treatment plants. 
EPA also plans to collect financial data on the shale gas industry to 
determine the affordability of treatment.
    Question 7. States do not regulate fracturing under Underground 
Injection Control (UIC) programs, but EPA is stating that permits are 
required under the UIC program for fracturing. This calls into question 
whether states that have UIC primacy are meeting the requirements of 
the delegation process. How will EPA assure that it can withstand 
challenges to the primacy delegation of the UIC program now that it has 
created this inherent conflict?
    Answer. This matter falls under the jurisdiction of the EPA, and 
the Department defers to EPA for a complete response, but the 
Department understands that the SDWA specifically excludes hydraulic 
fracturing from UIC regulation under SDWA ' 1421 (d)(1), the use of 
diesel fuel during hydraulic fracturing is still regulated by the UIC 
program. Any service company that performs hydraulic fracturing using 
diesel fuel must receive prior authorization through the applicable UIC 
program. Just this month EPA published and is receiving public comments 
on draft Underground Injection Control (UIC) Class II permitting 
guidance for oil and gas hydraulic fracturing activities using diesel 
fuels that outlines for EPA permit writers, where EPA is the permitting 
authority, requirements for diesel fuels used for hydraulic fracturing 
wells, technical recommendations for permitting those wells, and a 
description of diesel fuels for EPA underground injection control 
permitting.
                                  usgs
    Question 1. Can you provide my staff with existing data by fiscal 
year showing USGS work to inventory or survey the mineral estate of US 
Public Lands?
    Answer. The USGS does not track our assessments by fiscal year nor 
by land classification [public versus private]; our assessments in 
general take 5-10 years and, particularly oil and gas assessments, 
cover geologically defined areas such as petroleum basins. Below, we 
provide information about funding levels for the Mineral Resources and 
Energy Resources Program from FY2002, as well as major resource 
assessments for the past decade or more. An attached table (see 
Attachment 1) shows USGS mean estimates of undiscovered, technically 
recoverable oil and gas resources. The table includes different 
commodities on different tabs, including conventional resources and 
continuous (unconventional). The numbers given represent the most 
recent USGS assessment of each basin from 1995 through 2011.

                                      MINERAL RESOURCE PROGRAM INFORMATION
                                               MRP Enacted Budgets
----------------------------------------------------------------------------------------------------------------
                                                          Research &           Minerals
                                                          Assessments         Information       Total  $1,000s
----------------------------------------------------------------------------------------------------------------
FY02                                                            $39,295             $16,400             $55,695
----------------------------------------------------------------------------------------------------------------
FY03                                                            $39,490             $16,283             $55,773
----------------------------------------------------------------------------------------------------------------
FY04                                                            $39,926             $15,884             $55,810
----------------------------------------------------------------------------------------------------------------
FY05                                                            $38,255             $15,509             $53,764
----------------------------------------------------------------------------------------------------------------
FY06                                                            $36,997             $15,787             $52,784
----------------------------------------------------------------------------------------------------------------
FY07                                                            $36,028             $15,608             $51,636
----------------------------------------------------------------------------------------------------------------
FY08                                                            $35,470             $15,360             $50,830
----------------------------------------------------------------------------------------------------------------
FY09                                                            $36,900             $15,527             $52,427
----------------------------------------------------------------------------------------------------------------
FY10                                                            $37,900             $15,880             $53,780
----------------------------------------------------------------------------------------------------------------
FY11                                                            $36,800             $15,600             $52,400
----------------------------------------------------------------------------------------------------------------
FY12                                                            $34,462             $14,769             $49,231
----------------------------------------------------------------------------------------------------------------


    Listed below are selected major Mineral Resource Program bodies of 
work that ended in the year noted (and scheduled to end in FY12). 
Projects followed by an asterisk include a combination of (1) 
inventories of known mineral resources (e.g. FY10 REE resource 
inventory), (2) qualitative mineral resource assessments outlining 
areas permissive for undiscovered mineral resources (e.g. FY02 Humboldt 
River assessment), and (3) quantitative mineral resource assessments 
providing a probabilistic estimate of the amount of undiscovered 
mineral resource in a permissive area (e.g. FY07 Bay Resource Area 
assessment). All other projects were research efforts to help decrease 
uncertainty in our mineral resource and mineral environmental 
assessments.
    Hyperlinks point to summary Fact Sheets, Circulars, project web 
pages with product lists, or to a representative example of one of many 
products that came from the effort. All listed efforts were funded from 
Research and Assessment dollars, and most had a lifespan of 5-10 years, 
though some were shorter-term efforts (e.g. the 2010 REE domestic 
inventory). So it is important to note that the FY funding should not 
be correlated with the work that ended in the corresponding FY. For 
example, GMRAP will end in FY12 but was funded from Research and 
Assessment dollars for the past 10 years.
FY02
  <bullet> Rare-earth element resources: A basis for high technology *
  <bullet> Aeromagnetic surveys of south-central Alaska
  <bullet> Resource Potential and Geology of the Grand Mesa, 
        Umcompahgre, and Gunnison National Forests and Vicinity, 
        Colorado *
  <bullet> Assessment of Metallic Resources in the Humboldt River Basin 
        (BLM Humboldt Resource Area), Northern Nevada *
FY03
  <bullet> Geology, geochemistry, and geophysics for mineral 
        exploration across the central Alaska Range (Talkeetna 
        Transect)
  <bullet> Integrated geologic, geochemical, and geophysical studies of 
        Yellowstone National Park
  <bullet> Availability and environmental effects of phosphate deposits 
        in southeastern Idaho and surrounding area
  <bullet> Geochemical processes occurring in mineral deposits in the 
        eastern US
FY04
  <bullet> Investigations of earth science methods to help interpret 
        the geologic links between mineral dusts (including asbestiform 
        minerals) and human health problems
  <bullet> Investigation of the Headwaters Province, Idaho and Montana, 
        to provide geoscience data and interpretations to the Federal 
        Land Management Agencies that are basic to sound policy and 
        land-stewardship practices *
  <bullet> Advanced resource assessment methods
  <bullet> Research on the relationship between plate tectonics and the 
        occurrence of a wide variety of geologic features in the 
        northwestern U.S. and Canada
  <bullet> Investigations of the geological and mineral resources of 
        Nevada
FY05
  <bullet> Geology and nonfuel mineral deposits of the United States *
  <bullet> Metals in Basinal Brines and Petroleum
  <bullet> Large Igneous Provinces, Alaska
FY06
  <bullet> Regional fluid flow, northern Alaska
  <bullet> Crustal evolution and fluid flow, northern Nevada
  <bullet> Industrial mineral studies
  <bullet> Complex systems modeling for mineral resources
  <bullet> Hydrothermal systems in Cascade volcanoes
  <bullet> Aqueous geochemistry research
FY07
  <bullet> Tintina metallogenic province: Integrated studies on 
        geologic framework, mineral resources, and environmental 
        signatures
  <bullet> Process studies of contaminants associated with mineral 
        deposits
  <bullet> Geochemical characterization of black shale (Mancos Shale)
  <bullet> Integrated geologic, geochemical, and geophysical studies of 
        Big Bend National Park, Texas
  <bullet> Pathways of metal transfer from mineralized sources to 
        bioreceptors
  <bullet> Undiscovered Locatable Mineral Resources in the Bay Resource 
        Management Plan Area, Southwestern Alaska: A Probabilistic 
        Assessment *
FY08
  <bullet> Central Colorado Assessment Project *
  <bullet> Geochemical and isotope studies of the evolution of ore 
        deposits
FY09
  <bullet> Regional geologic, geochemical, geophysical, and mineral 
        deposit data for economic development in Alaska in the 21st 
        century
  <bullet> Uncertainty and risk analysis in mineral resources
  <bullet> Tracers of surficial processes affecting mineral deposits in 
        humid environments
  <bullet> Mineral Resource Assessment of Northern Nye County, Nevada *
FY10
  <bullet> North American Soil Geochemical Landscapes Project
  <bullet> Federal Lands in Alaska--Geologic Studies (FLAG)
  <bullet> Geology, hydrothermal systems, and resources of the Cascades 
        arcs and central California Coast Ranges
  <bullet> Inventory of Rare Earth Resources of the United States *
FY11
  <bullet> Mineral Resources Data System *
  <bullet> Minerals at Risk and for Emerging Technologies
FY12
  <bullet> Global mineral resource assessment project (GMRAP) *
  <bullet> Updated National Mineral Resource Assessment--Planning Phase 
        *
  <bullet> Assessment Techniques for Concealed Mineral Resources
  <bullet> Development of Mineral Environmental Assessment 
        Methodologies
  <bullet> The Integrated Methods Development Project
  <bullet> Critical Zone Processes Across Landscapes
                  energy resources program information
Energy Resources Program Enacted amounts for FY2002 to FY2012:
    2002--$24,107,000
    2003--$23,705,000
    2004--$25,068,000
    2005--$23,250,000
    2006--$23,760,000
    2007--$25,150,000
    2008--$26,381,000
    2009--$26,749,000
    2010--$27,237,000
    2011--$27,750,000
    2012--$27,292,000

    Listed below are major domestic Energy Resource Assessments 
organized by commodity. This list does not include: (1) the research 
leading up to and resulting from the assessment activities, which are 
additional publications; (2) international assessments, which are a 
large part of the Energy Resources Program; (3) research on 
environmental aspects of energy occurrence and use.
    In a companion attachment is an excel spreadsheet showing USGS mean 
estimates of undiscovered, technically recoverable oil and gas 
resources. The spreadsheet includes different commodities on different 
tabs, including conventional resources and continuous (unconventional). 
The numbers given represent the most recent USGS assessment of each 
basin through 2011. Two additional assessments, published in 2012, have 
not yet been added to the table:

  <bullet> Alaska North Slope shale gas and shale oil: 0--2 billion 
        barrels of oil; 0--80 trillion cubic feet of gas
  <bullet> Eagle Ford Group, U.S. Gulf Coast Region, conventional and 
        continuous oil and gas [mean]: 994 million barrels of oil, 54 
        trillion cubic feet of gas, 2,028 million barrels natural gas 
        liquids

    Other major assessments of the Energy Resources Program include:

National Geothermal Assessment--2008

          Assessment results indicate electric power generation 
        potential from:

                  <bullet> identified geothermal systems is 9,057 
                Megawatts-electric (MWe), distributed over 13 states
                  <bullet> mean estimated power production potential 
                from undiscovered geothermal resources is 30,033 MWe
                  <bullet> another estimated 517,800 MWe could be 
                generated through implementation of technology for 
                creating geothermal reservoirs in regions characterized 
                by high temperature, but low permeability, rock 
                formations.
National Coal Resource Assessments
    (no numbers are given, as resources are reported out in a number of 
ways, and tables can be found in each of the links)
    Team, USGS Fort Union Assessment, 1999 Resource Assessment of 
Selected Tertiary Coal Beds and Zones in the Northern Rocky Mountains 
and Great Plains Region by Fort Union Assessment Team: U.S. Geological 
Survey Professional Paper 1625-A, Version 1.2, Discs 1 and 2. [CD-ROM]. 
http://pubs.usgs.gov/pp/p1625a/
    Group, USGS Colorado Plateau Coal Assessment, 2000, Geologic 
Assessment of Coal in the Colorado Plateau: Arizona, Colorado, New 
Mexico, and Utah, compiled by Colorado Plateau Coal Assessment Group: 
U.S. Geological Survey Professional Paper 1625-B, Version 1.0, 
Appendix. [CD-ROM]. http://pubs.usgs.gov/pp/p1625b/
    Northern and Central Appalachian Basin Coal Regions Assessment 
Team, USGS Northern and Central Appalachian Basin Coal Regions 
Assessment, 2001, 2000 Resource Assessment of Selected Coal Beds and 
Zones in the Northern and Central Appalachian Basin Coal Regions, by 
Northern and Central Appalachian Basin Coal Regions Assessment Team: 
U.S. Geological Survey Professional Paper 1625-C. [CD-ROM]. http://
pubs.usgs.gov/prof/p1625c/
    Hatch, J.R., and Affolter, R.H., 2002, Resource Assessment of the 
Springfield, Herrin, Danville and Baker Coals in the Illinois Basin: 
U.S. Geological Survey Professional Paper 1625-D. [CD-ROM]. http://
greenwood.cr.usgs.gov/energy/coal/PP1625D/
    Osmonson, L. M., Scott, D.C., Haacke, J.E., Luppens, J.A., and 
Pierce, P.E., 2011, Assessment of Coal Geology, Resources, and Reserves 
in the Southwestern Powder River Basin, Wyoming: U.S. Geological Survey 
Open-File Report 2011--1134, 135 p.http://pubs.usgs.gov/of/2011/1134/
Oil Shale Resources:Piceance Basin:
    Johnson, R.C., Mercier, T.J., Brownfield, M.E., Pantea, M.P., and 
Self, J.G., 2009, Assessment of in-place oil shale resources of the 
Green River Formation, Piceance Basin, western Colorado: U.S. 
Geological Survey Fact Sheet 2009--3012, 6 p. http://pubs.usgs.gov/fs/
2009/3012/

          Estimated in-place oil is about 1.5 trillion barrels, based 
        on Fischer assay results from boreholes drilled to evaluate oil 
        shale, making it the largest oil shale deposit in the world.

Uinta Basin
    Johnson, R.C., Mercier, T.J., Brownfield, M.E., and Self, J.G., 
2010, Assessment of in-place oil shale resources of the Green River 
Formation, Uinta Basin, Utah and Colorado: U.S. Geological Survey Fact 
Sheet 2010-3010, 4 p. http://pubs.usgs.gov/fs/2010/3010/

          The total in-place resource for the Uinta Basin is estimated 
        at 1.32 trillion barrels.

Green River Basin
    Johnson, R.C., Mercier, T.J., and Brownfield, M.E., 2011, 
Assessment of In-Place Oil Shale Resources of the Green River 
Formation, Greater Green River Basin in Wyoming, Colorado, and Utah: 
U.S. Geological Survey Fact Sheet 2011-3063, 4 p. http://pubs.usgs.gov/
fs/2011/3063/

          Total in-place resources are estimated at 1.44 trillion 
        barrels of oil.
                             blm/livestock
    Question 1. Why has the BLM proposed an administrative fee on 
grazing which will raise the cost of grazing on BLM administered lands 
by 74%? Is it this Administration's intent to balance the budget on the 
backs of rural America and small businesses? We adamantly oppose this 
arbitrary fee and encourage a stop this misguided action.
    Answer. The permit administration fee is proposed to recover some 
of the costs for processing grazing permits/leases for the permittees 
who are economically benefitting from use of the public lands. This is 
the same concept as used in the Oil and Gas program and Rights-of-Way 
program, where the users of the public lands pay a fee for the 
processing of their permits and related work. The budget includes 
appropriations language for a three-year pilot program, beginning in 
2013, which would allow BLM to recover some of the costs of issuing 
grazing permits/leases on BLM lands. During the period of the pilot, 
BLM would work through the process of promulgating regulations for the 
continuation of the grazing administrative fee as a cost recovery fee 
after the pilot expires.
    Question 2. Why, after Congress having just last year decided to 
increase the range budget, would the administration propose to cut that 
budget by nearly $16 million? How do you propose to keep pace with 
permit renewals given the NEPA backlog, or deal with ever-increasing 
litigation costs, while cutting the range budget? Won't more missed 
deadlines, due to lack of resources, lead to more litigation--thereby 
creating a self-feeding, vicious cycle?
    Answer. The FY 2013 budget requests a program decrease of $15.8 
million from 2012. The BLM is using the increase over FY 2011 in FY 
2012 to address numerous challenges, including completion of grazing 
permit renewals; monitoring of grazing allotments; and strengthening 
the BLM's environmental documents. The decrease will be partially 
offset by the proposed pilot project for an administrative processing 
fee of $1 per animal unit month that is estimated to generate $6.5 
million in 2013, which will be returned to the BLM to use for the same 
purposes.In addition, section 415 in the FY 2012 Appropriations Act 
assists BLM in meeting several challenges with grazing activities. That 
section specifies that the transfer of a grazing permit, during the 
term of the permit, is not subject to additional NEPA if there is no 
change in the mandatory terms and conditions required. This provision 
will significantly streamline the work process on approximately 10 to 
15 percent of BLM's annual permit workload, and allow BLM to process 
permits originally scheduled to expire. It allows the BLM more 
opportunity to focus on analysis of environmentally-significant 
permits. Focusing on the most environmentally sensitive allotments will 
increase attention on land health assessments and quantitative data 
collection; improve the usefulness of both the RMP/EIS and site-
specific NEPA analyses; and result in grazing management decisions 
guiding land health solutions for the future. This strategy will assist 
in ensuring that unprocessed permits consist of the least 
environmentally-sensitive allotments that are more custodial in nature 
and/or are already meeting land health standards. Section 415 also 
extends, through 2013, the BLM's ability to renew expiring grazing 
permits without additional NEPA analysis. This provision will allow the 
BLM to focus on the grazing permit renewals in high-priority areas.
    Question 3. Research shows that most public lands ranchers already 
pay more than market price for their federal permits, considering 
factors such as added regulatory costs, ownership of water rights, 
maintenance of improvements, and the difficulties of managing livestock 
in rough, arid rangelands. Have you analyzed how many ranching 
operations would go out of business in light of this 74% increase in 
the cost of grazing fees? Or what the cost would be to BLM if ranchers 
were not there to provide land management services, such as fuels 
reduction and fire prevention, open space, noxious weed control, and 
water improvements for wildlife?
    Answer. As noted in response to a previous question, the permit 
administration fee is proposed to recover some of the costs for 
processing grazing permits or leases for the permittees who are 
economically benefitting from use of the public lands, and it is the 
same concept used in the Oil and Gas program and Rights-of-Way program, 
where the users of the public lands pay a fee for the processing of 
their permits and related work. The three-year pilot program proposed 
in the budget would allow BLM to recover some of the costs of issuing 
grazing permits or leases on BLM lands and, during that period, the 
bureau would work through the process of promulgating regulations for 
the continuation of the grazing administrative fee as a cost recovery 
fee after the pilot expires.
    Question 4. Why does the Department continually back down from 
gathering excess wild horses and burros and buckle to special interest 
groups on implementing management options to reduce wild horses on the 
range, while continuing to come back to Congress and ask for more funds 
for the program?
    Answer. The BLM conducts gathers in the areas of highest priority 
and as compatible with funding levels and available holding space. 
While some gathers have been delayed due to litigation, the BLM has 
continued to pursue other options to reduce population growth on the 
range. The BLM is finalizing a wild horse and burro management strategy 
as part of its ongoing effort to reform the Wild Horse and Burro 
Program and put it on a cost-effective, sustainable track. The strategy 
emphasizes population control techniques, including fertility control; 
promotes public-private ecosanctuaries to hold excess wild horses 
removed from Western public rangelands; seeks to boost adoptions by 
making more trained wild horses available to the public; and 
establishes a comprehensive animal welfare program.
    Question 5. Preventing the listing of the Sage Grouse under the ESA 
is a goal we can all rally behind. In fact, many ranchers have been 
making great efforts to improve the bird's habitat. Ranching and 
grazing is critical to Sage Grouse habitat. How will you use funds 
allocated in 2013 to ensure that your Sage Grouse planning efforts 
reward ranchers for their efforts and help them stay in business so 
that they may continue preserving Sage Grouse habitat?
    Answer. The BLM is committed to working with public land users to 
discuss their concerns throughout our sage-grouse planning process. 
Although the BLM does not have resources to provide financial 
incentives to ranchers as part of our sage-grouse planning process, our 
efforts to improve sage grouse conservation through better planning 
will help to improve certainty for ranchers that they will be able to 
continue to graze on Federal lands in the future. The Department of 
Agriculture's Natural Resources Conservation Service does provide 
incentives for ranchers to complete habitat improvement projects on 
private lands through their Sage-Grouse Initiative. The U.S. Fish and 
Wildlife Service can also provide assurances for activities on private 
lands through Candidate Conservation Agreements with Assurances.
    Question 6. The President has proposed millions of dollars in 
decreases to programs that provide economic benefit to the country, 
while simultaneously proposing a $70 million increase to a fund (the 
Land and Water Conservation Fund) to grow the federal estate. How do 
you juxtapose managing more land while dealing with an even smaller 
budget? How would you rate your ability to keep up with current land 
management duties, such as catastrophic wildfire control, grazing 
permit renewals, and wild horse management? Common sense tells us that 
the agency will have difficulty managing all these responsibilities on 
more land, with fewer dollars.
    Answer. The FY 2013 budget request ensures that Departmental 
agencies will be able to maintain their core responsibilities on 
federal lands while providing for strategic increases to conserve land 
for current and future generations. The lands identified for 
acquisition in the FY 2013 budget request address the most urgent needs 
for recreation; species and habitat conservation; and the preservation 
of landscapes, and historic and cultural resources. Such acquisition 
may also assist the government to achieve greater efficiencies that 
resolve management issues. In addition, increased federal land 
acquisition funding would provide more opportunities for landowners, if 
they wish, to sell their property yet ensure that it will be protected 
in perpetuity rather than developed in a way that threatens resources 
in national parts, wildlife refuges, forests, and other public lands.
 Responses of Secretary Ken Salazar to Questions From Senator Barrasso
    Question 1. Soda ash is a great American export. It reduces our 
nation's trade deficit and creates good-paying jobs. However, it is in 
competition with heavily subsidized synthetic soda ash from China. In 
the House, you testified that you do not have the authority to extend 
the 2 percent royalty rate to America's soda ash producers under 
current law. What other steps can you take to assist America's soda ash 
producers?
    Answer. As noted in recent testimony before the Committee, the BLM 
reported to Congress in fall 2011 in its report titled U.S. Department 
of the Interior Report to Congress: The Soda Ash Royalty Reduction Act 
of 2006 that the Soda Ash Royalty Reduction Act of 2006 resulted in a 
substantial loss of royalty revenues to the Federal Government and the 
states which exceeded Congressional estimates at the time of enactment. 
The royalty rate reduction does not appear to have contributed in a 
significant way to the creation of new jobs within the industry, to 
increased exports, or to a notable increase in capital expenditures to 
enhance production. In addition, the royalty rate reduction appears to 
have influenced a shift of production away from state leases and 
private lands and onto Federal leases.
    Regarding global competitiveness, the report found that U.S. 
production has remained stable at around 11 million tons since 2002, 
with exports stable at around 5 million tons since 2005. U.S. exports 
continue to account for over 40 percent of total world exports. In 
contrast, China's production has doubled since 2002, from approximately 
10 million to approximately 20 million tons, while Chinese exports 
remain far below U.S. exports. Since 2002, world-wide production has 
risen from 37 million tons to 48 million tons in 2010.
    Finally, the report found that overall domestic employment has not 
increased since passage of the Act. However, it is not readily apparent 
from the available data whether jobs have been maintained due to the 
royalty rate reduction in the face of the global economic downturn. Any 
analysis of the number of jobs maintained during the royalty reduction 
period is highly uncertain; employment levels in the industry depend on 
a number of factors, such as soda ash market conditions and employee 
productivity.
    Question 2. The Office of Surface Mining (OSM) is rewriting the 
2008 stream buffer rule. I understand that OSM's 2008 rule took about 
five years to complete. I understand that this process involved two 
proposed rules, approximately 5,000 pages of environmental analysis, 
and took into account about 40,000 public comments.

          a. How much is the rewrite of the 2008 rule costing 
        taxpayers?
          b. How many coal mining jobs would be impacted if the new 
        rule were implemented today?
          c. What steps are you taking to ensure that OSM complies with 
        the National Environmental Policy Act and the Administrative 
        Procedure Act?
          d. What steps are you taking to ensure that OSM provides 
        cooperating state agencies and the public sufficient time to 
        comment on the new rule and participate in the rulemaking 
        process?

    Answer. OSM has been developing improvements of its regulations to 
more completely implement the Surface Mining Control and Reclamation 
Act by better protecting streams from the adverse impacts of coal 
mining while helping meet the nation's energy needs. Since 2009, OSM 
has spent about $7.7 million to develop this rulemaking, with the 
majority of the expenditures representing obligations for contract 
support to develop portions of an Environmental Impact Statement and 
the regulatory impact analysis. OSM is developing this rule in response 
to litigation as well as in consideration of the more than 50,000 
comments the bureau has received from the public on the Advance Notice 
of Proposed Rulemaking (ANPR), stakeholder outreach meetings and public 
scoping meetings, and also based on OSM's statutory obligation to 
balance protection of the environment against production of the coal 
necessary to meet the Nation's energy requirements. The proposed rule 
and Draft EIS, when published, will contain a detailed economic 
analysis, including any anticipated impacts on jobs in the coal mining 
industry.
    OSM published an ANPR on which the bureau received over 32,000 
public comments, and conducted nine scoping sessions pursuant to the 
National Environmental Policy Act, receiving over 20,000 comments. The 
Proposed Rule and Draft EIS will be made available for public notice 
and comment in accordance with the Administrative Procedure Act, NEPA, 
and other applicable federal laws. Prior to publishing a Final Rule and 
EIS, the bureau will consider public comments received on the proposal. 
Fourteen state agencies, acting as cooperating agencies on the OSM's 
Draft EIS, reviewed and provided extensive comments on early working 
versions of the Draft EIS. OSM has taken those comments into 
consideration as it develops both its Proposed Rule and Draft EIS. When 
OSM publishes its Proposed Rule and makes available its Draft EIS in 
the Federal Register, the states, along with the public, will have the 
opportunity to review and provide comments on those documents in 
accordance with applicable laws.
    Question 3. It is my understanding that OSM is rewriting the 2008 
stream buffer rule to address an issue specific to the Appalachian 
region. However, the rule will affect every coal mine throughout the 
country.

          a. Has OSM provided any documentation or evidence that there 
        is a nationwide problem that requires a new rulemaking?
          b. If so, when did OSM provide this documentation and will 
        you share it with the Committee?

    Answer. As noted in response to the previous question, OSM is still 
in the process of developing its Proposed Rule and Draft EIS. Those 
documents, when published and made available for public notice and 
comment, will provide a full explanation of the scope of the Proposed 
Rule, including reasons for the geographic application of various 
provisions of the Proposed Rule, as appropriate and in accordance with 
applicable law. When OSM completes its development of these documents, 
they will be published and made available to the public, and they will 
detail the basis for provisions of the proposal.
    Question 4. I understand that the Department is working with other 
Federal agencies to expedite the permitting process for a number of 
large renewable energy projects.
    Is the Department taking any steps to reduce the delays in the 
permitting process for traditional energy projects (including oil and 
gas and coal projects)? If so, please describe the steps your 
Department is taking. If not, please explain why the Department is not 
addressing these delays.
    Answer. On April 3, 2012, Secretary Salazar unveiled new 
initiatives to expedite safe and responsible leasing and development of 
domestic energy resources on U.S. public and Indian trust lands. As 
part of the BLM's ongoing efforts to ensure efficient processing of oil 
and gas permit applications on both Tribal trust and public lands, the 
agency will implement new automated tracking systems that could reduce 
the review period for drilling permits by two-thirds. The new system 
will track permit applications through the entire review process and 
quickly flag any missing or incomplete information--greatly reducing 
the back-and-forth between BLM and industry applicants. The new 
drilling permit system will automate the process that tracks APDs, 
providing greater online accessibility and transparency. It will 
improve communication between the BLM and industry, resulting in more 
consistent APD processing standards and timeframes and a significantly 
reduced review period. The new system will allow the public and 
operators to view the BLM processing status of APDs, enabling operators 
to more promptly address deficiencies in their applications. By 
upgrading and improving our oil and gas drilling permit processing 
systems and technologies we believe we can improve efficiencies while 
ensuring thorough reviews for safety and compliance.
    Question 5. The BLM is proposing a 3-year pilot program to charge a 
$1.00 per Animal Unit Month administrative fee to assist processing of 
grazing permits. This proposal would represent a 75% increase for 
ranchers who have grazing permits. The grazing fee formula is set by 
law in the Public Rangelands Improvement Act of 1978, and in an 
Executive Order signed by President Reagan.
    Under what authority are you raising by 75% the amount paid per AUM 
by grazing permit holders?
    Answer. The BLM is not raising the current grazing fee. The goal of 
the administrative fee proposed in the Budget Request is to recover 
some of the cost of processing grazing permits or leases for the 
parties (permittees) who are economically benefitting from use of the 
public lands. This fee mirrors the concept used in the Oil and Gas and 
Rights-of-Way programs where the users of the public lands pay a fee 
for the processing of their permits and related work. The budget 
includes appropriations language for a three-year pilot program, 
beginning in 2013, which would allow BLM to recover some of the costs 
of issuing grazing permits/leases on BLM lands. During the period of 
the pilot, BLM would work through the process of promulgating 
regulations through the traditional notice and public comment process 
for the continuation of the grazing administrative fee as a cost 
recovery fee after the pilot expires.
    Question 6. During the pilot period, the BLM will be working to 
promulgate regulations for the continuation of this $1/AUM grazing fee 
as a ``cost recovery fee'' after the pilot expires.

          a. Does it cost the BLM more time and resources to process 
        grazing permit applications, or fight anti-grazing litigation 
        lawsuits?
          b. How much does your department spend processing grazing 
        permits? defending anti-grazing litigation?
          c. If there needs to be a cost recovery fee for processing 
        grazing applications, shouldn't the BLM also explore ways to 
        recover cost associated with frivolous litigation?

    Answer. Processing grazing permit applications costs the BLM more 
than addressing litigation lawsuits. The average annual cost to process 
grazing permit applications is approximately $35 million to $40 
million. The BLM does not have detailed expenditures related to anti-
grazing litigation, but the costs associated with range management-
related litigation in FY 2011 were approximately $850,000, and for FY 
2012 the costs to date are $456,000. These costs do not include EAJA 
fee payments or costs associated with work of the Department of the 
Interior Solicitor's Office. The Department is open to working on 
opportunities to address costs associated with frivolous litigation.
    Responses of Secretary Ken Salazar to Questions From Senator Lee
    Question 1. Mr. Secretary, please detail your reasoning behind the 
proposed administrative fee on grazing on BLM-administered lands. In 
percentage terms, how much will this raise the cost of grazing? Please 
explain how you analyzed the impact that such percentage increase would 
have on ranchers and other small businesses that rely on BLM lands for 
grazing. Please include in your explanation any stakeholder input that 
you received from ranchers and local small businesses.
    Answer. The goal of the administrative fee is to recover some of 
the cost of processing grazing permits or leases for the parties 
(permittees) who are economically benefitting from use of the public 
lands. This fee mirrors the concept used in the Oil and Gas and Rights-
of-Way programs where the users of the public lands pay a fee for the 
processing of their permits and related work. The budget includes 
appropriations language for a three-year pilot program, beginning in 
2013, which would allow BLM to recover some of the costs of issuing 
grazing permits/leases on BLM lands. During the period of the pilot, 
BLM would work through the process of promulgating regulations through 
the traditional notice and public comment process for the continuation 
of the grazing administrative fee as a cost recovery fee after the 
pilot expires.
    Question 2. Mr. Secretary, please explain in more detail your 
proposal to reduce wild horse and burro populations on public lands. 
Please describe the various options considered and why your chosen 
option is the most cost-effective and efficient method.
    Answer. The BLM proposed a long-term strategy in February 2011 for 
accelerating reforms on how wild horses and burros are managed on 
public lands. The bureau is working to finalize this strategy, which 
will guide BLM activities through FY 2014 while the National Academy of 
Sciences completes a two-year independent study of wild horse 
management practices and research needs.
    The strategy will put the program on a cost-effective, sustainable 
track by emphasizing population control techniques, including fertility 
control; promoting public-private ecosanctuaries to hold excess wild 
horses removed from Western public rangelands; seeking to boost 
adoptions by making more trained wild horses available to the public; 
and establishing a comprehensive animal welfare program. The FY 2013 
budget proposes a $2 million increase to further the research and 
development of fertility control techniques.
    Question 3. Mr. Secretary, in 2009, Congress passed the Utah 
Recreational Land Exchange Act that was widely supported by the State 
of Utah, local governments, the environmental community and the 
Department of Interior. This exchange benefits the school children of 
Utah and it gives the BLM some of the most sensitive conservation lands 
in Utah--including lands within your designated ``Crown Jewels''. Yet, 
the reason this exchange has not progressed is that the BLM refuses to 
pay for its half of the appraisal costs for the transaction. When will 
the BLM pay its half of these transaction costs and carry out the will 
of Congress?
    Answer. The BLM in Utah is working cooperatively with the State of 
Utah's School and Institutional Trust Lands Administration (SITLA) to 
move forward on the appraisal process required by Public Law 111-53. In 
August, 2011, the State and BLM signed the exchange agreement that 
documents the responsibilities of both the State and BLM to complete 
the exchange. Because this is a complex exchange including lands with 
potentially high mineral values, the process is complicated. BLM is 
working to prioritize its funding for high-priority land exchanges, 
including its commitments under P.L 111-53.
    Question 4. In 2007, the BLM issued several RD&D leases, one of 
which is in Utah. Can you confirm for the record that the current PEIS 
effort will not impact these previous leases and that these leases will 
be considered prior existing rights?
    Answer. The scope of the analysis for this PEIS does not include 
review of the decisions by the Secretary to issue the 2007 RD&D leases, 
including the lease in Utah's Uintah Basin. As noted in the PEIS, those 
RD&D leases are prior existing rights and are not the subject of 
decisions within the PEIS, with the exception that all alternatives 
address the subsequent availability of the lands contained in the 
leases should the initial leaseholder relinquish the existing leases.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
